<html>
<title> - PENDING HEALTH CARE AND BENEFITS LEGISLATION</title>
<body><pre>[Senate Hearing 114-242]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 114-242
 
              PENDING HEALTH CARE AND BENEFITS LEGISLATION

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON VETERANS' AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 6, 2015

                               __________

       Printed for the use of the Committee on Veterans' Affairs
       
       
       
       
       
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      
       
       
       
       


         Available via the World Wide Web: http://www.fdsys.gov
         
         
         
         
         
                              _________ 
                   U.S. GOVERNMENT PUBLISHING OFFICE
                  
 96-928 PDF                 WASHINGTON : 2016       
_________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office,
      Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
     Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001                         
         
         
         
         
         
         
         
                     COMMITTEE ON VETERANS' AFFAIRS

                   Johnny Isakson, Georgia, Chairman
Jerry Moran, Kansas                  Richard Blumenthal, Connecticut, 
John Boozman, Arkansas                   Ranking Member
Dean Heller, Nevada                  Patty Murray, Washington
Bill Cassidy, Louisiana              Bernard Sanders, (I) Vermont
Mike Rounds, South Dakota            Sherrod Brown, Ohio
Thom Tillis, North Carolina          Jon Tester, Montana
Dan Sullivan, Alaska                 Mazie K. Hirono, Hawaii
                                     Joe Manchin III, West Virginia
                       Tom Bowman, Staff Director
                 John Kruse, Democratic Staff Director
                 
                 
                            C O N T E N T S

                              ----------                              

                            October 6, 2015
                                SENATORS

                                                                   Page
Isakson, Hon. Johnny, Chairman, U.S. Senator from Georgia........     1
Blumenthal, Hon. Richard, Ranking Member, U.S. Senator from 
  Connecticut....................................................     1
Rounds, Hon. Mike, U.S. Senator from South Dakota................    20
Tester, Hon. Jon, U.S. Senator from Montana......................    22
Boozman, Hon. John, U.S. Senator from Arkansas...................    24
Moran, Hon. Jerry, U.S. Senator from Kansas......................    25
Tillis, Hon. Thom, U.S. Senator from North Carolina..............    27
Sullivan, Hon. Dan, U.S. Senator from Alaska.....................    27

                               WITNESSES

Feinstein, Hon. Dianne, U.S. Senator from California.............     2
    Letters for the record are included in the Appendix..........    81
Donnelly, Hon. Joe, U.S. Senator from Indiana....................     3
Shaheen, Hon. Jeanne, U.S. Senator from New Hampshire............     5
Lynch, Thomas, M.D., Assistant Deputy Under Secretary for Health 
  Clinical Operations, Veterans Health Administration, U.S. 
  Department of Veterans Affairs; accompanied by Vincent Kane, 
  Special Assistant to the Secretary; and Jennifer Gray, Staff 
  Attorney, Office of General Counsel............................     7
    Prepared statement...........................................     8
    Additional views.............................................    12
    Response to posthearing questions submitted by Hon. Richard 
      Blumenthal.................................................    19
Augustine, Lauren, Legislative Associate, Iraq and Afghanistan 
  Veterans of America............................................    30
    Prepared statement...........................................    32
Celli, Louis, Jr., Director, National Veterans Affairs and 
  Rehabilitation Division, The American Legion...................    34
    Prepared statement...........................................    36
Harig-Blaine, Elisha, Principal Housing Associate, (Veterans and 
  Special Needs), National League of Cities......................    39
    Prepared statement...........................................    41
        Appendix A-C.............................................    44
Norris, David B., National Legislative Vice-Chairman, Department 
  of California, Veterans of Foreign Wars of the United States...    48
    Prepared statement...........................................    49

                                APPENDIX

Hagel, Hon. Lawrence B., Chief Judge, U.S. Court of Appeals for 
  Veterans Claims; prepared statement............................    57
Kirch, Darrell G., M.D., President and Chief Executive Officer, 
  The Association of American Medical Colleges (AAMC); letter....    58
Atizado, Adrian M., Deputy National Legislative Director, 
  Disabled American Veterans (DAV); prepared statement...........    60
Scott, Gregory C., President & CEO, New Directions for Veterans; 
  letter.........................................................    64
Rauber, Diane Boyd, Esq., Director of Legislative and Regulatory 
  Affairs, National Organization of Veterans' Advocates, Inc. 
  (NOVA); prepared statement.....................................    67
Stichman, Barton F., Joint Executive Director, National Veterans 
  Legal Services Program (NVLSP); prepared statement.............    68
Paralyzed Veterans of America (PVA); prepared statement..........    70
Morosky, Aleks, Deputy Director, National Legislative Service, 
  Veterans of Foreign Wars of the United States (VFW); prepared 
  statement......................................................    72
Lieu, Rep. Ted W., U.S. Member of Congress from California; 
  letter.........................................................    75
Peck, Stephen, MWS, President & CEO, United States Veterans 
  Initiative (U.S.VETS); letter..................................    77
Ward, Orlando, Executive Director of Public Affairs, Volunteers 
  of America--Greater Los Angeles; letter........................    79

              Letters Submitted by Senator Diane Feinstein

Blumenfield, Bob, Councilmember, Third District, City of Los 
  Angeles; letter................................................    81
Cragg, Jim, Director, Green Vets LA; letter......................    82
Napolitano, Janet, President, University of California; letter...    83
Toebben, Gary, President & CEO, Los Angeles Area Chamber of 
  Commerce; letter...............................................    85
Koretz, Paul, Councilmember, Fifth District, City of Los Angeles; 
  letter.........................................................    86
Bonin, Mike, Councilmember, Eleventh District, City of Los 
  Angeles; letter................................................    87
Garcetti, Eric, Mayor, City of Los Angeles; letter...............    88
Roman, Nan, President and CEO, The National Alliance to End 
  Homelessness; letter...........................................    89
Block, Gene D., Chancellor, University of California, Los Angeles 
  (UCLA); prepared statement.....................................    90
Gideon, Melanie, MHSA, Director, UCLA Health--Operation Mend, 
  Executive Advisor, UCLA Health Sound Body Sound Mind; letter...    91
Allen, Ben, Senator, 26th District, California State Senate; 
  letter.........................................................    93
Blecker, Michael, Executive Director, Swords to Plowshares; 
  letter.........................................................    94
Guest, Joseph ``Nick'', Adjutant/Quartermaster, Veterans of 
  Foreign Wars, Department of California; letter.................    95
Members of the Board of Supervisors, County of Los Angeles; 
  letter.........................................................    96


              PENDING HEALTH CARE AND BENEFITS LEGISLATION

                              ----------                              


                        TUESDAY, OCTOBER 6, 2015

                                       U.S. Senate,
                            Committee on Veterans' Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:30 p.m., in 
room 418, Russell Senate Office Building, Hon. Johnny Isakson, 
Chairman of the Committee, presiding.
    Present: Senators Isakson, Moran, Boozman, Heller, Rounds, 
Tillis, Sullivan, Blumenthal, Brown, and Tester.

           OPENING STATEMENT OF HON. JOHNNY ISAKSON, 
              CHAIRMAN, U.S. SENATOR FROM GEORGIA

    Chairman Isakson. I call this Senate Committee to order. I 
would like to give a little pre-announcement. In the interest 
of everybody on the panel, all three distinguished Senators, as 
well as our audience and our Committee, as soon as we have 
eight members present, we are going to go into executive 
session so we can act on the nomination of Michael Michaud. So, 
if you do not mind, I will interrupt you for a brief time once 
we get to eight--if we get to eight--during your testimony.
    We are pleased today to have three Members of the Senate to 
discuss legislation that they have proposed to the Senate. We 
also have two distinguished panels who will comment on their 
legislation as well as other legislation. We are delighted that 
you are here, and as I said, we are going to use this meeting 
also for a markup whenever we get to a quorum of eight, with at 
least one minority member part of the eight. We will have our 
vote on Mike Michaud and send that on to the floor. I 
appreciate the Ranking Member's and all the members' 
cooperation in moving as quickly as we can on Mike because it 
is important that we get his nomination sent to the entire 
Senate.
    The bills we have today are about: our land use in West Los 
Angeles, our veterans' benefits in terms of mental health, 
access to mental health, and many other provisions that are 
important to our veterans. I look forward to the testimony of 
all our Senators. I look forward to the testimony of our 
Committee Members.
    I will now recognize Senator Blumenthal for any remarks he 
has.

             STATEMENT OF HON. RICHARD BLUMENTHAL, 
         RANKING MEMBER, U.S. SENATOR FROM CONNECTICUT

    Senator Blumenthal. In the interest of our colleagues' 
time, I just want to thank you for being here. These measures 
that you have proposed are very worthwhile, and we look forward 
to your testimony.
    Thank you.
    Chairman Isakson. Each member will get 5 minutes. It is the 
Committee's tradition not to ask questions, so as soon as you 
have made your testimony, if you would like to be excused, you 
are welcome to.
    Senator Feinstein, we are delighted to have you. You will 
be first.

              STATEMENT OF HON. DIANNE FEINSTEIN, 
                  U.S. SENATOR FROM CALIFORNIA

    Senator Feinstein. Thank you very much, Mr. Chairman, 
Ranking Member Blumenthal, and Members on both sides of the 
aisle. I am going to speak today on the Los Angeles Homeless 
Veterans Leasing Act, a bill I introduced with Senator Boxer. I 
would like to thank David Norris from the California chapter of 
the Veterans of Foreign Wars for traveling to Washington to 
testify in support of our proposal.
    This bill would allow a facility, which is a very large 
facility--it is 388 acres on Wilshire and San Vicente. On the 
north side of Wilshire is a veterans' cemetery, and on the 
south side of Wilshire is a very large complex, including a 
hospital, several buildings, a UCLA baseball diamond, and many 
other things. It is rundown. It needs help.
    Now, the majority of veterans, the largest number of 
veterans in America, actually live in Los Angeles. There are 
300,000 of them, and more than 4,000 have no place to go. They 
are, in fact, homeless. Ten percent of the veterans in this 
country live in Southern California. Simply put, we need to get 
things right at the West L.A. VA.
    I would like to briefly recap the history. Every VA 
facility in the country has the leasing authority provided in 
my bill except for the West L.A. VA. In 2007, Congress took 
that authority away after it became clear that leases were 
being granted to commercial entities that were not serving 
veterans. This included everything from a movie lot to a 
laundry facility. The problem led to a 2011 lawsuit, which was 
settled earlier this year.
    Now, thanks to the leadership of VA Secretary Bob McDonald, 
we are back on the right track. Since he has taken over, we 
have spoken many times about the issues L.A. veterans face. He 
has put an excellent new team together. I met with them in Los 
Angeles last month and was thoroughly briefed.
    I believe we now have a path forward to make sure the 
campus fulfills its obligation to serve the veterans, and here 
is why: this land is a grant from a former Senator by the name 
of Jones and the Bandini family in 1888. The grant said it has 
to be used exclusively for veterans. So, at a certain time, 
facilities were rented out like a Fox studio back lot to: UCLA 
for a baseball stadium; a laundry; and a rental car business. 
Well, that is not for veterans.
    This enhanced lease would enable the VA to partner with and 
thereby access about $600 million of the State of California's 
money, which has been specifically earmarked for veterans, on 
that facility. At present, that cannot be done.
    So, it is an essential tool to implement the new Master 
Plan, and it will allow the Department to build housing more 
quickly and more affordably than it would be able to through 
the traditional VA construction process.
    I also want to thank this Committee. You authorized funds 
for the first building for homeless vets. They now have 55 
units. We have $35 million for the second building, and the 
thrust here is to allow nonprofits to come in for the specific 
purpose of building veterans housing.
    So, I am hopeful that--let me just point a couple of things 
out. New leases must be consistent with the Master Plan. The 
Office of Inspector General will regularly report on any new 
leases and land-use agreements. If the VA is not in compliance, 
new leases will be prohibited. The VA must submit a report to 
Congress 45 days before entering into any new lease agreement.
    I truly believe--and I have worked on this for 10 years 
now--that this plan will help turn the page and ensure that we 
are doing everything we possibly can for veterans in Los 
Angeles going forward.
    Mr. Chairman, I would like to insert letters of support 
from local officials, homeless advocacies, and veterans groups 
into the hearing record.
    Chairman Isakson. Without objection.
    Senator Feinstein. Thank you very much for this courtesy.

    [The letters are found in the Appendix.]

    Chairman Isakson. Well, thank you, Senator Feinstein.
    I want the Committee to know that Senator Feinstein has 
worked with me diligently to try to bring this to a conclusion. 
Today's testimony is very helpful in that. The VA, I 
understand, will have the Master Plan completed by October 22. 
We intend to move forward as quickly and expeditiously as 
possible. We appreciate your input.
    For the benefit of the other Members, we are going to go 
into an executive session for just 2 minutes, if you do not 
mind, so if everybody will stay put.

    [Whereupon, at 2:37 p.m., the Committee proceeded to other 
business and reconvened at 2:38 p.m.]

    Chairman Isakson. Thank you for your patience.
    Next we will hear from Senator Donnelly. Welcome to the 
Committee.

                STATEMENT OF HON. JOE DONNELLY, 
                   U.S. SENATOR FROM INDIANA

    Senator Donnelly. Thank you, Mr. Chairman.
    Chairman Isakson, Ranking Member Blumenthal, and Members of 
the Committee, thank you for holding this hearing today. I 
appreciate the opportunity to speak briefly with you about my 
legislation, S. 717, the Community Provider Readiness 
Recognition Act.
    Mr. Chairman, as you know, the suicide rate among our 
military servicemembers and veterans is not just a tragedy; it 
is a crisis. Last year, we lost 443 servicemembers to suicide. 
Last week, the Department of Defense reported we have seen more 
than 200 military suicides in the first half of this year. We 
are all painfully aware of the statistic that 22 veterans every 
day take their own lives.
    In Indiana, we have lost too many Hoosier veterans to this 
scourge. I am sure each Member of this Committee can say the 
same about your homestate.
    Despite the time and effort we, DOD, and VA have put into 
combating military and veteran suicide, these numbers and the 
stories of each of these preventable deaths tell us how much 
more work we have to do.
    The key challenge we must overcome is tackling this problem 
with a clear-eyed understanding of how stigma, provider 
shortages, and budget constraints impact when and how veterans 
and servicemembers seek care.
    I have worked over the past 3 years to advance common-sense 
bipartisan legislation to meet that challenge. We took an 
important step forward last year with the Jacob Sexton Military 
Suicide Prevention Act, which was part of the National Defense 
Authorization last year.
    This year, I am working with several Republican colleagues 
to advance the Servicemember and Veteran Mental Health Care 
Package; three bills aimed at improving the accessibility and 
quality of mental health care for vets, servicemembers, and 
their families.
    I am here today to talk about one of those care package 
bills that is on the agenda, S. 717. I have been working with 
my colleague Senator Ernst whose experience and insight as a 
veteran and as an officer in the Iowa Army National Guard has 
been indispensable. This bill creates a special designation for 
private sector community mental health providers who 
demonstrate a strong knowledge of military culture and 
evidence-based therapies for mental health issues common to 
veterans and servicemembers. It creates a regularly updated 
online registry so vets and servicemembers can search for these 
special providers.
    Due to an increasing demand for mental health services, 
combined with DOD and VA provider shortages, use of community 
providers by servicemembers and veterans has increased 
dramatically. If we know veterans and servicemembers are 
accessing care through private community providers, we owe it 
to them to do our best to improve the quality of care they 
receive in those settings and to provide resources to help them 
select providers who understand their unique challenges and how 
best to treat them.
    That is the goal of S. 717. Multiple, internal, and 
independent reviews of DOD and VA purchase care networks have 
identified the need to improve military cultural competency, 
the use of DOD/VA clinical practice guidelines, and evidence-
based therapies to enhance the quality of care servicemembers 
and vets receive from community providers.
    I have a few examples with me here today: DOD's 2010 
Suicide Prevention Task Force report; the Institute of 
Medicine's 2014 Assessment of PTSD Treatment for Military and 
Veteran Populations; and RAND's 2014 report entitled ``Ready to 
Serve.''
    We know more and more veterans each year are going to be 
seeking care from non-VA providers. We need to be sure as many 
of those providers as possible are trained to provide high-
quality care, and we need to give vets tools to help them make 
decisions on where to seek care, whether or not they are using 
their VA benefits. Both DOD and VA are working to push out 
trainings in military culture and evidence-based therapies for 
providers. But it will come as no surprise to hear the uptake 
rates on those trainings needs to improve. We need to give 
providers better incentives to participate. Many of the 
trainings are already free. Many already grant continuing 
medical education credit.
    We could require the training. We could tell providers they 
cannot be in DOD and VA purchase care networks unless they 
complete it. But imposing those kinds of mandatory requirements 
can backfire. At a time when our vets and servicemembers 
desperately need more options, S. 717 gives providers an 
incentive to voluntarily access military and veteran-specific 
training and receive a military/veteran-friendly designation if 
they fulfill the requirements.
    The Star Program, which was begun in Indiana, has now 
expanded to seven States, including the homestates of a number 
of Members of this Committee. Mr. Chairman, as you know, 
Georgia is one of those States, and it is an extraordinary 
program.
    The DOD provisions of this legislation were included in the 
fiscal year 2016 NDAA conference report under section 717, with 
unanimous bipartisan support.
    Can I have an additional 30 seconds? [Chairman nods.]
    Senator Donnelly. Thank you, sir.
    Assuming we keep intact our 53-year record of passing the 
NDAA, this legislation will become law by year's end, but only 
for military personnel and their families, not for veterans. 
The NDAA deals only with this program as it would impact DOD, 
servicemembers, and military families. It does not address 
veterans or the Department of Veterans Affairs. That is why I 
am here today asking to work with all of you to ensure the 
services established through this legislation are available not 
only to current military personnel but also the veterans that 
we care so much for.
    Mr. Chairman, thank you for your time.
    Chairman Isakson. Thank you, Senator Donnelly. I appreciate 
your testimony.
    Senator Shaheen?

               STATEMENT OF HON. JEANNE SHAHEEN, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Shaheen. Thank you, Mr. Chairman, Ranking Member 
Blumenthal, and all of the Members of the Committee, for 
holding this hearing today and for giving me the opportunity to 
speak in support of my legislation to expand the number of 
judges on the U.S. Court of Appeals for Veterans Claims.
    As every Member of this Committee knows full well, one of 
the most complex challenges facing this Committee and Congress 
over the next several years will be the growing backlog of 
veterans disability claim appeals. Veterans denied benefits by 
the VA continue to face a complicated, frustrating, and 
unacceptably prolonged process to receive additional 
consideration of their disability claims.
    The growth in the number of claims awaiting appeal over the 
past several years is staggering. As you, the Board of Veteran 
Appeals is the highest appellate level within the VA. Over the 
past 4 years, the number of disability claims appeals received 
by the Board has increased 65 percent, from 49,611 in 2012 to 
81,640 in 2016. The Board is now receiving almost twice as many 
claims per year as it has the capacity to decide. In 2014, it 
began the year with 65,000 unresolved cases. Over the course of 
the year, it received an additional 56,600 cases.
    As a result of this growing workload, the average number of 
days to resolve a case increased from 289 to 335 between 2014 
and 2015, and I have personally spoken with veterans in New 
Hampshire who have waited 3, 5, even one 9 years to resolve a 
claim.
    As a matter of basic fairness to our Nation's veterans, we 
have got to do better. We have to take a serious look at every 
level of the appeals process. The bill I am here to talk about 
this afternoon is very simple. It would reauthorize the Court 
of Appeals for Veterans Claims to employ nine judges instead of 
seven. Since 2002, Congress has granted temporary 
authorizations for the Court to increase to nine judges. Before 
that, it was authorized at seven. That authority ended in 2013, 
and as a result, the Court has been reduced to eight active 
judges. It will return to seven if we do not act soon.
    The Court noted in its 2014 annual report that, ``Given the 
anticipated increase in the number of decisions to be rendered 
by the Board, we perceive a need to reauthorize nine judges. As 
we see unprecedented and unrelenting growth in the backlog of 
appeals, now is not the time to reduce our capacity to pre-2002 
levels.''
    I urge the Committee to support this simple measure which 
will provide some immediate help to relieve the crisis. I look 
forward to answering any questions or further discussion about 
how we streamline the appeals process in the future.
    Thank you very much, Mr. Chairman.
    Chairman Isakson. Thank you, Senator Shaheen.
    Senator Donnelly, thank you very much for your testimony. 
We appreciate your being here for the meeting. Thank you.
    We will go into our Committee hearing now.
    Senator Donnelly. Thank you, Mr. Chair.
    Chairman Isakson. We have two distinguished panels. The 
first panel is Thomas Lynch, M.D., Assistant Deputy Under 
Secretary for Health Clinical Operations, Veterans Health 
Administration, U.S. Department of Veterans Affairs; 
accompanied by Vince Kane, Special Assistant to the Secretary; 
and Jennifer Gray, Staff Attorney, Office of the General 
Counsel, U.S. Department of Veterans Affairs.
    If our first panel would come forward? [Pause.]
    We welcome all of you to the Committee today. Dr. Lynch, 
you will be the one to testify. Is that correct?
    Dr. Lynch. I am, sir.
    Chairman Isakson. Welcome; you have the floor.

    STATEMENT OF THOMAS LYNCH, M.D., ASSISTANT DEPUTY UNDER 
   SECRETARY FOR HEALTH CLINICAL OPERATIONS, VETERANS HEALTH 
     ADMINISTRATION, U.S. DEPARTMENT OF VETERANS AFFAIRS; 
     ACCOMPANIED BY VINCENT KANE, SPECIAL ASSISTANT TO THE 
SECRETARY; AND JENNIFER GRAY, STAFF ATTORNEY, OFFICE OF GENERAL 
                            COUNSEL

    Dr. Lynch. Thank you. Good afternoon, Mr. Chairman, Ranking 
Member, and Members of the Committee. Thank you for the 
invitation to present our views on several bills that would 
affect VA benefits, programs, and services. Seated beside me to 
my right is Vincent Kane and to my left is Jennifer Gray.
    I would like to begin by thanking Senator Feinstein for 
introducing S. 2013, the Los Angeles Homeless Veterans Leasing 
Act of 2015, and for the support from other congressional 
members, including Senator Barbara Boxer and Congressman Ted 
Lieu.
    The bill would authorize VA to enter into enhanced use 
leases and other agreements for housing and services benefiting 
veterans and their families. VA firmly supports this bill as it 
will enhance our current efforts to revitalize the campus and 
help end veteran homelessness in greater Los Angeles. This 
legislation will help us in three ways:
    First, it will allow VA to enter into agreements with 
housing providers, local governments, community partners, and 
nonprofits to provide housing and services for those veterans 
and their families that are homeless or at risk for 
homelessness.
    Second, it will allow VA to revitalize the campus into a 
rich and vibrant community that puts the needs of veterans 
first in a manner consistent with VA's ongoing efforts to 
complete a new Master Plan for the campus.
    And, third, it will ensure the campus honors the underlying 
deed that transferred the property to the Federal Government in 
1888 to be a safe, welcoming, and healing environment for 
veterans.
    We appreciate the Committee's support for this needed 
legislation and look forward to working closely with each of 
you and other veteran stakeholders on its passage and 
implementation.
    VA also supports S. 2022, which would increase pensions for 
Medal of Honor recipients. VA recognizes the extraordinary 
bravery and unparalleled service that our Medal of Honor 
recipients have provided on behalf of our Nation. An increase 
in their pension is an important step in demonstrating our 
commitment and our gratitude.
    VA supports Sections 2, 6, and 7 of S. 1885, the Veteran 
Housing Stability Act of 2015, a bill that seeks to improve the 
benefits and services we provide to homeless veterans and their 
families. VA does not have cleared views on Sections 5 and 8 
yet; however, we will be working with the Committee to provide 
views and costs at a later date.
    There are several other provisions of the bill that we 
believe are not needed or may benefit from some further 
discussion with the Committee. These have been highlighted in 
our written statement.
    S. 717, the Community Provider Readiness Recognition Act of 
2015, would establish a special designation through DOD and VA 
for non-Department mental health care providers who demonstrate 
a strong knowledge of military culture and evidence-based 
medical treatments. The VA does not support the provisions of 
this bill. A few years ago, DOD and VA did recognize the need 
to ensure that our non-Department clinicians were equipped with 
the necessary education and training to properly care for and 
treat our Nation's veterans. Through joint collaboration and 
investment of resources between DOD and VA, we created a 
military cultural competence course and community provider 
toolkit which accomplished the intent of this bill.
    In addition, this bill would also require VA to create a 
registry of non-Department providers. While we acknowledge this 
would be helpful in identifying those providers that possess 
military training and evidence-based treatment experience, we 
have concerns about the way such a certification would be 
developed and maintained given all the facets associated with 
judging the quality of a provider.
    With respect to S. 1754, the Veterans Court of Appeals 
Support Act of 2015, VA would defer to the Veterans Court on 
whether this bill should be enacted as it would primarily 
affect the Court and not VA operations.
    Last, S. 1676, the Delivering Opportunities for Care and 
Services for Veterans Act of 2015, addresses many important 
issues related to medical education and training as well as 
recruitment and retention of VA leadership. We do not currently 
have prepared views, but are eager to engage and work with the 
Committee to provide this at a later date.
    Mr. Chairman, thank you for the opportunity to provide VA's 
views on several important bills before the Committee today. My 
colleagues and I would be pleased to answer any questions that 
you or other Members of the Committee may have at this time.
    [The prepared statement of Dr. Lynch follows:]
   Prepared Statement of Thomas Lynch, M.D., Assistant Deputy Under 
       Secretary for Health Clinical Operations, Veterans Health 
          Administration, U.S. Department of Veterans Affairs
    Good afternoon Chairman Isakson, Ranking Member Blumenthal, and 
Members of the Committee. Thank you for inviting us here today to 
present our views on several bills that would affect VA benefits 
programs and services. Joining me today are Vince Kane, Special 
Assistant to the Secretary and Jennifer Gray, Staff Attorney in VA's 
Office of General Counsel.
    We do not have cleared views on sections 5 and 8 of S. 1885. We 
also do not have cleared views on S. 1676, a bill to increase the 
number of graduate medical education positions treating veterans, to 
improve the compensation of health care providers, medical directors, 
and directors of Veterans Integrated Service Networks, and for other 
purposes. We will be glad to work with the Committee on prioritization 
of those views and cost estimates not included in our statement.
      s. 717--community provider readiness recognition act of 2015
    VA does not support S. 717, which would require the Department of 
Defense (DOD) and VA to jointly develop a system to provide a mental 
health provider readiness designation to non-Department mental health 
care providers who demonstrate knowledge of military culture and of 
evidence-based medical treatments approved by DOD and VA for treating 
the mental health issues of members of the Armed Forces and Veterans. 
This bill would also require DOD and VA to jointly establish and update 
a public registry with this information.
    Requiring VA and DOD to give the mental health provider readiness 
designation to non-Department providers would confuse Veterans and 
Servicemembers; they might think that VA has certified or endorsed the 
providers' competence and ability to provide quality care, which could 
lead Veterans to assume a level of specialized competence that may not 
be warranted. Moreover, VA and DOD would be required to put providers 
on the list based only on their knowledge of military culture and 
medical treatments without consideration for other factors that 
Veterans and Servicemembers should be aware of before choosing a 
provider of mental health care. These factors may include Veteran and 
Servicemember preferences for provider type, location, and provider 
acceptance of VA or Third Party Administration payment as paid in full, 
or a host of many other factors that may create potential barriers or 
incentives to care.
    VA has invested in the development of multiple resources to assist 
non-Department mental health care providers who may work with 
Servicemembers and Veterans. Two key resources are the DOD/VA Military 
Cultural Competence course and VA's Community Provider Toolkit. 
However, VA does not use these resources to evaluate or certify outside 
providers' competence or skills. For providers who complete the DOD/VA 
Military Cultural Competence course, which is currently open to the 
community, awarding free continuing education units if the learner 
scores 80% on the post-test. However, there is no process in place to 
determine if the knowledge transfers reliably and consistently or if it 
leads to a demonstrable behavior change or improved competence in 
clinical care. Assessment of providers' knowledge also would require 
significant additional resources.
    VA understands the appeal of such a registry and agrees that the 
availability of information about providers with evidence of training 
in military culture and knowledge of evidence-based treatment of mental 
health conditions would make it more likely that beneficiaries could 
identify more knowledgeable providers. However, VA's ability to create 
and maintain such a registry would be constrained by the limitations 
described above. A registry of this sort would be difficult to manage, 
qualifications would be difficult to assess beyond course completion, 
and maintaining accuracy would be very challenging.
    The Veterans Health Administration extensively explored this idea 
in collaboration with DOD as part of the Integrated Mental Health 
Strategy. Specifically, a workgroup explored the possibility of VA/DOD 
``certifying'' rural community mental health clinicians who VA and DOD 
believed were adequately trained. The workgroup ultimately concluded 
that the legal, credentialing, and privacy challenges would be too 
difficult. The workgroup suggested a self-report registry as opposed to 
VA and/or DOD developing a certification process.
    We estimate that implementation of this provision would cost around 
$1.7 million in FY 2016, $5.9 million over 5 years and $10.4 million 
over ten years.
         s. 1754--veterans court of appeals support act of 2015
    S. 1754 would amend section 7253(a) of title 38, United States 
Code, by permanently increasing the maximum number of judges presiding 
over the United States Court of Appeals for Veterans Claims (Veterans 
Court) from seven to nine. Because the bill would primarily affect the 
Veterans Court and would not affect the operation of VA, we defer to 
the Veterans Court as to whether S. 1754 should be enacted.
             s. 1885--veteran housing stability act of 2015
    Section 2 of S. 1885 would expand the definition of ``homeless 
Veteran'' to include those Veterans fleeing domestic violence and 
interpersonal violence (DV/IPV), aligning VA's definition with that of 
the Department of Housing and Urban Development (HUD). VA supports 
section 2. Since Veterans fleeing from DV/IPV are considered at high 
risk for homelessness, they are already served in VA's homeless 
programs when it is clinically appropriate.
    Section 3 would require VA to create a new program to provide 
intensive case management interventions to homeless Veterans in at 
least six locations selected by VA based on criteria which is described 
in the bill. VA would also be required to prepare a report for Congress 
on the outcomes of the program. VA does not believe section 3 is 
necessary, as VA is already authorized to provide intensive case 
management through the HUD-VASH program. HUD-VASH is similarly already 
authorized to provide flexible team-based care management and thus does 
not require the proposed program to provide such services.
    Section 4 would require VA to award grants for the provision of 
case management services for Veterans who are transitioning to 
permanent housing and those who are at risk for homelessness. This 
would help address a current gap in case management service delivery. 
The Homeless Providers Grant and Per Diem (GPD) program, for example, 
lacks the authority to provide funding for case management services 
once a Veteran exits a GPD-funded transitional housing program. 
However, such services may be currently provided by grantees in VA's 
Supportive Services for Veteran Families (SSVF) program.
    Section 4 would also require the Secretary to prioritize for grant 
funding those organizations that would voluntarily stop receiving per 
diem payments under the GPD program (38 U.S.C. Section 2012) or Special 
Need awards (38 U.S.C. Section 2061), and be willing to use their 
transitional housing facility for permanent housing. VA supports this 
section of the bill. Currently there are nearly 9,000 transitional 
housing beds developed through VA investment of capital in partnership 
with community organizations. As the number of homeless Veterans 
decreases, the need for some of this transitional housing will 
diminish, but there will be a continued need for permanent housing 
interventions like rapid re-housing and permanent supportive housing. 
This grant funding could enable VA to help fill this need for permanent 
housing interventions, consistent with the VA's Housing First approach 
to assisting homeless Veterans.
    VA supports section 6, which would require VA and HUD to 
collaboratively provide outreach to public housing authorities, 
tribally designated housing entities, realtors, landlords, property 
management companies, developers, and other relevant audiences to 
educate them about the housing needs of Veterans and encourage them to 
rent to Veterans. VA and HUD currently collaborate on such efforts.
    VA supports section 7, which would codify the role of the VA 
National Center on Homelessness Among Veterans as a center of research, 
evaluation, and dissemination of best practices regarding services for 
homeless Veterans.
       s. 2013--los angeles homeless veterans leasing act of 2015
    S. 2013 would authorize the Secretary of Veterans Affairs to enter 
into Enhanced-Use Leases and other agreements for housing and services 
at VA's West Los Angeles Campus in Los Angeles, California. The leases 
would principally benefit Veterans and their families, including 
severely disabled, aging, and women Veterans.
    VA strongly supports this legislation. It would enable VA to enter 
into agreements with housing providers, local governments, community 
partners, and non-profits to provide additional housing and services 
for homeless and disadvantaged Veterans. Such leases would be squarely 
Veteran focused, as the benefits resulting from them would be designed 
to principally benefit Veterans and their families. The legislation 
would also enable VA to work with state entities such as the University 
of California, Los Angeles, to obtain improved services for Veterans, 
over and above the range of benefits generated from the current VA-UCLA 
medical affiliation arrangement. This effort is in line with VA's goal 
to foster and improve its medical affiliations nationwide, to help 
ensure that sufficient quality and quantity of doctors, nurses, and 
research are available, to help ensure that Veterans will receive 
improved care and services well into the 21st Century and beyond.
    The legislation is important to VA's goal of revitalizing the 
campus into a rich and vibrant community, which Veterans will be proud 
to call home. It would dovetail with existing law contained in Section 
224 of Public Law 110-161, and the Consolidated Appropriations Act of 
2008, to prohibit VA from selling or disposing of any land interests in 
the West Los Angeles Campus, to third parties. Additionally, the 
legislation contains several significant protections, to ensure 
fulfillment of the bill's objectives. The protections including the 
following:

    <bullet> All leases must be consistent with the new Master Plan 
under development, with community input, that will detail how the 
campus will be used to benefit all Veterans;
    <bullet> Office of Inspector General (OIG) audit reports on lease 
and land-use management of the West Los Angeles Campus will be required 
to be issued two years following enactment of this legislation, five 
years following enactment, and then as necessary;
    <bullet> VA will be prohibited from entering into new leases during 
any periods where it is found by the OIG to be out of compliance with 
Federal policy or law pertaining to leases and land-use on the campus, 
until the Department certifies it has corrected any non-compliance or 
mismanagement; and
    <bullet> VA will be required to notify the Senate and House 
Veterans' Affairs Committees and the congressional delegation for the 
area encompassing the campus 45 days before entering into or renewing 
any lease, and submit an annual report evaluating all leases and land-
sharing agreements on the campus.

    These restrictions will help to ensure the campus is Veteran 
focused going forward, in a manner consistent with the underlying 1888 
deed of the property to the United States.
    Along with supporting this legislation, VA is working intensely to 
positively revitalize the West Los Angeles Campus, to make it more 
Veteran focused. Such efforts include pursuing a new master plan for 
the campus; providing additional funding to VA's homeless-related 
programs; and working with several entities in the Greater Los Angeles 
area, to help end Veteran homelessness in Greater Los Angeles. Such 
entities include the California congressional delegation; the former 
plaintiffs in the West Los Angeles litigation (Valentini v. McDonald) 
that was settled in January 2015; Veterans Service Organizations; 
Veterans; State and local authorities; non-profit entities; VA 
contractors; the local community; and charitable organizations. Through 
such efforts and hopeful enactment of this proposed legislation, VA is 
confident that all homeless Veterans of Greater Los Angeles will be 
able to obtain housing and wrap around supportive services, so that 
they can have restored dignity and improve their lives and well-being.
    The ongoing Master Planning process takes into account VA's clear 
priority to prospectively operate the campus as a vibrant, welcoming, 
and sustainable community where all Veterans--including homeless, 
severely disabled, women, and elderly Veterans--will feel comfortable 
accessing care, living, and interacting with one another, their 
families, VA personnel, and visitors.
    Since March of this year, almost 1,400 Los Angeles area Veterans 
have been placed into permanent housing through the implementation of 
housing first principles. Housing first is the proven method where 
homeless Veterans are placed into housing with the needed supportive 
services to keep them in housing and more effectively help them 
reintegrate into their community. On average, almost 275 Veterans per 
month are being placed into housing, largely through VA outreach, 
coordination efforts, and funding commitments. VA has also increased 
resources to expand capacity to care for homeless and at-risk of 
homelessness Veterans. Specifically, in 2015 an additional $30 million 
was provided for Supportive Services for Veteran Families homeless 
prevention, and rapid rehousing programs. Approximately 800 HUD-VASH 
vouchers were awarded for Greater Los Angeles. This increased the total 
vouchers in Greater Los Angeles to nearly 6,000. An additional 325 new 
beds have also been added at the West Los Angeles Campus, for bridge or 
emergency housing for Veterans in need.
    Despite these enhancements, there is more to do to care for our 
Veterans. The legislation will address gaps in services and facilitate 
the revitalization of the 388 acre campus to better serve Veterans. It 
will also ensure we care for disadvantaged Veteran populations to 
ensure they have needed healthcare and housing.
    VA estimates that S. 2013 will be cost-neutral because it provides 
for outleases of certain properties on the VA West Los Angeles Campus, 
without additional cost to VA. The bill does not create an obligation 
by VA to fund the housing or services contemplated by Section 2(b). 
There is also no obligation for VA to use future appropriations to fund 
capital or other costs related to the outleases authorized by this 
section.
         s. 2022--special pension of medal of honor recipients
    S. 2022 would amend section 1562(a) of title 38, United States 
Code, by increasing the monthly rate for the Medal of Honor Pension to 
$3,000. VA administers the Medal of Honor Pension, a special pension 
benefit that is not based on income level, need, or disability, to 
recipients of the Medal of Honor. For reference, the monthly Medal of 
Honor Pension rate established pursuant to 38 U.S.C. Sec. 1562 is 
currently $1,299.61.
    The bill would be effective either (1) 180 days after the date of 
enactment, or (2) if the date 180 days after the date of enactment does 
not fall on the first day of a month, the first day of the first month 
beginning after the date that is 180 days after the date of enactment. 
If the increased rate for the Medal of Honor Pension is effective prior 
to December 1, 2016, the monthly rate would not be increased by a cost 
of living adjustment (COLA) for FY 2017. Annual COLA increases would 
resume beginning on December 1, 2017.
    VA supports S. 2022, subject to Congress identifying acceptable 
offsets for the additional benefit costs. This legislation would be 
consistent with Congress' original intent for the Medal of Honor 
Pension, which was to serve as a ``recognition of superior claims on 
the gratitude of the country'' and to ``reward * * * in a modest way 
startling deeds of individual daring and audacious heroism in the face 
of mortal danger when war is on.''
    VA estimates that benefit costs to the appropriation for 
compensation and pension would be $788,000 in FY 2016, $7.2 million 
over five years, and $16.1 million over ten years.
                                 ______
                                 
                          Additional VA Views

                         The Secretary of Veterans Affairs,
                                  Washington, DC, December 8, 2015.
Hon. Johnny Isakson,
Chairman,
Committee on Veterans' Affairs,
U.S. Senate, Washington, DC.

    Dear Mr. Chairman: By this letter, we are providing the remaining 
views and cost estimates for the following bills from the Committee's 
October 6, 2015, legislative hearing: S. 1676 and sections 5 and 8 of 
S. 1885.
    We appreciate this opportunity to comment on this legislation and 
look forward to working with you and the other Committee Members on 
these important legislative issues.
            Sincerely,
                                        Robert A. McDonald.

  Enclosure.

 s. 1676--delivering opportunities for care and services for veterans 
                              act of 2015
    Section 101 of S. 1676 would amend the Social Security Act to 
direct the Secretary of Health and Human Services to not take into 
account any resident within the field of allopathic or osteopathic 
medicine who counts towards the obligation of the Secretary of Veterans 
Affairs under section 301 (b)(2) of the Veterans Access, Choice, and 
Accountability Act of 2014 (Public Law 113-146; 38 United States Code 
(U.S.C.) 7302 note) (VACAA) when applying the limitations regarding the 
total number of full-time equivalent residents in a hospital's approved 
medical residency training program. The Secretary would disregard such 
residents for cost reporting periods beginning on or after July 1, 
2016.
    VA appreciates this effort to increase V A's ability to expand 
graduate medical education (GME), including expanding into underserved 
communities by allowing other community partners to assist in GME 
development. Since VA does not sponsor its own physician residency 
programs, it relies on its academic affiliates to select and sponsor 
residents who then receive a portion (typically around a quarter of 
their time) of their clinical training in a VA facility. This 
arrangement can help ensure that residents receive a well-rounded 
educational experience. The current cap on residency positions funded 
by the Centers for Medicare & Medicaid Services (CMS) limits the 
ability of potential partners to sponsor new VACAA residency positions 
in collaboration with VA.
    This provision, however, would have a budget impact on CMS and VA 
that could be significant, which makes support for this provision 
contingent on the availability of resources for both CMS and VA for its 
implementation. Still, however, VA believes that a partnership with CMS 
on the VA GME Expansion could assist with addressing known inequities 
in physician workforce, including the increasing specialization of 
physicians and the geographic maldistribution. VA's GME Expansion 
specifically targets Primary Care and Mental Health, and focuses on GME 
development in smaller and rural communities. A partnership with CMS on 
this initiative could create significant and beneficial change in the 
physician workforce for the nation.
    Section 102 would amend section 301 (b) of the VACAA to extend from 
5 years to 10 years the time period provided for the Secretary of 
Veterans Affairs to increase the number of GME residency positions to 
1,500; and extend by 5 years the time period during which the Secretary 
must file annual reports to Congress on residency positions at VA 
medical facilities. VA supports section 102. This legislation would 
provide additional time for VA to build the infrastructure needed to 
successfully create the required new residency positions. VA estimates 
that enactment of section 102 would be cost neutral.
    Section 103(a) would require the Secretary of Veterans Affairs and 
the Secretary of Health and Human Services to jointly conduct a 6-year 
pilot program to establish not less than three GME residency programs 
in behavioral medicine in underserved areas in the United States. 
Section 103(b) would require each residency program to provide 
participating residents the opportunity to work with diverse patient 
populations through rotations between medical facilities of VA, the 
Indian Health Service, and facilities participating under the Medicare 
program; provide education in the field of behavioral medicine; be 
carried out in a manner consistent with other residency programs 
supported and funded by VA and the Department of Health and Human 
Services; and be located in a community that is designated as a 
medically under-served area under 42 U.S.C. 254b(b)(3)(A), in a state 
with a per capita population of Veterans of more than 9 percent 
according to the National Center for Veterans Analysis and Statistics 
and the United States Census Bureau, and be within 100 miles of a 
Reservation as defined in 25 U.S.C. 1452.
    Section 103(c) would require the Secretary of Veterans Affairs and 
Secretary of Human Health and Services to provide to Congress at least 
annually a joint report containing certain specified elements regarding 
implementation of the pilot program.
    VA appreciates the goals behind section 103 but does not support 
these provisions. The extremely narrow criteria for the location of the 
three pilot sites would make the pilot program difficult to implement. 
For example, large states such as California and New York would be 
disqualified from consideration because of the per capita Veteran 
population requirement. Also, the requirement that each pilot site be 
located within 100 miles of a reservation would exclude many VA 
facilities from participation. In addition, the extremely limited 
residency training opportunities within the Indian Health Service would 
create a challenge when seeking to provide residents rotations through 
the Indian Health Service. Finally, the requirement for detailed annual 
joint reports from the Secretary of Veterans Affairs and the Secretary 
of Health and Human Services would be unduly burdensome given the 
relatively small portion of the GME workload these pilot sites would 
represent. VA estimates that the reporting requirement in section 
103(c) would cost $260,000 annually and $1.56 million over the course 
of the pilot program.
    Section 104(a) would require the Secretary of Veterans Affairs to 
include in the education and training program required under section 
7302(a)(1) of title 38 U.S.C., education and training of marriage and 
family therapists (MFT) and licensed professional mental health 
counselors (LPMHC). VA supports the goal behind section 104(a) but does 
not believe that section 104(a) is necessary as VA is presently 
providing this training and will continue to do so.
    Section 104(b) would require the Secretary to apportion funding 
equally among the professions included in the education and training 
program. VA does not support section 104 and has a technical concern. 
It is unclear to which professions the requirement for equal 
apportionment of funding would apply. If the intent is to require equal 
funding among all professions, VA does not support such a requirement. 
Presently, trainee funding is allocated in accordance with future 
hiring needs and capacity to support training programs at VA 
facilities. If the intent is to provide equal funding for LPMHC and MFT 
training programs, this would be problematic as well. VA has attempted 
to provide equal funding for these two professions. Nonetheless, 
internships are conducted in partnership with academic affiliate 
programs and under principles ensuring a quality educational experience 
and in the context of state licensing laws governing the credentials of 
supervisors. We have been able to rapidly expand LPMHC internships, but 
for the MFT internships, the supervisory requirements do not allow 
equally rapid expansion. A legislative requirement for equal funding 
might actually result in curtailing training for one profession, so 
that training for one profession does not exceed funding for another.
    Section 105 would amend section 7402(b)(11)(A) of title 38 to 
expand eligibility for appointment within VA as a LPMHC to specifically 
include persons who hold a doctoral degree. VA supports section 105. VA 
estimates that there would be no cost associated with implementation of 
section 105.
    Section 201 would amend section 7451(a)(2) of title 38 to include 
physician assistants as ``covered positions'' to which the competitive 
pay provisions of that section apply. Presently, only registered nurses 
and certain positions as the Secretary may determine upon 
recommendation of the Under Secretary for Health are covered positions 
under section 7451.
    While VA supports the intent of Section 201, VA's support is 
conditioned on Congress providing the additional funding necessary to 
support these costs. VA also believes that the following health care 
professionals should also be added as ``covered positions'' to this 
section of the law to apply these same competitive pay provisions to 
physical therapists, occupational therapists, physical therapy 
assistants, and occupational therapy assistants.
    Recruitment and retention of physical and occupational therapy 
professionals has been a longstanding challenge for VA. A major 
recruitment and retention barrier for these disciplines is the 
significant pay disparity between private sector market pay and VA pay 
schedules for these therapies. Although special pay rate authority 
exists at the local medical center level to address these disparities, 
such authority is not consistently utilized and is ineffective in many 
cases because special salary rates are below the full performance level 
salary.
    VA estimates that the cost of enactment of section 201 for PAs 
would be $33.2 million in FY 2016, $129 million over 5 years, and $241 
million over 10 years. In addition, VA estimates that expansion of the 
cost of applying the competitive pay provisions of section 7511 to 
physical therapists, occupational therapists, physical therapy 
assistants, and occupational therapy assistants would be $42.8 million 
in FY 2016, $220 million over 5 years, and $458 million over 10 years.
    Section 202 would amend section 7681 of title 38 to require that 
not less than 30 percent of the amount of debt reduction payments paid 
under the Education Debt Reduction Program (EDRP) each year be paid to 
individuals who practice medicine in a rural area or highly rural area 
or demonstrate a commitment to practice medicine in such an area. 
Section 202 would define ``highly rural area'' to mean an area located 
in a county or similar community that has less than seven individuals 
residing in that county or community per square mile, ``rural area'' to 
mean an area that is not an urbanized area or a highly rural area, and 
``urbanized area'' to have the meaning given that term by the Director 
of the Bureau of the Census. VA does not support section 202. VA 
recognizes the intent of the legislation is to ensure use of EDRP for 
recruitment and retention in rural and highly rural areas. However, the 
proposed legislation would negatively impact the ability of local 
facilities to effectively use EDRP by restricting the flexibility that 
exists in the current process and seriously misaligning funding with 
respect to relative representation of clinical staff and vacancies.
    EDRP is designed for recruitment and retention of health care 
providers who are in difficult to recruit/retain health care positions 
and who are providing direct patient care services or services incident 
to direct patient care. Local facilities prioritize hard-to-recruit-
and-retain occupations based on facility needs. Each VA medical 
facility receives EDRP funding allocation to recruit and retain health 
care providers. Many VA facilities, including both urban and rural 
facilities, are in fierce competition with the private sector. In fact, 
some of the hardest to recruit/retain facilities are in urban areas 
where the cost of living is extremely high and where VA has a harder 
time competing with the salaries offered by the private sector.
    Currently, the percentage of EDRP funding is on par with the 
percentage of rural and highly rural facilities and providers at those 
facilities. Rural and highly rural facilities make up 12.6 percent of 
VA facilities, and employ only 6 percent of VA's clinical providers and 
support staff. In FY 2015, 11 percent of facilities receiving EDRP were 
rural or highly rural, and employees at those facilities received 8 
percent of the total EDRP funds distributed, commensurate with their 
representation in the workforce. Furthermore, a review of current 
recruitment activity rates indicates that only 5.4 percent of clinical 
vacancies are in rural and highly rural facilities.
    Requiring 30 percent of all EDRP funding be awarded to rural 
facilities would create a significant disparity in overall program 
funding for other sites, preventing facilities with critical provider 
shortages from filling EDRP-eligible positions. Restricting usage of 
nearly one-third of all EDRP funding for rural areas would negatively 
impact the flexibility afforded to local facilities to determine their 
specific health care provider needs. Finally, past efforts to set aside 
EDRP funds for various hiring initiatives have indicated that funds set 
aside for special uses, such as this, are frequently under-used because 
the employees hired at those sites or for those positions simply do not 
have eligible student loan debt. It is imperative that flexibility not 
be restricted for use of these funds in a way that has unintended 
consequences, and potentially limits the use of the funding all 
together. VA estimates that there would be no cost associated with 
implementation of section 202.
    Section 203(a) would require the Secretary of Veterans Affairs to 
submit to Congress a report on the medical workforce of the Department 
not later than 120 days after the date of enactment of the Act. Section 
203(b) would require the report to include specific elements. 
Specifically, section 203(b)(1) would require the report to include how 
many LPMHCs and MFTs are enrolled in the mental health professionals 
trainee program of the Department; how many are expected to enroll in 
the mental health professionals trainee program of the Department 
during the 180-day period beginning on the date of submittal of the 
report; a description of the eligibility criteria for such counselors 
and therapists compared to other behavioral health professions in the 
Department; a description of the objectives, goals, and timing of the 
Department regarding increasing the representation of such counselors 
and therapists in the behavioral health workforce of the Department; 
and a description of the actions taken by the Secretary, in 
consultation with the Director of the Office of Personnel Management 
(OPM), to create an occupational series for such counselors and 
therapists and a timeline for the creation of such an occupational 
series.
    Section 203(b)(2) would require the report to include a specific 
breakdown of spending by the Department in connection with EDRP, as 
well as descriptions of how the Department prioritizes such spending 
and the actions taken by the Secretary to increase the effectiveness of 
such spending for the purposes of recruitment of health care providers. 
Section 203(b)(3) would require the report to include a description of 
any impediments to the delivery of telemedicine services to Veterans 
and any actions taken by the Department to address such impediments, 
including with respect to certain specified issues.
    Section 203(b)(4) would require the report to include an update on 
the efforts of the Secretary to offer training opportunities in 
telemedicine to medical residents in medical facilities of the 
Department that use telemedicine, consistent with medical residency 
program requirements established by the Accreditation Council for 
Graduate Medical Education, as required by the Honoring America's 
Veterans and Caring for Camp Lejeune Families Act of 2012 (Public Law 
112-154; 38 U.S.C. 7406 note). Section 203(b)(5) would require the 
report to include an assessment of the development and implementation 
by the Secretary of succession planning policies to address the 
prevalence of vacancies in the Veterans Health Administration (VHA) of 
more than 180 days, including development of an enterprise position 
management system to more effectively identify, track, and resolve such 
vacancies.
    Section 203(b)(6) would require the report to include a description 
of the actions taken by the Secretary, in consultation with the 
Director of OPM, to address any impediments to the timely appointment 
and determination of qualifications for Directors of Veterans 
Integrated Service Networks (VISN) and Medical Directors of the 
Department.
    VA does not believe that the reporting requirements in section 203 
are necessary and the actions and initiatives addressed by section 203 
are already deployed or being pursued within VHA. VA estimates that the 
costs associated with enactment of section 203 would not be 
significant.
    Section 301 would amend section 7306(a)(4) of title 38 to add VISN 
Directors to the list of personnel who comprise the VA Office of the 
Under Secretary for Health and remove the requirement that Medical 
Directors be doctors of medicine, dental surgery, or dental medicine.
    Section 302 would amend chapter 74 of title 38 to add a new 
subchapter VII and section 7481 regarding compensation for Medical 
Directors and VISN Directors. Section 302 would establish the elements 
of pay for Directors appointed under section 7306(a)(4) of title 38 to 
include basic pay as determined under section 7404(a) of title 38 and 
market pay as determined under the new section 7481. Section 302 would 
require the Secretary to evaluate the amount of market pay payable to a 
Director not less frequently than once every 2 years and may adjust 
market pay as a result of such evaluation. Section 302 require the 
Secretary not less than once every 2 years to set forth a Department-
wide total annual pay minimum and maximum which must be published in 
the Federal Register. Section 302 would prohibit the Secretary from 
delegating the authority to determine the Department-wide minimum and 
maximum total annual pay.
    VA supports sections 301 and 302, and the latter provision matches 
a proposal put forward in February 2015 in VA 's Fiscal Year 2016 
budget submission. VA believes that there are three primary factors 
that warrant a separate compensation system for Medical Directors and 
VISN Directors. First, existing pay compression within the current 
Senior Executive Service (SES) pay system and the closely proximate 
rates of pay for direct reports to Medical Center Directors and VISN 
Directors have resulted in declining Director applicant pools. Second, 
a high number of existing (an estimated 84 percent by FY 2018) 
Directors are or will soon be eligible for retirement. Third, private 
sector pay for health care leadership positions is highly competitive.
    In addition, there are limited pay incentives for experienced 
Medical Center Directors and VISN Directors to voluntarily move to fill 
more demanding positions. Due to the SES pay compression between 
experienced Medical Center Directors and VISN Directors, the small pay 
raise, if any, that VHA is able to offer in a reassignment may cause 
the candidate to be disadvantaged financially. The most significant 
cost disparities occur due to housing costs and in some cases, higher 
tax rates (e.g., New York, California). With current executive pay 
authorities, a move for the good of the organization most of the time 
means a move to the financial detriment of the Director and their 
family. On average, it has taken over 6 months to fill Medical Center 
Director and VISN Director positions, with many being re-announced 
multiple times for positions in both rural and major metropolitan 
areas. The reluctance on the part of these senior leaders to relocate 
is understandable. It is imperative that VHA have the ability to 
implement pay to retain eligible leaders, reward mobility, and ensure 
knowledge transfer to the next generation of Medical Center Directors 
and VISN Directors. VA estimates that enactment of section 301 would 
involve no cost and that enactment of section 302 would cost $8.8 
million in FY 2016, $46 million over 5 years, and $93.2 million over 10 
years.
    Section 401(a) would require the Secretary, not later than 1 year 
after the date of enactment of the Act, to conduct a 2-year pilot 
program to assess the feasibility and advisability of implementing in 
rural areas and highly rural areas with a large percentage of Veterans 
a nurse advice line to furnish to Veterans medical advice, appointment 
and cancellation services, and information on the availability of 
benefits from VA.
    Section 401(b) would require the pilot program to establish a nurse 
advice line that operates free of charge, is based on and improves upon 
the Department of Defense TRICARE advice line, complies with call 
center requirements set forth by URAC, uses a process for 
determinations of caller eligibility, allows for information sharing 
between VA and the nurse advise line, and maintains quality controls to 
ensure calls are answered by a customer service representative within 
30 seconds with an abandonment rate of less than 5 percent.
    Section 401(c) would require the nurse advice line to provide an 
array of services including: medical advice from licensed registered 
nurses who assess the caller's symptoms using a proprietary clinical 
algorithm meeting specified criteria, information to address basic 
questions regarding eligibility for VA benefits, and use of an 
appointment clerk to facilitate scheduling of appointments for health 
care from the Department.
    Section 401(d) would require, not later than 120 days after the 
date of completion of the pilot program, the Secretary to submit to 
Congress a report providing specified information regarding the pilot 
program.
    VA does not support section 401 as VA already provides telephone 
services for clinical care. Specifically, VHA Directive 2007-033, 
Telephone Service for Clinical Care, requires telephone services for 
clinical care to be made available to all Veterans receiving care at 
VHA facilities to include 24/7 telephone access to clinical staff 
trained to provide health care advice and information. Each facility is 
responsible for providing access for Veteran clinical concerns 
consistent with VHA Directive 2007-033. Veteran telephone access to 
clinical care during business hours is facility based, managed, and 
resourced. Veterans are able to call their local facility and speak 
with clinical staff to address and manage their concerns. VA staff 
members working with Veterans are responsible for following evidence-
based guidance including during in-person and telephone contact. VA 
estimates that enactment of section 401 would cost $75 million in FY 
2016, $385 million over 5 years, and $770 million over 10 years.
            s. 1885--veterans housing stability act of 2015
    Section 5 of S. 1885 would amend section 2041 of title 38 U.S.C. to 
expand eligibility for the services provided under that section as well 
as the scope of services provided. Under section 2041, VA may enter 
into agreements to sell, lease, or donate real property acquired by the 
Secretary as a result of a default on a loan made, insured, or 
guaranteed by VA to qualified nonprofit organizations or state or local 
governments that agree to use the properties to shelter homeless 
Veterans and their families. Section 5 would permit such entities to 
continue assisting homeless Veterans and their families, as under 
current section 2041, but would also expand section 2041 to include 
Veterans and their families who are at risk of becoming homeless and 
very low-income Veteran families (as defined in section 2044(f) of 
title 38). Rather than limiting the entities' assistance to shelter, as 
is currently the case, the entities would also be able to assist such 
Veterans and their families in acquiring and transitioning to permanent 
housing, and in maintaining occupancy in permanent housing. Section 5 
would also require the entity to expand the range of services it 
provides to the Veterans that it houses by ensuring that such Veterans 
receive referrals for the benefits and services to which the Veterans 
may be entitled or eligible under title 38.
    VA does not object to section 5 but has a technical concern. 
Section 5(a)(2)(C) would amend subsection (a)(3)(B) of section 2041 to 
strike ``solely as a shelter primarily for homeless Veterans and their 
families'' and insert ``to provide permanent or transitional housing 
for Veterans and families described in paragraph (1).'' By striking 
``shelter,'' section 5(a)(2)(C) would require the entity to agree to 
use the property in a manner more narrow than the overall purpose of 
the bill as expressed in section 5(a)(2)(A), which includes assisting 
eligible individuals ``in acquiring shelter.'' Therefore, VA recommends 
that line 2 of page 12 of the draft bill be revised to include 
``shelter or'' before ``permanent or transitional housing.'' VA 
estimates that enactment of section 5 would result in new benefit loan 
subsidy costs of $16.6 million for FY 2016. The provision would expire 
at the end of 2016. VA estimates that enactment would not increase 
general operating expenses costs.
    Section 8 would amend section 2012 of title 38 to require VA to 
annually review each Homeless Provider Grant and Per Diem (GPD) program 
grant recipient and eligible entity that received a per diem payment 
and evaluate each grantee's success in assisting Veterans to obtain, 
transition into, and retain permanent housing and increasing Veteran 
income through obtaining employment or income-related benefits. VA 
would only be able to continue providing per diem to the grantee if VA 
determines that the grantee's performance merits continuation of the 
per diem. Section 8 would also require VA to establish uniform 
performance targets for all GPD grantees in order to conduct its review 
and evaluation.
    VA supports section 8 and has a minor technical concern. Currently, 
the GPD program has in place an annual inspection protocol which 
includes an evaluation of certain performance metrics established by 
VA. When grantees fail to meet the annual inspection requirements the 
GPD program begins corrective action process that can lead to stopping 
per diem if corrections are not implemented. VA believes the current 
annual inspections process could be changed to incorporate the criteria 
specified in, and new uniform performance targets required by, section 
8. These changes would further help VA to tie continued per diem 
payment to grantee performance. VA's minor technical concern relates to 
lines 5 and 6 of page 16 of the bill, which state that VA would 
evaluate performance with respect to success ``in assisting Veterans 
obtain, transition into, and retain permanent housing.'' VA recommends 
inserting the word ``to'' before the word ``obtain.'' VA estimates that 
the enactment of section 8 would be cost neutral.

    Chairman Isakson. Thank you, Dr. Lynch.
    Let me begin the questioning. When do you expect the 
Committee to receive the Master Plan for the West L.A. 
property?
    Dr. Lynch. My understanding, Senator, is that it should be 
received by the Committee in mid-October.
    Chairman Isakson. October 22 is the date I have been 
hearing.
    Mr. Kane. Actually, the Master Plan is due--the draft 
Master Plan is due to the Secretary on October 15th. We expect 
to put it out to public comment shortly thereafter. Around the 
21st we should be able to get something advanced to the 
Committee.
    Chairman Isakson. How long is the comment period? Sixty 
days?
    Mr. Kane. We are proposing--that is still being debated. 
The talk is between 30 and 60 days for a public comment period.
    Chairman Isakson. Does the Feinstein bill incorporate the 
baseball stadium for UCLA and the school?
    Mr. Kane. The Feinstein bill does not directly incorporate 
the UCLA stadium. It notes the importance of a partnership 
between the university and the VA, noting that that is our 
academic affiliate. But it is very clear that the focus of this 
is on housing for the veterans and services that directly 
benefit the veterans.
    The Secretary is working directly with all of us through 
the Master Plan and other legal issues to address the stadium. 
But the bill does not give any special provisions for the 
continuation of that stadium.
    Chairman Isakson. Well, is it not true that the stadium and 
the school are the two controversial portions of this property?
    Mr. Kane. They are two of the most controversial aspects of 
the property, but our intent is to make the entire property 
veteran-focused that puts the veteran first.
    Chairman Isakson. Well, pardon me for putting you on the 
hot seat, but I have to ask you this question. If you are going 
to submit by the 22nd of October a Master Plan, do you intend 
to deal with whether or not the VA is going to recommend the 
baseball stadium or the school or whether they are not?
    Mr. Kane. So, the Master Plan really looks at how the 
campus can be revitalized to be a community. It will talk about 
how different zones on that campus, the 388 acres, can be best 
utilized. Decisions related to the continuation of the stadium 
get addressed through that zone process but, more importantly, 
are being addressed in separate discussions that look at what 
UCLA has submitted in the Master Plan as well as the ongoing 
discussions we have had with them about how they can provide 
services that really truly are veteran-focused and how that 
stadium can be repurposed to have a focus on veterans.
    It will not be directly addressed in the Master Plan, but 
it will be addressed as an outcome and a byproduct of our 
discussions and the master planning process.
    Chairman Isakson. When the property was conveyed to the VA 
by Mr. Jones in 1888, I believe--is that the correct date?
    Mr. Kane. Yes.
    Chairman Isakson. Was that by covenant on the deed, or was 
that by an agreement of some type?
    Mr. Kane. It was the deed.
    Chairman Isakson. It was on the deed?
    Mr. Kane. Yes.
    Chairman Isakson. So, the definition of benefiting veterans 
is a broad one, not a narrow one.
    Mr. Kane. Correct, although we have been very clear through 
our process, through the master planning, and through the 
activities that we have undertaken since the settlement back in 
January that the intent is to revitalize that campus as the 
home for our veterans and to make sure that the health care is 
state-of-the-art, 21st century, as well as that all the 
services that are on that campus are focused and prioritizing 
the veterans.
    Chairman Isakson. The reason I am spending so much time on 
questions on the West L.A. property is because I am one that 
believes there is potential revenue to the Government and to 
the VA on surplus property around the country the Veterans 
Administration owns, and this particular Master Plan may be a 
template for what we might do in the future for other 
properties that are vacant that could otherwise be leased to 
generate revenue for the VA or for the benefit of veterans. I 
think the Master Plan that you come up with and the ultimate 
comments that we receive to that Master Plan are going to be 
critically important in terms of what we do.
    Mr. Kane. We agree. We think that this Master Plan can be a 
template for creating what we want the new VA to be and to be 
focused on, which is 21st century health care, with the other 
services that really dignify and respect the men and women that 
serve this country.
    Chairman Isakson. Senator Blumenthal.
    Senator Blumenthal. Thanks, Mr. Chairman.
    I think this hearing is very important because it deals 
with mental health, with equality of justice, and with 
homelessness. I appreciate all my colleagues' efforts to 
address a number of the issues that veterans and their families 
face, ranging from those issues to the recruitment of VA health 
care professionals and housing instability.
    There is a real and pressing need to move forward on many 
of these issues, and I want to offer my strong support for the 
bills mentioned by my colleagues, as well as for Senator 
Tester's DOCS for Veterans Act, which is the next step in 
enhancing the VA's medical workforce. In particular, it seeks 
to tackle the problem of vacancies at the network and facility 
director level across the VA, and, of course, my own measure 
which I have offered, the Veterans Housing Stability Act. I 
want to ask you, Dr. Lynch, I notice that there are some 
provisions that you do not support in this measure. Would you 
tell me why?
    Dr. Lynch. There is one provision that VA does not support, 
which is Section 3, that would require VA to create a new 
program to provide intensive case management interventions for 
homeless veterans in at least six locations. VA feels that we 
already have a very strong program tied to HUD-VASH, but we 
feel, in addition to that, that there are other opportunities 
for outreach to veterans and homeless veterans at this time.
    The VA has an extensive network that has outreach to the 
street, under bridges, soup kitchens, prisons, and courts. 
There are gap analyses that are being done to assure there is a 
focus on cities, the veterans population, and their needs.
    Senator Blumenthal. Do you feel the outreach already is 
sufficient?
    Dr. Lynch. We do.
    Senator Blumenthal. Well, I would respectfully disagree. I 
think that there is a need for more outreach to the homeless, 
from what I have seen at least in Connecticut. Although we are 
on the verge of purportedly ending front-line homelessness in 
Connecticut, there is a need for outreach every day that 
apparently is lacking or inadequate. So, I would just urge that 
perhaps you consider working with me on that issue.
    Let me ask you about the Veterans Court, increasing the 
number of judges in the Board of Appeals. I understand you do 
not run the Veterans Court of Appeals, but wouldn't you agree 
that the backlog and the increase in caseload warrant this 
step?
    Dr. Lynch. The case sounds compelling. I just feel on 
behalf of VA we are not in a position to decide for the Court. 
I certainly acknowledge there is backlog, and there could be 
value in additional judges.
    Senator Blumenthal. Perhaps you could consult with others 
at the VA and come back to us; submit in writing a further 
position on this issue. I think it is within the purview of 
your responsibility to make sure that disability claims for the 
benefit of veterans are processed as expeditiously as possible.
    Dr. Lynch. Yes, sir. We will do that.
    Response to Request Arising During the Hearing by Hon. Richard 
 Blumenthal to Dr. Thomas Lynch, Assistant Deputy Under Secretary for 
   Health Clinical Operations, Veterans Health Administration, U.S. 
                     Department of Veterans Affairs
    VA of course would not substitute its judgment for that of the 
Court of Appeals for Veterans Claims (CAVC) regarding their needs. 
However, VA does share with them the common goal of reducing the 
appeals backlog and securing final disposition of appeals faster. In 
addition, the requested additional resources for the Board of Veterans' 
Appeals (the Board) in the FY 2017 budget will almost certainly lead to 
a proportional increase in the Court's workload as there has been a 
relatively stable relationship between the Board's output and appeals 
to the CAVC. We note in CAVC's testimony for the record for this 
hearing they expressed support for S. 1754, including making permanent 
the increase in the number of judges from seven to nine. We deferred to 
the CAVC's views in our written statement, but believe it is safe to 
say we join in that judgment.

    Senator Blumenthal. Finally, let me ask you about the 
Delivering Opportunities for Care and Services for Veterans Act 
of 2015, which has been sponsored by Senator Tester and others. 
I gather--maybe you could restate your position on this bill.
    Dr. Lynch. VA has not developed formal positions, but I 
think I can safely say, looking particularly at Sections 101 
and 102, which deal with residency slots, the use of provisions 
of VACA regulations, that we feel strongly that these would be 
a positive aspect to allow us to develop more residency 
programs in VA, to have the potential to recruit residents from 
those programs to provide care for veterans.
    I think also looking at Section 300, which deals with 
additional provisions that put network directors and medical 
center directors under Title 38 and allow us to be more 
competitive as we recruit in localities and address complexity 
challenges that are facing a number of our locations, these are 
all going to be very positive actions that will help us, I 
think, be competitive in the health care market today.
    Senator Blumenthal. Well, I am going to join as a cosponsor 
of this measure. I think it is absolutely vital, and I want to 
thank Senator Tester for his leadership. Thank you.
    Thanks, Mr. Chairman.
    Chairman Isakson. Thank you, Senator Blumenthal.
    Senator Rounds, followed by Senator Tester.

        HON. MIKE ROUNDS, U.S. SENATOR FROM SOUTH DAKOTA

    Senator Rounds. Thank you, Mr. Chairman. I just wanted to 
follow up also on Senator Tester's proposed legislation, 
S. 1676. It would appear that it does a lot to help deliver 
health care long term to the rural parts of the country, and I 
am just curious. Originally, you indicated that you did not 
have a position, and yet you just gave some reasons why you 
would support it.
    I would like to go a little bit more in-depth on it. Would 
you share with us the reasons why you were not interested in 
supporting it?
    Dr. Lynch. We are not in a position to say we are not 
supporting this bill. We just have not developed our views yet 
in a formal fashion at this point. But, looking at the 
provisions and sections of the bill, I see that there are 
opportunities particularly for rural health.
    If you look back at the VACA legislation, it identified 
residency positions that would be focused in rural and highly 
rural areas. Over the last year, we were actually able to get 
400 requests for residency positions; 204 of those met the VACA 
requirements; 163 of those positions have been filled, and we 
expect to fill the rest the coming academic year.
    I think the value of this bill moving forward is to begin 
to work with smaller medical centers apart from our major 
academic medical centers and osteopathic schools. It is going 
to require time to develop those residencies, probably a couple 
of years to develop the residency, another couple of years to 
get it accredited, and then probably 3 years to fill the 
residency. So, there is an advantage to extending the 
provisions of the VACA legislation from 5 years to 10 years.
    Senator Rounds. It sounds like a bureaucratic mess to me.
    Let me just go on and try another one: S. 717, which is the 
Donnelly-Ernst proposal. You indicated it was not OK with the 
VA, and this is the one that would designate certain non-
Department mental health care providers who treat members of 
the Armed Forces and veterans as providers who have particular 
knowledge relating to the provisions of mental health care to 
members of the Armed Forces and veterans and for other 
purposes.
    I am just curious. It looks like a lot of our veterans 
leaving DOD, stepping in, and now coming under of the care of 
the VA, I suspect that if they could go directly to a VA 
facility and receive the care, they probably would look at 
that. And yet what we are looking at with this particular 
proposal is for those individuals who could not access the VA 
facility, you have indicated that you have got some other 
alternatives out there that would be comparable to this 
particular one.
    It looks to me like if it is working right now, we would 
not have the requests for the bill. Are you thinking that right 
now the ability to provide for those services is already there 
within the framework that you have laid out versus the 
alternative that has been proposed by this legislation?
    Dr. Lynch. VA's position is that we feel there is a need to 
educate the community, and we think we have vehicles out there 
to provide that education. VA is also embarking on another 
provision of the Defense Authorization Act that requested that 
VA begin to reach out to the community providers and engage 
them in providing mental health services.
    Our real concern is that we do not feel that we can 
adequately develop a program that certifies or recognizes 
somebody because, while they have taken the training, it is 
very difficult to determine the competency for people who do 
not work for us, and also to determine long range whether they 
maintain that competency.
    Senator Rounds. You know, a lot of the folks that work for 
you right now, good, hardworking individuals that provide good 
professional services, they do not start out with a program in 
which you have trained them to begin with. They come from 
outside in the civilian world. You provide them with training 
courses right now that make them better at what they do. They 
get experiences working with veterans today. It seems to me 
that the same type of approach would be comparable in these 
other non-VA-employed facilities.
    I would hope that you might reconsider the position just in 
terms of being able to provide services in those parts of the 
country that do not have access to the VA expertise that we do 
in some of our larger communities.
    Dr. Lynch. Yes, sir.
    Senator Rounds. Thank you.
    Thank you, Mr. Chairman.
    Chairman Isakson. Senator Tester.

           HON. JON TESTER, U.S. SENATOR FROM MONTANA

    Senator Tester. Thank you, Mr. Chairman and Ranking Member, 
for including S. 1676 on today's agenda, and I appreciate your 
support, Senator Blumenthal, on this bill. You know, this 
legislation, simply put, was really to address the chronic 
shortage of VA medical professionals and really allow you to 
better compete for the skilled staffing that you need over the 
next many years as VA continues to get pressure for services.
    Just as background, it incorporates a number of great ideas 
from folks, veterans, and medical communities. It has been 
endorsed by 17 organizations representing everyone from medical 
colleges to mental health counselors to physician assistants to 
disabled vets, and I want to particularly thank the American 
Association of Medical Colleges and the American Legion for 
their early engagement and support of this bill.
    In July, this Committee unanimously reported out four 
provisions of this legislation, and I am hopeful we can advance 
the remaining provisions. In particular, I want to highlight a 
section that you have highlighted, Dr. Lynch, Section 101 
regarding medical residencies, which I believe are the surest 
way to get a pipeline of docs into rural America and into the 
areas where we need them to address our veterans' needs.
    Congress included a critical provision in the Choice Act to 
increase the number of residents training--and you are familiar 
with this, Dr. Lynch.
    Dr. Lynch. Yes, sir.
    Senator Tester [continuing]. At VA facilities by over 1,500 
over the next 5 years. But, to date, it is my understanding 
that the VA has only been able to fill about 163 of those 
positions. Is that correct?
    Dr. Lynch. Yes, Senator.
    Senator Tester. OK. After speaking with a number of folks 
in the VA, it is clear that filling all 1,500 authorized 
residency positions, as Congress intended, simply cannot 
happen. Is that a fair statement?
    Dr. Lynch. That is a fair statement.
    Senator Tester. Is that because the VA no longer runs its 
own stand-alone residency program and must partner with non-VA 
affiliates to establish----
    Dr. Lynch. In most cases, to my knowledge, we need to 
partner with academic affiliates or community hospitals, yes.
    Senator Tester. The problem with that is that even though 
VA is willing, non-VA affiliates are hamstrung by the current 
cap on Medicare-funded residencies. Is that correct?
    Dr. Lynch. Yes.
    Senator Tester. OK. That cap was established in 1997, for 
the Committee's information. It is woefully insufficient to 
meet the needs that are out there, and that is why the Section 
101 of this bill would establish those 1,500 residency 
positions that were authorized by the Choice Act. Subsequently, 
Centers for Medicare and Medicaid Services would be allowed to 
make Medicare direct graduate medical education and direct 
medical education payments for Choice students who are in the 
teaching caps. I just think this is critically important if we 
are going to be able to address the medical needs we have on 
the ground. I think it applies not only to rural but also urban 
VA centers. It absolutely has benefits to rural America, make 
no mistake about it, and they are big ones. It would lead to 
more VA and non-VA affiliate partnerships and more doctors 
ultimately joining the VA workforce.
    Dr. Lynch, does the DOCS for Veterans Act give the VA the 
flexibility and the tools it needs to really fill those 
residency positions?
    Dr. Lynch. I think it gives us the extended timeframe to 
work with organizations to develop residencies, particularly in 
rural areas with osteopathic facilities, that we may not have 
had relationships with before that will allow us to have 
outreach into rural and highly rural areas.
    Senator Tester. Do you see this as a strategy that would 
work to help fill the doctors that you need?
    Dr. Lynch. I think this is a good strategy, Senator.
    Senator Tester. OK. I want to talk about the other section 
you talked about, Section 300. Very quickly, it has to do with 
filling positions, making sure folks are held accountable in 
leadership positions because I think leadership does matter, 
whether veterans integrated service network (VISN) directors or 
whether they are medical directors of medical facilities.
    Do you believe a major hindrance to filling these positions 
has been the VA's inability to compete within the health care 
industry----
    Dr. Lynch. Yes, sir.
    Senator Tester [continuing]. For executive leaders in the 
private sector?
    Dr. Lynch. Yes.
    Senator Tester. Do you think the gap is wide?
    Dr. Lynch. Yes, I do.
    Senator Tester. Can you give me an indication of what that 
gap might be on average?
    Dr. Lynch. I do not have any average numbers, but I can 
tell you that the salary paid in the private sector is 
significantly greater than what we are paying our VA medical 
center directors and network directors.
    Senator Tester. OK. What kind of vacancies do you have now, 
focusing on just the medical directors?
    Dr. Lynch. Medical center directors I think is in the range 
of 25 to 30 percent.
    Senator Tester. OK. So, 25 to 30 percent less salary or 25 
to 30 percent of those medical facilities do not have 
directors?
    Dr. Lynch. Do not have directors.
    Senator Tester. That is what I thought. You guys know this 
is like having a hospital with no CEO, which is a huge, huge 
problem. I would hope that we could kick out both Sections 101 
and 300 out of this Committee and would love to have your help 
getting that done as we move forward. I appreciate all of you 
for being on the panel. Thank you for your hard work.
    Dr. Lynch. Thank you.
    Chairman Isakson. I want to underscore what Senator Tester 
has said. There are far too many vacancies, far too many acting 
directors, and far too many people who do not have permanent 
responsibility at the VA. I have talked about that before, and 
I appreciate that you brought it up. Just an editorial comment 
to pass on to Secretary McDonald.
    Dr. Lynch. Yes, sir.
    Chairman Isakson. Senator Boozman.

         HON. JOHN BOOZMAN, U.S. SENATOR FROM ARKANSAS

    Senator Boozman. I would second that editorial comment; it 
is just something that we simply have to fix. It is common 
sense, and it is good business practices. Yet, I know it is 
difficult in the situation you are in.
    Dr. Lynch, in your testimony you noted that you are 
supportive of Senator Graham's legislation, S. 2022, and the 
idea of that, I think in your testimony and that we all 
understand, was to provide our Medal of Honor winners with a 
small pension as they go forward.
    One of the real values of these are individuals that have 
done such heroic things and I have had the opportunity to be 
around them at different events. They are so good about coming 
out. You see young people, all ages, that learn about the 
military and things, which is just a very positive experience.
    One of the problems, and the reason I support this, is that 
many times they come at their own expense. They are very 
willing to do things, but there is an expense incurred by 
themselves, which, again, they are in situations where perhaps 
it is difficult. So, I think that is another reason that the 
legislation would be beneficial. Would you agree with that, 
with the----
    Dr. Lynch. Yes.
    Senator Boozman [continuing]. Importance of them being--and 
them adding so much to whatever the event is, helping us 
highlight the sacrifice and the importance of our military.
    Dr. Lynch. Senator, absolutely.
    Senator Boozman. Very good. I understand that you all are 
not supportive of Senators Donnelly and Ernst's legislation 
concerning designating non-Department mental health care 
providers who treat members of the armed services and veterans 
as providers with specialized knowledge of providing mental 
health care to veterans and servicemembers. Tell me a little 
bit about that. You know, it is not uncommon at all in the 
private sector for them to be credentialed through medical 
societies and things like that. Why is it so difficult for VA 
to be able to do that?
    Dr. Lynch. I think, Senator, the VA and DOD looked at this 
several years ago with respect to another program related to 
mental health services in rural areas and found that there were 
significant, what felt to be legal obstacles to this. There was 
also a feeling that some potential conflicts exist with State 
licensing and professional review boards. So, one aspect is 
legal.
    The other aspect is developing a process that would allow 
us to assess their competency beyond a simple self-administered 
educational program and to follow the progress of their 
treatment over time. Right now we just do not feel we have the 
resources to do that properly.
    Senator Boozman. I would encourage us to perhaps visit with 
the American Psychiatric Association and the American 
Psychological Association and really see if we could figure 
that out, the reason being is mental health care issues have 
been a crisis in the past, but they really are reaching the 
breaking point now, not only in VA but throughout our society. 
So, we have to start thinking outside the box.
    It is something that I would appreciate, and I think the 
Committee would appreciate it if you would really look hard and 
see how we can expand the services that we are providing, and 
yet it is very difficult to provide the service without 
ancillary help. That is why I think we see the medical 
societies and things credentialing these type of people.
    Dr. Lynch. Yes, sir.
    Senator Boozman. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Isakson. Senator Moran.

           HON. JERRY MORAN, U.S. SENATOR FROM KANSAS

    Senator Moran. Thank you, Mr. Chairman. Dr .Lynch, thank 
you very much for your presence today. I may be following up on 
what Senator Boozman was talking about.
    I want to explore the issue of the use of community mental 
health providers within the VA, and my understanding is, under 
the Choice Act, the VA is required to provide services to those 
who cannot receive the service they need within 30 days or who 
live more than 40 miles from a VA facility. The facility, I 
guess, has now been redefined.
    Dr. Lynch. Yes.
    Senator Moran. One of the only places in Kansas that you 
can access mental health services in rural parts of our State, 
but generally across our State, are what we call community 
mental health centers, and they provide the wide array of 
mental health services. My impression is--and we have been 
working on this long before Choice was ever enacted, but we 
have been trying to convince the VA to enter into agreements 
with those mental health centers to allow veterans to receive 
care through there. It really has not developed, and my 
question is: In today's circumstance where the VA is required 
to provide those services, maybe the bottleneck--it still does 
not seem to be happening--is how the VA or TriWest decides 
which organizations to contract with to provide those services. 
Can you explain to me how that process works?
    Dr. Lynch. To my understanding, TriWest on behalf of the VA 
reaches out to providers in the community to engage them in the 
Choice program. There are some requirements. They do have to be 
Medicare-eligible in order to participate. They do have to 
provide a copy of their records within 30 days of the provision 
of services. We can reimburse them at rates up to Medicare. So, 
a lot of the challenges are related to working with the 
providers and getting them to engage in Choice.
    We have been working with TriWest to improve those 
engagements. We have been working to try to make it easier 
through some recent legislation which would actually let us 
work within the 30-day interval and avoid 60-day 
reauthorizations to make this process easier to implement. 
There are some recommendations going forward as of November 1 
that will help us, I think, more greatly integrate the VA care 
in the community beyond what we are doing right now.
    Senator Moran. Would there be, Dr. Lynch, any circumstances 
in which the VA would decide we do not want to have an outside 
provider provide this kind of service and, therefore, TriWest 
would never enter into negotiations with the provider?
    Dr. Lynch. Not to my knowledge, as long as they meet the 
provisions of the Choice Act.
    Senator Moran. There would not be an attitude or approach 
within the VA that says we want to retain the ability, only the 
ability--and in a sense, ``revenue'' is not the right word, but 
the revenue that flows from that veteran, we want to maintain 
that within the VA and not allow an outside provider to provide 
that 
service?
    Dr. Lynch. No, Senator. I think the Secretary has made it 
clear that we are coming into a new era in VA, that we need to 
collaborate with the community, that we need to partner with 
them to provide care to veterans, and that we cannot do it all 
ourselves.
    Senator Moran. One of the community mental health centers 
in Kansas told me that they were allowed to contract but only 
to provide screening services but not the actual care of the 
veteran. Does that make any sense? They were interested in 
providing a wide array of services, but the VA says no, we are 
only going to contract--or TriWest says they are only going to 
allow you to do screening.
    Dr. Lynch. I do not understand that, but I would be happy 
to get more information and explore it with you.
    Senator Moran. Do you have the sense that this 
implementation of the Choice Act is pretty uniform across the 
country VISN-to-VISN? Or is it different because Kansas happens 
to be in a certain VISN?
    Dr. Lynch. It varies across the country, depending upon our 
ability to recruit community partners. We are working 
aggressively, I can assure you, with both of our third-party 
administrators to engage the community and to have Choice 
providers available.
    Senator Moran. Under the Clay Hunt Act the VA is also 
instructed to provide additional mental health community 
services. Any development there, or does the Choice Act, if 
fully and appropriately implemented, take care of that mandate?
    Dr. Lynch. I would have to look at the provisions of the 
Clay Hunt Act that you are referring to, but I think we have a 
number of resources that we need through Choice. I think the 
other thing that I mentioned earlier through the Defense 
Authorization Act, our mental health services are actually 
mandated to reach out to the community and involve community 
providers in mental health care.
    Senator Moran. Are family and medical professionals and 
therapist, are they--does the law require you to hire them 
within the VA?
    Dr. Lynch. I do not know if the law requires us. I know 
that we have been reaching out to involve them more in VA 
services. I have had that discussion with our mental health 
program office, and we are beginning to look for ways to engage 
these individuals further.
    Senator Moran. My final question, Mr. Chairman, is that I 
was told that a community mental health center could not be 
reimbursed for any services provided by a family and marriage 
therapist, and that I think makes no sense, in part based upon 
what you just said, but I know there is an effort to integrate 
that profession into the VA. Yet the community mental health 
center says they cannot use family and marriage therapists and 
be reimbursed.
    Dr. Lynch. I would have to look more specifically at that.
    Senator Moran. Thank you very much.
    Chairman Isakson. Senator Tillis.

       HON. THOM TILLIS, U.S. SENATOR FROM NORTH CAROLINA

    Senator Tillis. Thank you, Mr. Chair. I am sorry I was 
running late. I am not going to talk long except to just lend 
words of support for two bills: Senator Shaheen's bill, 
S. 1754. I do not think you all have taken a position on it, 
but I think it is a valuable resource in trying to draw down 
the claims backlog and give some certainty to the veterans who 
are going through an appeals process. Also, Senator Graham's 
bill, S. 2022. I look forward to seeing them make their way 
through the Committee.
    The only thing I will not do, since I do not think any of 
you all have anything to do with the Camp Lejeune toxic waste 
issue, but I am looking forward to a future meeting where I can 
get some resolution to questions that I posed in the last 
meeting.
    Thank you, Mr. Chair.
    Chairman Isakson. Thank you, Senator Tillis.
    Senator Sullivan?

          HON. DAN SULLIVAN, U.S. SENATOR FROM ALASKA

    Senator Sullivan. Thank you, Mr. Chair. Dr. Lynch, it is 
good to see you again.
    Dr. Lynch. Yes, sir.
    Senator Sullivan. I think you probably will not be 
surprised when I talk about a topic that you and I have been 
spending a lot of time on lately, and that is the issues in 
Alaska. Again, I appreciate the Chairman and the Ranking 
Member's support for our hearings out in the State in August 
that I think were, hopefully, very helpful to you and your team 
and certainly are helpful to me and my team.
    At the latest hearing, we talked about Dr. Shulkin's six 
points with regard to an Alaska plan, an Alaska pilot program 
to fix what I think everybody recognizes has been a real 
problem in terms of the implementation of the Choice Act. I 
appreciate you following up, you and your team just recently 
with my staff.
    My understanding is that most of what Dr. Shulkin is going 
to do--and I am sure you have those six points in front of you 
this time--do you?
    Dr. Lynch. Absolutely.
    Senator Sullivan. Good, I do, too. I will not grill you on 
them, though. That is, for most of that, we are not going to 
need legislation. I do think that on the issue my 
understanding, particularly from the call yesterday, on the 
pilot project in the Matsu Valley in terms of the partnerships 
that you might need some legislative authority there, and I 
just want to get a commitment from you--I know I am going to 
get it--that you will work with my team and the Committee here 
that we can make sure we know what that is. So, whatever bills 
are moving soon, that we can make sure we have that in hand 
working with you. Can I get that commitment from you on that?
    Dr. Lynch. Yes, sir.
    Senator Sullivan. What I wanted to do, just because you saw 
how passionate our veterans were on the issue, I just wanted to 
work through first the timeline on the issues in Alaska. I 
think you saw how urgent the issues are. In the last hearing, I 
talked about the ability for you guys to move up a timeline.
    Again, can I get a commitment as soon as possible so we can 
work with you to announce what we are going to do there in 
terms of an Alaska pilot plan, particularly in the areas where 
you have authority, so we can get that out and start giving our 
veterans hope?
    Dr. Lynch. Yes, sir. I think we talked yesterday about two 
phases. One, we have already implemented a virtual integration 
between TriWest and the integrated care service in Anchorage so 
that there is a direct connection between those individuals at 
VA Alaska who have worked for a long time with the community 
providers. TriWest is going out and recruiting seven additional 
individuals who will actually be physically present in the 
Integrated Care Service Center.
    I think what came across in the phone call yesterday is we 
want to make sure we do this right, and we want to make sure we 
get the right people. Right now we think they will be in place 
by mid-November, including recruitment. But----
    Senator Sullivan. OK. You do not think there is a way to 
move that up at all?
    Dr. Lynch. Sir, it is my understanding they are moving as 
quickly as possible.
    Senator Sullivan. OK.
    Dr. Lynch. They want this almost as bad as you do, because 
I----
    Senator Sullivan. I doubt it, but that is OK.
    Dr. Lynch. Well, I can tell you----
    Senator Sullivan. Or maybe they do, and that is great. We 
are all trying to work together. That is the key.
    Dr. Lynch. Having walked through and talked with the people 
in that unit, they are very committed to the veterans.
    Senator Sullivan. Oh, they are.
    Dr. Lynch. They are very committed to the vendors that are 
working with our veterans. Anything they can do to facilitate 
the communication between veteran and vendor and make that work 
is going to be something they are going to push as quickly as 
they can do that to put in place a good service.
    Remember, this is a pilot. It will probably be implemented 
in other places across VA. We want to make sure it is 
successful.
    Senator Sullivan. Good. I appreciate that constructive 
answer.
    We are still getting a ton of veterans weighing in with my 
office on this issue, and what I thought would be useful in the 
remaining time I have is to have them speak directly to you and 
see if you can answer a couple of their questions.
    One, Ms. Cathy Blodgett of Anchorage, she wrote in to our 
office and said she is a veteran, she works at the VA, and she 
is an Air Force veteran. Alaska VA takes pride in service to 
our veterans, but are spending dozens of hours on the phone 
trying to fix the contractor shortcomings, and our employees 
cannot do the jobs they are hired to do because they are 
spending so much time on resolving the Choice Act issues.
    Dr. Lynch. Can I just make----
    Senator Sullivan. I will just throw one other out there, 
because I am trying to get in under the buzzer. A board-
certified doctor in Anchorage, Saket Ambasht, he said that--and 
he is a disabled vet. He wrote in to my office. He said he has 
provided care to 1,036 patients out of 7,994 over the last 
several years, but in the last several weeks has been only able 
to see two VA patients out of close to 100, again, from Choice 
Act implementation.
    Will the Alaska plan kind of address some of these issues 
that are directly coming from our vets and people who have 
worked with the VA or in the VA?
    Dr. Lynch. I think you illustrated the point I just made, 
that the people at the VA, the people in the Integrated Care 
Service Center, care as much as you do about serving the 
veteran and resolving those problems and working efficiently 
and reestablishing what is important in Alaska, which are 
relationships between the veteran and the VA, between the VA 
and its vendors. So, I think you have made my point as well as 
your point.
    Senator Sullivan. Will the plan allow these kind of things 
to be fixed?
    Dr. Lynch. I think it will, sir.
    Senator Sullivan. Thank you.
    Thank you, Mr. Chairman.
    Chairman Isakson. Thank you, Senator Sullivan.
    I want to thank our panelists for their testimony. Thank 
you for being here today, and we will recognize the second 
panel to come forward at this time.
    [Pause.]
    Chairman Isakson. Let me bring the Committee back to order. 
Before I introduce our panelists, I want to say a thank you, if 
I can, to The American Legion, the VFW, Iraq and Afghanistan 
Veterans of America, and all the other VSOs. Over the past 7 or 
8 months, we have had a difficult situation in Denver, 
Colorado, with the Denver hospital, and I want to thank the 
Ranking Member in this eulogy as well--not eulogy, but whatever 
it is, anyway--testimony. Because of the support of the VSOs 
and the cooperation of the Ranking Member in the waning hours 
of last week, we pulled off something nobody thought we could 
do by getting the VA hospital authorized in Denver, finding the 
money to finish the hospital without going outside the VA to 
find that money, and I think it showed what we can do when we 
work together. But the VSOs were extremely helpful to back the 
Senate position in the waning days of that debate, and I want 
to publicly thank them. We hope you will tell your commanders 
the same. I want to thank Senator Blumenthal for his last-
minute--not last-minute support, but in the waning minutes when 
we were challenged, he stuck behind the Committee and stuck 
behind what we did, and we appreciate it very much.
    Senator Blumenthal. Thank you, Mr. Chairman.
    I want to thank the Chairman for his leadership on this 
issue and others, although I am not sure I am wholly in accord 
with his eulogy.
    Chairman Isakson. Trilogy.
    Senator Blumenthal. Trilogy.
    Chairman Isakson. Testimony.
    Senator Blumenthal. But I do want to thank him very 
seriously for his leadership and, second, emphasize how 
important the veterans service organizations have been. I think 
the most telling word in that title is ``service.'' You have 
truly been of service to the veterans of America as well as to 
all of us who have a responsibility to try to provide for them, 
and the partnership that we have with the VSOs is enormously 
beneficial to the work we do, trying as hard as we can, and 
working as hard as you do to serve our common goals. I want to 
join in thanking you and hope you will pass that message along 
not only to your leadership but to your membership, because 
they are the ones who truly deserve credit for helping us serve 
the veterans of America and for their service to our country in 
uniform.
    Thank you.
    Chairman Isakson. I would like to introduce our second 
panel.
    First, Lauren Augustine, legislative associate, Iraq and 
Afghanistan Veterans of America.
    Second is Lou Celli, director of Veterans Affairs and 
Rehabilitation Division of The American Legion.
    Great name here, Elisha Harig-Blaine--what a great name--
who is a Principal Associate of Housing (Veterans and Special 
Needs), National League of Cities.
    And David Norris, national legislative committee, Vice-
Chairman, Veterans of Foreign Wars.
    We appreciate your being here today. Please limit your 
testimony to 5 minutes each, if at all possible, and we will 
start with Ms. Augustine.

STATEMENT OF LAUREN AUGUSTINE, LEGISLATIVE ASSOCIATE, IRAQ AND 
                AFGHANISTAN VETERANS OF AMERICA

    Ms. Augustine. Chairman Isakson, Ranking Member Blumenthal, 
and distinguished Members of the Committee, on behalf of Iraq 
and Afghanistan Veterans of America and our more than 425,000 
members and supporters, we would like to thank you for your 
kind welcome and the opportunity to share our views on these 
pieces of legislation.
    IAVA supports each of the bills before the Committee today. 
Having established that, I would like to focus my testimony on 
two areas our members have expressed the greatest concern: one, 
increasing access to health care and mental health care; and, 
two, eliminating veteran homelessness.
    Combating suicide among troops and veterans remains a top 
priority for IAVA and its members. According to IAVA's 2014 
member survey, 40 percent of respondents knew at least one Iraq 
or Afghanistan veteran who had died by suicide and 47 percent 
of respondents knew at least one veteran who had attempted 
suicide. While the work conducted by this Committee on the Clay 
Hunt SAV Act is greatly appreciated, there is still much more 
work to be done. First and foremost is the need to ensure that 
the Clay Hunt SAV Act is being implemented appropriately, and 
IAVA strongly urges the Committee to hold an oversight hearing 
before the end of 2015 to this end.
    IAVA recognizes that the VA provides a needed service by 
staffing mental health care providers specifically trained to 
understand military experiences and by using evidence-based 
treatments proven most effective. There is no question that the 
VA should remain the leading experts on veteran-specific care 
and services. However, many veterans do choose to seek care 
outside of the VA system. According to the 2014 IAVA member 
survey, 58 percent of respondents used VA health care, which 
leaves a sizable percentage potentially seeking non-VA care. In 
light of that, IAVA supports the measures outlined in S. 717 to 
identify non-VA mental health care providers that have 
military-specific competencies.
    Fostering a greater awareness of military culture and best 
practices of care among non-VA providers will strengthen the 
overall community of care available to veterans. IAVA 
encourages the Members of this Committee to recognize the 
potential benefit of this program and work together to help 
connect veterans to a valuable network of providers.
    Tied to the mental health care needs of veterans, ensuring 
greater access to VA health care must remain a top priority in 
order to prevent a repeat of the egregious situation that came 
to light out of Phoenix in 2014. While the Choice Act created a 
foundation for change at the VA, there are additional areas of 
concern that still need to be resolved. In understanding that, 
IAVA supports the numerous provisions in the DOCS Act that will 
build on those initiatives to ensure the VA is adequately 
meeting the needs of veterans.
    The Choice Act included a provision to add 1,500 medical 
residencies at the VA, but these residences are currently 
included in the cap for Medicare-funded residencies, and it is 
impacting the VA's ability to fully utilize this provision. 
Excluding those residencies from the Medicare-funded cap will 
give the VA and its local partners the ability to utilize the 
increase in the manner in which it was intended.
    IAVA also supports the 5-year extension to this residency 
program and, in fact, would like to see the program made 
permanent. Additionally, IAVA highly supports the provision to 
increase the number of behavioral health residencies through a 
pilot program in rural areas and encourages the Committee to 
use the pilot program as a model for increased behavioral 
health residencies across the entire country.
    Another area of concern highlighted by some of today's 
legislation addresses the continued effort to end veteran 
homelessness. There has been considerable progress made at 
addressing this issue in recent years, but there is now a need 
to address some of the concerns that can arise when a veteran 
may no longer be homeless but is still in need of transitional 
assistance, and what communities should do moving forward with 
the housing and services created to address homelessness. In 
light of this, IAVA supports the Veteran Housing Stability Act.
    After chronic homelessness is ended, or dramatically 
reduced, there is a new need in communities to ensure veterans 
can sustain permanent housing and to ensure providers 
responsibly use existing transitional housing. The provisions 
included in this legislation that aim to accomplish those goals 
will help the VA and its community partners establish support 
services that will help prevent veterans from falling back into 
homelessness. IAVA applauds the type of planning this 
legislation focuses on to continue ending veteran homelessness 
and to prevent future veterans facing similar issues.
    Focusing on a specific regional homelessness concern, the 
West L.A. Homeless Veterans Leasing Act will help reinforce the 
effort to end veteran homelessness in an area greatly affected 
by the issue.
    As a strong supporter of VA accountability and oversight, 
IAVA understands the original need to remove this authority but 
believes, under the leadership of Secretary McDonald and the 
oversight provided in this legislation, the West L.A. campus is 
poised to create a strong community for veterans. It is time 
the VA utilize this space and support from the community for 
its original purpose.
    That support being stated, we are in close contact with our 
members and many key activists on the ground in L.A. Listening 
to their concerns, we must express concern that there may be a 
special status granted to the UCLA baseball stadium. It is 
imperative that Congress and the VA work together to address 
this issue and ensure there are no competing directives, and a 
veteran-centric model of care and service remain the priority.
    At IAVA, we believe our members, and all veterans, deserve 
the very best our Nation can offer when it comes to fulfilling 
the promises made to them upon entry into the military. There 
is no doubt that every Member of this Committee has the best 
interests of our veterans in mind when drafting legislation.
    Thank you for your time and attention. I am happy to answer 
any questions you may have.
    [The prepared statement of Ms. Augustine follows:]
    Prepared Statement of Lauren Augustine, Legislative Associate, 
                Iraq and Afghanistan Veterans of America

 
------------------------------------------------------------------------
  Bill #    Bill Name or Subject          Sponsor          IAVA Position
------------------------------------------------------------------------
    S.717 Community Provider      Sen. Donnelly/Ernst         Support
           Readiness
           Recognition Act of
           2015
------------------------------------------------------------------------
   S.1676 DOCs for Veterans Act           Sen. Tester         Support
           of 2015
------------------------------------------------------------------------
   S.1754 Amend title 38 to              Sen. Shaheen         Support
           make permanent the
           increase in number
           of judges presiding
           over the United
           States Court of
           Appeals for Veterans
           Claims
------------------------------------------------------------------------
   S.1885 Veteran Housing             Sen. Blumenthal         Support
           Stability Act of
           2015
------------------------------------------------------------------------
   S.2013 Los Angeles Homeless   Sen. Feinstein/Boxer         Support
           Veterans Leasing Act
           of 2015
------------------------------------------------------------------------
   S.2022 Amend title 38 to               Sen. Graham         Support
           increase the amount
           of special pension
           for Medal of Honor
           recipients
------------------------------------------------------------------------

    Chairman Isakson, Ranking Member Blumenthal and Distinguished 
Members of the Committee; On behalf of Iraq and Afghanistan Veterans of 
America (IAVA) and our more than 425,000 members and supporters, we 
would like to extend our gratitude for the opportunity to share our 
views and recommendations regarding these pieces of legislation.
    IAVA supports each of the bills before the Committee today. Having 
established that, I would like to focus my testimony on two areas that 
our members have expressed the greatest concern: (1) increasing access 
to health care and mental health care; and (2) eliminating veteran 
homelessness.
    Combating suicide among troops and veterans remains a top priority 
for IAVA and its members. According to IAVA's 2014 member survey, 40% 
of respondents knew at least one Iraq or Afghanistan veteran who has 
died by suicide and 47% of respondents knew at least one Iraq or 
Afghanistan veteran who had attempted suicide. While the work conducted 
by this Committee on the Clay Hunt Suicide Prevention for America Act 
is greatly appreciated, there is still much more work to be done with 
regard to providing mental health care and support to veterans and 
their families. First and foremost is the need to ensure that the Clay 
Hunt Act is being implemented appropriately, and IAVA strongly urges 
the Committee to conduct an oversight hearing before the end of 2015 to 
this end.
    IAVA recognizes that the Department of Veterans Affairs (VA) 
provides a unique, and needed, service by staffing mental health care 
providers specifically trained to understand military culture and 
experiences, and by using evidence-based treatments proven most 
effective at treating the mental health concerns facing veterans. There 
is no question that the VA should remain the leading experts on 
veteran-specific care and services. However, many veterans do choose to 
seek care outside of the VA system. According to the 2014 IAVA member 
survey, 58% of respondents used VA health care, which leaves a sizable 
percentage seeking non-VA care. In light of that, IAVA supports the 
measures outlined in S. 717 to identify non-VA mental health care 
providers that have military-specific competencies.
    Fostering a greater awareness of military culture and best 
practices of care among non-VA providers will increase access to care 
and strengthen the overall community of care available to veterans, 
which are two key components in decreasing veteran suicide. 
Additionally, providing a mechanism for private providers to identify 
themselves as having military competencies will encourage more 
providers to gain that knowledge and provide evidence-based treatment 
to veterans in their communities. There are already several mechanisms 
in place to aid in a quick and efficient implementation of this program 
while not increasing the workload of the VA. IAVA encourages the 
Members of this Committee to recognize the potential benefit of this 
program and work together to help connect veterans to a valuable 
network of providers.
    Tied to the mental health care needs of veterans, ensuring greater 
access to VA health care must remain a priority for all in the veteran 
community in order to prevent a repeat of the egregious situation that 
came to light out of Phoenix in 2014. While the Choice Act created a 
foundation for change at the VA, there are additional areas of concern 
that still need to be resolved. In understanding that need, IAVA 
supports the numerous provisions in the Delivering Opportunities for 
Care and Services for Veterans (DOCS) Act that build on the initiatives 
of the Choice Act to ensure the VA is adequately meeting the needs of 
veterans seeking care.
    The Choice Act included a provision to add 1500 Graduate Medical 
Education slots, or medical residences, at the VA to help increase 
awareness of the opportunities available at the VA. These residences 
are currently included in the cap for Medicare-funded residences and it 
is impacting the VA's ability to fully utilize the increase in 
residencies. This legislation excludes those 1500 residences from the 
Medicare-funded cap to give the VA and its local partners the 
capability of utilizing the residency increase in the manner in which 
it was intended. This legislation also extends the residency program 
created by the Choice Act by five years to allow for realistic 
maturation of the residency program. IAVA supports this extension and 
in fact, would like to see the program made permanent. Additionally, 
IAVA highly supports the provision to specifically increase the number 
of behavioral health residencies through a pilot program in rural areas 
and encourages the Committee to use the pilot program as a model for 
increased behavioral health residences across the entire country.
    Another area of concern highlighted by some of today's legislation 
addresses the rate of veteran homelessness across the country. There 
has been considerable progress made at addressing this issue in recent 
years, but the fact that tens of thousands of veterans remain homeless 
on a given night is a harsh reminder that there is need for additional 
support and services.
    Given the progress made to end chronic veteran homelessness, there 
is now a need to address some of the concerns that can arise when a 
veteran may no longer be homeless, but is still in need of transitional 
assistance; and what communities should do moving forward with the 
housing and services created to address homelessness. In light of this, 
IAVA supports the Veteran Housing Stability Act, which builds on the 
successes of existing homeless prevention programs while addressing 
some of the shortfalls that need to be filled.
    After chronic homelessness is ended, or dramatically reduced, there 
is a new need in communities to ensure veterans can sustain permanent 
housing and to ensure providers responsibly use existing transitional 
housing. The provisions included in this legislation that aim to 
accomplish those goals will help the VA and its community partners 
establish support services for veterans that will help prevent veterans 
from falling back into homelessness. IAVA applauds the progress the VA, 
community partners and state agencies have made at eradicating veteran 
homelessness, and encourages the type of long-term planning this 
legislation focuses on to continue ending veteran homelessness and to 
prevent future veterans facing the same problem.
    Focusing on a specific regional homelessness concern, the West Los 
Angeles (L.A.) Homeless Veterans Leasing Act of 2015 will restore the 
ability of the West L.A. VA Campus to enter into enhanced use leases 
with community and state partners, which will help reinforce and 
support the effort to end veteran homelessness in an area greatly 
affected by the issue.
    As a strong supporter of VA accountability and oversight, IAVA 
understands the original need to remove this authority, but believes 
under the leadership of Secretary McDonald and the oversight provided 
in this legislation, the West L.A. campus is poised to create a strong 
community for veterans in need of support. It is time the VA utilize 
this space and support from the community for its original purpose.
    That support being stated, IAVA does encourage the Members of this 
Committee to work closely with the VA to ensure this legislation is 
supportive of and in congruence with the upcoming VA Master Plan set to 
be released in the near future. It is imperative that Congress and the 
VA work together to address this issue and ensure there are no 
competing directives; a veteran-centric model of care and services must 
continue to be the priority.
    At IAVA, we believe our members, and all veterans, deserve the very 
best our Nation can offer when it comes to fulfilling the promises made 
to them upon entry into the military. There is no doubt every Member of 
this Committee has the best interests of our veterans in mind when 
drafting legislation. But we do hope you take into consideration and 
implement what we, and our fellow veteran service organizations, have 
had to say on these pieces of legislation today.

    Thank you for your time and attention. IAVA is happy to answer any 
questions you may have.

    Chairman Isakson. Thank you.
    Mr. Celli?

  STATEMENT OF LOUIS CELLI, JR., DIRECTOR, NATIONAL VETERANS 
    AFFAIRS AND REHABILITATION DIVISION, THE AMERICAN LEGION

    Mr. Celli. Chairman Isakson, Ranking Member Blumenthal, and 
distinguished Members of this Committee, on behalf of our 
National Commander, Dale Barnett, and the over 2 million 
members of The American Legion, we thank you for this 
opportunity to testify regarding The American Legion's 
positions on legislation pending before this Committee, and we 
appreciate the Committee's focus on these critical issues that 
will have a direct effect on veterans and their families.
    It is a rare and gratifying experience for The American 
Legion when we can testify that we stand behind and support 
every bill being offered for consideration during a hearing, 
and The American Legion would like to take this opportunity to 
thank and congratulate this Committee and especially the 
leadership here today for their excellent bipartisan efforts on 
behalf of the Nation's veterans who have been numbed by the 
constant and ongoing drone of negative press regarding their 
Department of Veterans Affairs.
    The most comprehensive bill being considered today is 
S. 1676, which broadens the ability of VA to fill its ranks 
with qualified medical staff while attempting to compensate for 
income disparities suffered by certain geographical areas. 
While The American Legion supports this proposed legislation, 
we take a moment to recognize some of the non-monetary benefits 
of serving our veteran community while employed by VA: set 
schedules, defined hours, protection from malpractice claims, a 
vast network of resources, cutting-edge research opportunities, 
and the personal fulfillment of noble service, just to name a 
few.
    No one at this witness table or sitting at that dais is 
here because we were offered maximum earning potential. So, 
while The American Legion certainly supports competitive pay 
for all VA employees, we are also mindful of the need to make 
VA employment a more attractive employment option through non-
monetary incentives. While money is going to be helpful, the 
best people to serve veterans are the ones that are motivated 
by an internal code and ethos. We cannot ignore financial 
reward, but we should not make that our primary recruitment 
tool either.
    S. 1745 addresses a critical need at the Court of Veterans 
Appeals. The attempt to clear the claims backlog has grown to a 
fever pitch, and the backlog of claims appeals has grown to 
unprecedented levels. Ensuring that the Court remains fully 
staffed with law judges could not be more important than it is 
today, and with the transitioning administration set to 
coincide with several projected retirements at the Court, the 
time to ensure veterans are not suffering needlessly due to a 
crippled court is now.
    A little over a year from now, The American Legion, 
together with our sister VSOs, will host an inaugural ball 
honoring the 78 living recipients and the 3,500 heroes who are 
no longer with us who have earned the Nation's highest military 
award, the Medal of Honor. At that event, it will be an honor 
for us to let them know that this Committee supported adjusting 
their monthly compensation to a more realistic value, something 
that has not been done in over 10 years. And while a handful of 
them currently live in California, they will also be interested 
to hear an update about the West Los Angeles campus.
    I was particularly encouraged, Chairman, to hear your 
comments regarding the template that you look forward to 
hearing about to see if we can generate revenue in other VA 
facilities across the Nation. The American Legion has been 
protesting the misuse of the West Los Angeles Campus VA medical 
center land use since 1983, and we applaud VA's efforts to work 
with litigants to come to an agreement that benefits veterans 
while honoring the original deed set forth by the Jones and 
Baker families in 1888.
    While we absolutely support moving forward on legislation 
that establishes limited future leasing that only benefits Los 
Angeles area veterans, we remain angered over the lack of 
accountability of revenue that was lost and remains unaccounted 
for over the last several years through the illegal leasing 
practices employed by VA. Millions of dollars remain 
unaccounted for, and the employees responsible continue to 
retire and move on before answering for the missing money that 
was supposed to support veterans in Los Angeles. When The 
American Legion asked VA officials for an accounting of those 
funds, we were repeatedly told, ``We will get back to you.'' We 
need accountability, and we need it now.
    Finally, The American Legion notices that there is no 
advisory committee involved in this process that includes any 
veterans service organizations. We ask you, How will the 
veteran's voice be heard if not so much is being asked?
    Thank you.
    [The prepared statement of Mr. Celli follows:]
  Prepared Statement of Louis Celli, Jr., Director, National Veterans 
         Affairs & Rehabilitation Division, The American Legion
    Chairman Isakson, Ranking Member Blumenthal, and distinguished 
Members of the Committee: On behalf of our National Commander, Dale 
Barnett, and the over 2 million members of The American Legion, we 
thank you for this opportunity to testify regarding The American 
Legion's positions on pending legislation before this Committee. We 
appreciate the Committee focusing on these critical issues that will 
affect veterans and their families.
      s. 717: community provider readiness recognition act of 2015
To designate certain non-Department mental health care providers who 
treat members of the Armed Forces and veterans as providers who have 
particular knowledge relating to the provision of mental health care to 
members of the Armed Forces and veterans, and for other purposes.
    This bill would designate certain non-Department mental health care 
providers who treat members of the Armed Forces and veterans as 
providers who have particular knowledge relating to the provision of 
mental health care to members of the Armed Forces and veterans. The 
American Legion believes by establishing a registry of Non-VA Mental 
Health Care providers who have been designated by the Department of 
Veterans Affairs (VA) or Department of Defense (DOD) to understand VA/
DOD culture is beneficial to the veteran and their family. This bill 
would ensure there are designated non-VA/DOD mental health providers 
that are readily available to treat veterans and help to reduce mental 
health access wait times within the VA Healthcare system.
    The American Legion supports S. 717.
 s. 1676: delivering opportunities for care and services for veterans 
                              act of 2015
To increase the number of graduate medical education positions treating 
veterans, to improve the compensation of health care providers, medical 
directors, and directors of Veterans Integrated Service Networks of the 
Department of Veterans Affairs, and for other purposes.
    This bill would give the VA increased tools and the flexibility to 
effectively and efficiently recruit and retain qualified healthcare 
professionals to practice and provide health care services to veterans 
living in rural and highly rural areas across the country.
    Section 101: Disregard of resident slots that include VA training 
against the Medicare graduate medical education limitations
    This section would ensure that up to 24 Graduate Medical Education 
(GME) residency slots within VA would not count toward the current cap 
under Section 301(b)(2) of the Veterans Access, Choice, and 
Accountability Act of 2014.
    Section 102: Extension of period for increase in graduate medical 
education residency positions at medical facilities of the Department 
of Veterans Affairs
    Section 301 of the Veterans Access, Choice, and Accountability Act 
of 2014 authorizes the VA to allocate 1,500 additional residency 
positions over the next five years. This section would increase the 
timeframe for residency positions within the VA healthcare system from 
5 years to 10 years.
    Section 103: Pilot program on graduate medical education residency 
programs in behavioral medicine in underserved areas
    This section authorizes VA, Indian Health Services (IHS), and the 
Department of Health and Human Services (DHHS) to develop a six-year 
pilot program to create no less than three behavioral health graduate 
medical residency programs to be located in underserved, rural and/or 
highly rural areas of the country.
    Section 104: Inclusion of mental health professionals in education 
and training program for health personnel of the Department of Veterans 
Affairs
    This section in accordance with Title 38, United States Code 
(U.S.C.) section 7302(a)(1) would include the education and training of 
marriage and family therapists (MFTs) and licensed professional mental 
health counselors (LPMHCs) as well as including these professions in 
the VA's recruitment programs.
    The American Legion supports the inclusion of licensed professional 
mental health counselors (LPMHCs) and marriage and family therapists 
(MFTs) as funded associated health trainees through the Department of 
Veterans Affairs (VA) trainee support programs.\1\
---------------------------------------------------------------------------
    \1\ American Legion Resolution No. 283: Licensed Professional 
Mental Health Counselors and Marriage and Family Therapists: Aug 2014
---------------------------------------------------------------------------
    Section 105: Expansion of qualifications for licensed mental health 
counselors of the Department of Veterans Affairs to include doctoral 
degrees
    Title 38 U.S.C. section 7402(b)(11)(A) states that if a Licensed 
Professional Mental Health Counselor is to eligible to be appointed to 
a licensed professional mental health counselor position the individual 
must have a masters degree in mental health counseling or a related 
field from a college or university that is approved by the Secretary. 
This section of the bill calls for individuals to have a doctoral 
degree in the related mental health fields.
    Section 201: Requirement that physician assistants employed by the 
Department of Veterans Affairs receive competitive pay
    This section would amend Title 38, U.S.C. section 7451(a) (2) by 
inserting the name ``Physician Assistant'' in sections (b) and (c) 
respectively. This part of the bill would allow Physicians Assistants 
to be included into the Nurse Locality Pay System so that the Veterans 
Health Administration (VHA) can stay competitive with the local 
markets.
    The American Legion supports legislation addressing the recruitment 
and retention challenges that the VA has regarding pay disparities 
among physicians and medical specialists who are providing direct 
health care to our Nation's veterans.\2\
---------------------------------------------------------------------------
    \2\ American Legion Resolution No. 101: Department of Veterans 
Affairs Recruitment and Retention: Sept 2015
---------------------------------------------------------------------------
    Section 202: Modification of education debt reduction program of 
Department of Veterans Affairs to require a certain amount to be spent 
in rural and highly rural areas.
    This section would amend Title 38, U.S.C. section 7681 by inserting 
a new subsection (c) to include that 30 percent of the debt reduction 
allocated under the Education Debt Reduction Program each year shall be 
paid to individuals who practice in a rural or highly area, where the 
VA struggles to effectively recruit qualified mental health 
professionals.
    Section 203: Report on medical workforce of the Department of 
Veterans Affairs
    This section requires the Secretary of Veterans Affairs to submit a 
medical workforce report to the Senate and House Veterans' Affairs 
Committees. This report would provide the Committees an assessment of 
how the VA is addressing medical workforce shortages to include the 
following:

    <bullet> The recruitment and integration of licensed professional 
mental health counselors and marriage and family therapists;
    <bullet> To determine if VA is utilizing the education debt 
reduction program;
    <bullet> To understand how VA is addressing barriers in delivering 
telemedicine; and
    <bullet> For the Veterans Health Administration to provide an 
assessment of succession plans regarding vacancies across the 
Department.

    Section 301: Establishment of positions of Directors of Veterans 
Integrated Service
    Networks in Office of Under Secretary for Health of Department of 
Veterans Affairs and modification of qualifications for Medical 
Directors
    This section would amend Title 38, U.S.C. section 7306(a)(4), by 
inserting ``and Directors of Veterans Integrated Service Networks'' 
after ``Such Medical Directors;'' and by striking ``, who shall be 
either a qualified doctor of dental surgery or dental medicine.''
    Section 302: Pay for Medical Directors and Directors of Veterans 
Integrated Service Networks
    This section would provide the Secretary of Veterans Affairs the 
flexibility within a new compensation system to provide VA Veterans 
Integrated Service Network and Medical Center Directors the ability to 
determine market pay and to address the pay disparities between VHA and 
the private sector.
    Section 401: Pilot program on providing nurse advice line for 
veterans in rural and highly rural areas.
    This section of the bill authorizes that the Secretary of Veterans 
Affairs conduct a two-year pilot program to assess the feasibility of 
implementing a nurse advice line to address questions veterans living 
in rural and/or highly rural areas of the country have regarding their 
health care, availability of benefits, and appointment and cancellation 
services through an appointment clerk.
    The American Legion urges the VA Office of Rural Health (ORH) to 
ensure Rural Health Resource Centers provide services to rural veterans 
from surveys, national hotlines and connecting veterans living in rural 
communities with providers.\3\
---------------------------------------------------------------------------
    \3\ American Legion Resolution No. 37: Department of Veterans 
Affairs Rural Healthcare Program: Aug 2014
---------------------------------------------------------------------------
Summary:

    This legislation is broad in scope, with many helpful sections that 
have the potential to improve the health care veterans receive from the 
VHA. In particular, improvements to mental health counseling, 
competitive salaries for medical professionals, and improvements to 
rural health care options all address problem areas for VHA and will be 
improved by the passage of this legislation.
    The American Legion supports S. 1676
         s. 1754: veterans court of appeals support act of 2015
To amend title 38, United States Code, to make permanent the temporary 
increase in number of judges presiding over the United States Court of 
Appeals for Veterans Claims, and for other purposes.
    The Court is authorized seven permanent, active Judges, and two 
additional Judges as part of a past temporary expansion provision. Over 
the next two years a sequence of retirements risks resulting in the 
Court falling to just five judges right when a new administration and 
Congress have a thousand other nominations to worry about. Past history 
tells us that it will take at least two years before anyone notices the 
Court is drowning. With the Board growing and its output going up to 
levels not seen since the Court was created, the CAVC will be in big 
trouble if allowed to fall to five judges for multiple years. 
Therefore, this needs to be addressed this year.
    The American Legion has a long history of supporting the Court and 
it would be a great disservice to veterans and the Court to not address 
this now.
    The American Legion supports S. 1754.
            s. 1885: veterans housing stability act of 2015
To amend title 38, United States Code, to improve the provision of 
assistance and benefits to veterans who are homeless, at risk of 
becoming homeless, or occupying temporary housing, and for other 
purposes.
    This bill would modernize and strengthen existing Department of 
Veterans Affairs' housing programs for homeless and at-risk veterans. 
Currently, VA reports there are approximately 50,000 homeless veterans, 
representing 12% of America's adult homeless population. As these 
numbers have declined and as progress is being made to end veterans' 
homelessness, it has become clear that insufficient availability of 
affordable permanent housing is an obstacle to fully achieving this 
goal. This legislation aims to increase veteran access to permanent 
housing options by encouraging landlords to rent to veterans, providing 
grants for organizations that support formerly homeless veterans, and 
modifying a VA program that sells homes from VA's foreclosure inventory 
at a discount to nonprofit agencies.
    This bill would also expand the definition of ``homeless veteran'' 
to provide additional benefits to veterans in need by including a 
veteran or veteran's family fleeing domestic or dating violence, sexual 
assault, stalking, or other dangerous or life-threatening conditions in 
their current housing situation. Additionally, it would also codify the 
VA's National Center on Homelessness to guarantee its continued role in 
researching the most cost-effective approaches to ending veteran 
homelessness and disseminating them to the field.
    In conclusion, The American Legion believes that S. 1885 would 
dramatically help end and prevent veteran homelessness. We strongly 
believe that all programs to assist homeless veterans must focus on 
helping them reach their highest level of self-management and this bill 
helps in accomplishing that ultimate goal.
    The American Legion supports S. 1885.
       s. 2013: los angeles homeless veterans leasing act of 2015
To authorize the Secretary of Veterans Affairs to enter into certain 
leases at the Department of Veterans Affairs West Los Angeles Campus in 
Los Angeles, California, and for other purposes.
    This bill would allow veterans who are currently living on the 
streets to relocate to a more secure space on the campus of the West 
Los Angeles Healthcare System for the purpose of receiving housing, 
health care, education, family support, vocational training, and other 
needed services.
    For nearly 80 years, the VA West Los Angeles Campus has been 
providing disabled veterans a place to live and receive needed 
services. For over 35 years, The American Legion has been actively 
protesting the Department of Veterans Affairs misuse of the property. 
Since that time the VA has been leasing the land to private businesses 
in the area directly contrary to the explicitly stated original intent 
when the land was donated by Senator John P. Jones and a prominent Los 
Angeles family intending to serve the homeless veteran community in Los 
Angeles.\4\
---------------------------------------------------------------------------
    \4\ HVAC O&I Hearing: An Examination of Waste and Abuse Associated 
with VA's Management of Land-Use Agreements: Feb 2015
---------------------------------------------------------------------------
    While The American Legion supports S. 2013, we want to ensure that 
the revenues generated by these leases are benefiting the veteran 
community, as well as enhancing the West Los Angeles VA facility 
itself. We also want those revenues well documented and tracked and 
continue to urge VA to report what had happened to the original funds 
as The American Legion asked earlier this year. VA has continued to 
fail to provide answers regarding accounting of funds collected from 
commercial tenants of the West Los Angeles VA facility when the 
organization violated land-use agreements. To date, the money collected 
in exchange for use of campus assets has not been accounted for.
    The American Legion opposes any Enhanced-Used-Lease that does not 
specifically provide any obvious and permanent benefits, resources or 
services to the veterans' community.\5\ This legislation can provide 
tangible benefits to the veterans in the West Los Angeles area, but 
there must be a complete and transparent accounting of the activities 
on the property, past and present, to restore trust in the veterans' 
community.
---------------------------------------------------------------------------
    \5\ Resolution No. 154: Department of Veterans Affairs Enhanced-
Used-Leasing: Aug 2014
---------------------------------------------------------------------------
    The American Legion supports S. 2013.
                                s. 2022
To amend title 38, United States Code, to increase the amount of 
special pension for Medal of Honor recipients, and for other purposes.
    The American Legion enthusiastically supports an increase in the 
special pension assigned to Medal of Honor recipients. For the 78 
living recipients \6\ of this Nation's highest military honor, an 
increase in the monthly pension based upon heroic acts in the face of 
nearly insurmountable challenges is a small token of appreciation and 
gratitude for their sacrifices. As the Nation's largest wartime 
veterans service organization, The American Legion fully appreciates 
the service of those awarded the Congressional Medal of Honor and 
supports increasing their monthly pension to $3,000.
---------------------------------------------------------------------------
    \6\ http://www.cmohs.org/medal-statistics.php
---------------------------------------------------------------------------
    The American Legion supports S. 2022.
                               conclusion
    As always, The American Legion thanks this Committee for the 
opportunity to explain the position of the over 2 million veteran 
members of this organization. For additional information regarding this 
testimony, please contact Mr. Warren J. Goldstein at The American 
Legion's Legislative Division at (202) 861-2700 or 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d0a7b7bfbcb4a3a4b5b9be90bcb5b7b9bfbefebfa2b7fe">[email&#160;protected]</a>

    Chairman Isakson. Thank you, Mr. Celli.
    Mr. Harig-Blaine?

STATEMENT OF ELISHA HARIG-BLAINE, PRINCIPAL HOUSING ASSOCIATE, 
    (VETERANS AND SPECIAL NEEDS), NATIONAL LEAGUE OF CITIES

    Mr. Harig-Blaine. Thank you, Mr. Chairman. On behalf of the 
more than 19,000 cities, villages, and towns represented by the 
National League of Cities (NLC), I thank you and the Committee 
for the opportunity to provide testimony this afternoon.
    As required by law, I would like to disclose that I am 
currently serving as a member of the VA's Advisory Committee on 
Homeless Veterans.
    NLC is dedicated to helping city leaders build better 
communities. We serve as a resource for municipalities as well 
as 49 State municipal leagues on a range of issues. Our work on 
veterans' issues has been grounded in the areas of housing and 
community development.
    We are the lead partner with the Administration for the 
Mayors Challenge to End Veteran Homelessness, and to date, more 
than 800 leaders have accepted this challenge, including 628 
mayors, 9 Governors, and 165 county and city officials. In 
addition, our program work supports national technical 
assistance initiatives that are accelerating local efforts to 
end veteran homelessness.
    Given our organizational focus on veteran housing and 
homelessness, my testimony will remain concentrated on S. 1885 
and S. 2013, but we welcome the opportunity to support the 
Committee and its staff regarding all legislation under review.
    S. 1885 makes many needed amendments that will improve how 
VA can and should serve homeless veterans and their families, 
but we believe there are several opportunities to further 
enhance these proposals.
    Sections 3 and 4 of the bill propose two new programs and 
require VA to issue reports analyzing their effectiveness. For 
the report analyzing the effectiveness of a program providing 
intensive case management services to veterans, we encourage 
the VA also to be required to include costs that are incurred 
beyond the Department alone.
    We encourage the collection of information regarding costs 
that are incurred by other entities including cities, counties, 
and States, as well as costs that are not related to the 
provision of health care and benefits. For example, costs 
associated by the interactions veterans have with the public 
safety, judicial, and penal systems, while not incurred by the 
VA, should be measured to allow for a more robust cost-benefit 
analysis of the intensive case management intervention services 
that the Department would provide as part of this program.
    By documenting the costs incurred by entities outside of 
VA, the report can support municipal leaders in their efforts 
to ensure that limited local resources are used in the most 
cost-effective manner to end veteran homelessness.
    For the report analyzing the success of awarding grants to 
transitional housing providers to incentivize the conversion of 
facilities into permanent housing, we encourage the review and 
analysis of this program to include the depersonalized 
information regarding mental health diagnoses and histories of 
substance abuse. The collection of this information can help 
develop and/or further our understanding about the impact that 
mental health and substance abuse plays in the retention of 
housing.
    In regards to the legislation's direction that HUD and VA 
collaborate with outside partners to improve outreach to 
landlords, we recommend that VA and HUD be required to 
separately, but not independently, provide a report to both the 
House Committee on Veterans' Affairs and this Committee on how 
they would use this within their respective organizational 
structures and with key national partners.
    Finally, in regards to the establishment of the National 
Center on Homelessness among Veterans, NLC has seen the 
tremendous impact that the National Center has played in 
advancing local efforts to end veteran homelessness. As cities 
across the country begin to see what the end of veteran 
homelessness looks like, they must be able to work with Federal 
partners and ensure the proper resources are in place to keep 
veteran homelessness rare, brief, and non-recurring. The 
National Center's work allows this to happen, and we support 
the bill's efforts to formally establish the center. 
Furthermore, we urge that the center be permanently authorized 
as quickly as possible.
    In regards to S. 2013, NLC strongly urges the Committee to 
advance this bill and work closely with your colleagues in the 
House and senate to have the legislation passed as soon as 
possible. As the Committee is aware, the support for this bill 
has come from the L.A. County Board of Supervisors and Mayor 
Eric Garcetti. In addition, L.A. Councilmembers Mike Bonin and 
Bob Blumenfield have written letters of support, which we have 
attached to our written testimony. Councilmember Bonin has also 
filed a resolution in support of this bill for consideration 
and approval by the full city council. A copy of the resolution 
is attached with our testimony, and it is expected the 
resolution will pass when voted upon tomorrow.
    Mr. Chairman, I again express the National League's 
appreciation for the opportunity to speak before the Committee 
today, and I welcome the opportunity to answer any questions.
    [The prepared statement of Mr. Harig-Blaine follows:]
   Prepared Statement of Mr. Elisha Harig-Blaine, Principal Housing 
    Associate (Veterans & Special Needs), City Solutions & Applied 
                  Research, National League of Cities
             s. 1885, veteran housing stability act of 2015
    In December 2013, Phoenix, AZ became the first city in the United 
States to end chronic veteran homelessness. When announcing this 
milestone, Phoenix Mayor Greg Stanton said, ``The strategies that we're 
using to end chronic homelessness among veterans are the exact same 
strategies that we're going to use to end chronic homelessness among 
the broader population. This model--doing right by our veterans--is 
exactly how we're going to do right by the larger population.''
    Since then, cities such as New Orleans; Houston; Binghamton, NY; 
Pocatello, ID; Las Cruces, NM; Mobile, AL; and Troy, NY have 
illustrated what the end of veteran homelessness looks like.
    While the progress on veteran homelessness is unprecedented, 
improvements can still be made and S. 1885 is an acknowledgement of 
this reality. As discussed by Senator Blumenthal during his remarks 
while introducing this legislation, S. 1885 seeks to modernize housing 
programs provided by the U.S. Department of Veterans Affairs (VA), to 
ensure they are appropriately meeting the needs of homeless veterans 
and their families.
    S. 1885 makes many needed amendments that will improve how VA can 
and should serve homeless veterans and their families, but we believe 
there are several opportunities to further enhance these proposals.
    In Section 3, ``Program on Provisions of Intensive Case Management 
Interventions to Homeless Veterans Who Receive the Most Health Care 
From the Department of Veterans Affairs,'' S. 1885 would require VA to 
pilot intensive case management services in no less than six locations. 
The proposed legislation requires VA to issue a report analyzing the 
effectiveness of this program no later than December 1, 2018.
    In delineating the content of this proposed report, S. 1885 
requires VA to provide ``An estimate of the costs the Department would 
have incurred for the provision of health care and associated services 
to covered veterans (as described in subsection (b) of section 2067 of 
such title, as added by subsection (a)(1)) but for the provision of 
intensive case management interventions under the program, 
disaggregated by provision of intensive case management interventions 
in locations described in subparagraphs (A) and (B) of subsection (c) 
of such section.''
    NLC encourages the authors and co-sponsors of this proposed 
legislation to expand the requirements of VA in this section of the 
report to include costs beyond those incurred by the VA alone but for 
the provision of intensive case management interventions.
    NLC encourages the collection of information regarding the costs of 
providing health care and associated services to veterans that are 
incurred by other entities including cities, counties and states, as 
well as costs that are not related to the provision of health care and 
benefits.
    For example, costs associated by the interactions covered veterans 
have with the public safety, judicial and penal systems, while not 
incurred by the VA, should be measured to allow for a more robust cost-
benefit analysis of the intensive case management intervention services 
that VA would provide as part of this program.
    By documenting the costs incurred by entities outside of VA, the 
report required by S. 1885 can support municipal leaders in their 
efforts to ensure that limited local resources are used in the most 
cost-effective manner to end veteran homelessness.
    In Section 4, ``Program to Improve Retention of Housing by Formerly 
Homeless Veterans and Veterans at Risk of Becoming Homeless,'' S. 1885 
would give grants to providers who have successfully housed veterans in 
transitional housing programs to incentivize these organizations to 
convert facilities into locations that provide permanent housing.
    To analyze the impact of this program, S. 1885 requires a report be 
submitted to the Committee's on Veterans' Affairs in both the House and 
Senate no later than June 1, 2019.
    S. 1885 requires this report to review the proposed program using 
four overall assessment areas. NLC encourages a broadening of the 
information sought within each of these areas.
    NLC encourages the review and analysis of this program to also 
capture de-personalized information regarding any mental health 
diagnoses of veterans, as well as any assessment regarding their 
histories of substance use and/or abuse. In collecting this 
information, it is hoped that a more accurate understanding can be 
developed about the impact mental health and substance abuse plays in 
the retention of housing.
    In Section 6, ``Outreach Relating to Increasing the Amount of 
Housing Available to Veterans,'' S. 1885 directs the Secretaries of VA 
and the U.S. Department of Housing and Urban Development (HUD) to 
collaborate with numerous entities in an effort to increase the number 
of housing units identified and committed for housing homeless 
veterans.
    The recruitment of landlords to join collaborative community 
efforts to end veteran homelessness is both vital and challenging. 
Thanks to the Mayors Challenge to End Veteran Homelessness, community 
stakeholders are increasingly partnering with committed local leaders 
to use their platforms in order to raise public awareness about the 
need for landlords to be more actively involved in ending veteran 
homelessness. Successful landlord recruitment events have occurred in 
cities such as Los Angeles, Seattle, Chicago and Dallas. NLC is 
currently working with elected officials and community partners in 
Tucson, Charleston and Omaha to recruit landlords.
    NLC recommends that S. 1885 require VA and HUD to separately, but 
not independently, provide a report to both the House Committee on 
Veterans' Affairs and the Senate Veterans' Affairs Committee on how 
they would execute this within their respective organizational 
structures and with key national partners.
    In Section 7, ``Establishment of National Center on Homelessness 
Among Veterans,'' S. 1885 directs the Secretary of VA to establish and 
operate a center which carries out multiple functions, including the 
integration of ``evidence-based and best practices, policies, and 
programs into programs of the Department for homeless veterans and 
veterans at risk of homelessness and to ensure that the staff of the 
Department and community partners can implement such practices, 
policies, and programs.''
    NLC draws the Committee's attention to the latter portion of this 
direction.
    As cities across the country begin to see what the end of veteran 
homelessness looks like, their ability to ensure this tragedy never 
returns becomes paramount. For veteran homelessness to be kept rare, 
brief and non-recurring, cities must be able to work with Federal 
partners and ensure the proper resources are in place. The National 
Center on Homelessness Among Veterans' work to aggregate data helps 
Federal and local officials make decisions about resource allocations 
allowing all stakeholders to know they can maintain their progress.
    To allow the National Center to do this critical work, among its 
other activities, NLC urges the Committee to work with Senate 
colleagues and provide permanent authorization for the center as 
quickly as possible.
       s. 2013, los angeles homeless veterans leasing act of 2015
    In January 2015, VA resolved a long-standing conflict with numerous 
community partners in the Los Angeles area regarding the use of the 
West Los Angeles Campus.
    To ensure and support the execution of the agreement VA entered 
into, Senators Feinstein and Boxer joined Representative Lieu in 
sponsoring S. 2013 and filed a letter with the Committee in August.
    Support for S. 2013 has come from the Los Angeles County Board of 
Supervisors, Mayor Eric Garcetti, and Los Angeles Councilmembers Mike 
Bonin and Bob Blumenfield have also written letters of support, which 
NLC attaches to this testimony (see NLC testimony appendix A and B).
    In addition, Councilmember Bonin has filed a resolution in support 
of S. 2013 for consideration and approval by the full city council. A 
copy of the resolution is attached with our testimony and it is 
expected the resolution will pass when voted upon on October 7 (see NLC 
testimony appendix C).
    Given the high concentration of homeless veterans in Los Angeles 
and the report from earlier this year that the number of homeless 
veterans in the city has increased 6% since last year, NLC strongly 
urges the Committee to advance this bill and work closely with 
colleagues in the House and Senate to have this legislation passed as 
soon as possible.
                                 ______
                                 
                        Attachments: Appendix A
                        
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                               Appendix B
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                               Appendix C
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Chairman Isakson. Thank you very much.
    Mr. Norris?

    STATEMENT OF DAVID B. NORRIS, NATIONAL LEGISLATIVE VICE-
CHAIRMAN, DEPARTMENT OF CALIFORNIA, VETERANS OF FOREIGN WARS OF 
                       THE UNITED STATES

    Mr. Norris. I would like to start off this afternoon by 
thanking Committee Chairman Johnny Isakson and Ranking Member 
Richard Blumenthal for allowing me the opportunity to testify 
on S. 2013.
    I would also like to thank Senator Diane Feinstein and 
Senator Barbara Boxer for sponsoring this bill.
    I am here today along with Nick Guest. He is our national 
chaplain and the Veterans of Foreign Wars (VFW) State of 
California adjutant/quartermaster. He was also a VSO in L.A., 
and he uses the L.A. VA facilities. We are here representing 
the over 88,000 VFW members from the State of California who 
are all in complete support of S. 2013, which lays the 
groundwork to return the West L.A. campus to where it belongs--
veterans.
    While this bill specifically addresses the property located 
in Los Angeles, the larger issue of VA doing the right thing is 
important to all veterans.
    I am also the Student Veterans of America Chairman for the 
Veterans of Foreign Wars in California, and as I travel to the 
different college campuses, I hear the same question from our 
young veterans as I have for years from our older veterans: 
What is VA doing to help those who really need help like our 
homeless or our veterans with PTSD? I do not have the answer, 
but I think this is a start.
    California has one of the largest homeless veterans 
populations in the country. A lot of these veterans are also 
female veterans. Some have problems with drug and alcohol 
addiction, while others are contemplating suicide.
    If housing could be approved under the Master Plan or be 
able to increase housing for these veterans and their families, 
we may be able to bring some of our veterans back into becoming 
productive citizens of our great country. They served for us. 
Now let us help serve them.
    We now have a new VA Director in Southern California, and 
now is the perfect time to put this property back on track. I 
am not here to throw anyone under the bus for things that 
happened in the past. We cannot change the past or the things 
that have happened in the past, and it is a waste of your time 
to sit and listen to the old stories.
    The West L.A. campus was deeded through a will to the 
Federal Government with the explicit intent for the property to 
be used to assist veterans. Over time, VA lost sight of that 
intent and leased out parts of this property--which is over 300 
acres--to private entities and has made little to no repairs or 
improvements for the veterans it was intended for. This bill 
returns this property to its veterans, and Congress should work 
quickly to pass this into law now.
    Along with us, the VFW, we are currently working with The 
American Legion, Purple Heart Association, Disabled American 
Veterans, and many other veterans service organizations to make 
sure things are done correctly as we move forward.
    Again, thank you for allowing me to testify for all the 
veterans in California and around the world. Stand with us 
today and help us move this important bill forward.
    Thank you.
    [The prepared statement of Mr. Norris follows:]
 Prepared Statement of David B. Norris, VFW National Legislative Vice-
  Chairman, Department of California, Veterans of Foreign Wars of the 
                             United States
    I would like to start off this afternoon by thanking Committee 
Chairman Johnny Isakson and Ranking Member Richard Blumenthal for 
allowing me the opportunity to testify on S. 2013.
    I would also like to take this time to thank Senator Diane 
Feinstein and Senator Barbara Boxer for sponsoring this bill.
    I am here today along with Nick Guest our National Chaplain and the 
Veterans of Foreign Wars California State Adjutant/Quartermaster. We 
are here representing the over 88,000 VFW members from the state of 
California who are in complete support of S. 2013, which lays the 
ground work to return the West LA campus to where it belongs--veterans.
    While this bill specifically addresses the property located in Los 
Angeles, the larger issue of VA doing the right thing is important to 
all veterans.
    I am also the Student Veterans of America Chairman for the VFW in 
California and as I travel to the different college campuses I hear the 
same question from our young veterans as I have for years from our 
older veterans--What is VA doing to help those who really need help 
like our homeless or our veterans with PTSD?
    California has one of the largest homeless veterans' populations in 
the country. A lot of these veterans are also female veterans. Some 
have problems with drug and alcohol addiction, while others are 
contemplating suicide.
    If housing could be approved under the Master Plan or be able to 
increase housing for these veterans and their families, we may be able 
to bring some of our veterans back into becoming productive citizens of 
our great country. They served for us, now let's help serve them.
    We now have a new VA Director in Southern California and now is the 
perfect time to put this property back on track. I am not here to throw 
anyone under the bus for things that have happened in the past. We 
cannot change those things and it is a waste of your time to sit and 
listen to old stories.
    The West LA campus was deeded through a will to the Federal 
Government with the explicit intent for the property to be used to 
assist veterans. Over time, VA lost sight of that intent and leased out 
parts of this property (which is over 300 acres) to private entities 
and has made little to no repairs or improvements for the veterans it 
was intended for. This bill returns this property to its veterans and 
Congress should work quickly to pass it into law.
    Along with us, the VFW, we are currently working with the American 
Legion, Purple Heart Association, DAV and many other veteran service 
organizations to make sure things are done correctly as we move 
forward.

    Again, thank you for allowing me to testify for all the veterans in 
California and around the world. Stand with us today and help us move 
this important bill forward.

    Chairman Isakson. Thank you, Mr. Norris. I want to commend 
all of you and your comments regarding West L.A. In particular, 
Mr. Celli, I think you made a great comment when you talked 
about being angry about how the funds and the proceeds of those 
leases have been handled. We really do not know how they have 
been handled, to tell you the truth. There has been a lack of 
coordination. As a guy who did real estate development for 33 
years, if you do not have a plan to execute or a goal to 
execute, you do not have an understanding of what assets that 
you have, you never can maximize your return. This is a very 
valuable piece of real estate that has kind of been used here 
and used there with no direct tracking of the money, so I 
commend you for your testimony.
    You, too, Mr. Norris. This is the time for us to get it 
right. I hope when the VA puts out their Master Plan, a 
proposed Master Plan, that both your organizations will 
comment, all of you will comment on that use, because we do 
need to get it right. It kind of reminds me of the Denver 
hospital. The Denver hospital got kicked down the road for 13 
years, the cost overruns, nobody ever had a plan. We finally 
got a plan together. Now we are going to finish it, but it is 
costing us a lot of money. I think it has cost and deprived 
veterans of a lot of benefits over the years by not having a 
Master Plan that we could follow.
    I also agree on the question on homelessness. I think it is 
an unbelievable opportunity to have some land that can be used 
to help veterans' homelessness in West Los Angeles and Los 
Angeles County, California, and I support that entirely. I 
think Senator Feinstein has done a good job of raising to the 
attention of the Senate this piece of legislation, and we will 
move forward. But we want your input and support, so when the 
VA publishes their recommended Master Plan, I hope each and 
every one of you will get your organizations to quickly and 
efficiently give us your feedback on those plans.
    I am hoping as Chairman of this Committee that this will be 
a template for how we deal with other surplus land the VA owns 
around the country today. We are sitting on a ham sandwich 
starving to death, in my opinion, by having a lot of vacant 
property that could be benefiting us that is not because we do 
not have a plan. It is time we had a plan to see that that 
revenue went to the benefit of our veterans.
    On the Court, going to nine judges, I understand we have 
eight judges now? The ninth one would be a Presidential 
appointee?
    The legislation proposes the authority to take it to nine. 
My question, I guess I will start with Ms. Augustine. I happen 
to understand the backlog, and I think it is an important need, 
but at some point in time in the future, if that is not the 
necessary number of judges that we need, should that be a 
floating cap or should that be a permanent cap in terms of the 
number of judges?
    Ms. Augustine. Mr. Chairman, there is currently a great 
need to address the significant backlog, and until that is 
addressed and focused, I think it is smart to make that a 
permanent increase and then reevaluate that need as it is no 
longer needed down the road. There will be a significant 
backlog for the foreseeable future, and that should be our 
focus.
    Chairman Isakson. I want to thank all of you for your 
testimony regarding Senator Graham's proposal on the Medal of 
Honor recipients. I happen to associate myself with the 
comments that each and every one of you made.
    One of the rules I have put in as Chairman of the Committee 
is that we do not do anything that we cannot pay for. We talk 
about billions of dollars and millions of dollars often. This 
is, as I understand it, a $16 million price tag to see to it 
that the Medal of Honor winners get enhanced compensation, 
which I happen to support as well. But if each and every one of 
you would give us any input on where you think we might take 
that money to pay it and offset the cost of that benefit, we 
would appreciate that very much.
    With that said, we will go to the Ranking Member, Senator 
Blumenthal.
    Senator Blumenthal. Thanks, Mr. Chairman.
    I think all this testimony has been enormously valuable, 
and I appreciate particularly, Mr. Norris, your mention of both 
homelessness and Post Traumatic Stress, PTS. In fact, the two 
are linked; are they not?
    Mr. Norris. Correct.
    Senator Blumenthal. Because somebody who is suffering from 
PTS is more likely to also suffer from addiction, homelessness, 
lack of employment, or a combination of factors that in effect 
result from the medical condition, often invisible, obviously, 
that is the source of it. I appreciate your comments on that 
issue.
    Ms. Augustine, I also thank you for your support of all 
those measures, the five--or six, I should say, that you 
mention. On the numbers of veterans--well, the number of judges 
on the U.S. Court of Appeals for Veterans Claims, you rightly 
mention the likelihood of a continuing large caseload there. In 
fact, the caseload has been rising, has it not?
    Ms. Augustine. To my knowledge, yes, it has been rising.
    Senator Blumenthal. That is in part the result of the VA 
doing better on disability claims at the first level because 
the more cases that are processed, the more likely there are to 
be appeals in higher numbers. Is that correct?
    Ms. Augustine. Yes, that is also what IAVA has supported in 
the past.
    Senator Blumenthal. The increase, in my view, really ought 
to be a permanent one. It is always possible to contract the 
Court, but that number should not be a temporary one, in my 
view.
    Let me ask you about the Community Provider Readiness 
Recognition Act, which would recognize providers in the 
community for mental health care services. There is such a 
desperate shortage. I support this measure. I have some 
questions about possibly endorsing the use of certain community 
mental health providers who may not have the same training as 
VA providers. Do you have a suggestion as to how we can 
possibly address that shortcoming?
    Ms. Augustine. Yes, sir. I think the best case to do here 
is to utilize the success of the Star Behavioral Health Program 
in DOD and replicate those same successes in the VA. It has 
been a successful program for veterans in rural areas and the 
National Guard, and I think it is time that we open up those 
same successes to veterans.
    Senator Blumenthal. Great. Great answer. With respect to 
the Veteran Housing Stability Act of 2015, I can see some 
people saying, well, we have already done so much on 
homelessness and housing. Do you have a response to them?
    Ms. Augustine. Yes, sir. Having spoken with your staff 
extensively about this bill, as I understand it, this bill is 
actually looking at the next stage of addressing veteran 
homelessness, not necessarily chronic homelessness or the 
immediate need for stable housing, but what is the next step. 
We applaud the long-term planning that this legislation focuses 
on and think that it is the correct thinking in looking at what 
needs to come next to prevent this same sort of epidemic from 
happening in the future.
    Senator Blumenthal. In fact, the goal here is to go beyond 
meeting the immediate, as you say, the urgent apparent need 
that may be on the streets right now, but to provide a more 
permanent solution, and that is the goal here, an equally 
difficult goal, but one that I think we have an obligation to 
solve.
    I thank every one of you for your testimony today. It has 
been, as I mentioned earlier, enormously valuable, and, again, 
thank you for your service to our country.
    Thank you, Mr. Chairman.
    Chairman Isakson. Senator Boozman.
    Senator Boozman. Thank you, Mr. Chairman.
    Mr. Celli, Ms. Augustine, the VA voiced opposition to 
S. 717 with concerns of legal, credentialing, and privacy 
issues. Tell me a little bit, have your organizations looked 
into this as far as what it would take as far as credentialing 
and this and that. Can you comment a little bit further about 
that particular bill?
    Mr. Celli. We have not specifically looked into the 
credentialing issue because we understand that VA does have a 
good credentialing program in place. However--and this bill is 
very comprehensive, as we discussed earlier on in the 
testimony. The American Legion knows that the current need is 
not being met.
    Senator Boozman. Right.
    Mr. Celli. We support any legislation that seeks to 
increase that need. We supported the Choice Act. We did support 
the Choice Act as a template to see where the VA needed some 
additional resources, and these are the types of pieces of 
legislation that are starting to address that and what was 
ferreted out by the Choice Act.
    Senator Boozman. Ms. Augustine.
    Ms. Augustine. I would reiterate that and include once 
again utilizing the success of the Star Behavioral Health 
Program as a model to implement this for veterans. It has been 
proven to be effective, and I think that we can replicate those 
successes easily for veterans.
    Senator Boozman. Very good. Ms. Augustine, tell me about--
in your testimony, you mention the progress that we have made 
in homelessness in the VA and that they have been working hard 
to do that and that we are moving in the right direction. The 
West L.A. plan of having a strong community for veterans' 
needs, which seems to be something that is very beneficial.
    Are there other areas of the country where you feel like 
the same plan would be effective?
    Ms. Augustine. I would be happy to provide your office with 
specific locations that our members have expressed concern. I 
do not have any in front of me today, but I would be happy to 
take it up with your office about things that our members are 
telling us.
    Senator Boozman. Thank you.
    The rest of you guys?
    Mr. Celli. If I may, Senator. Specifically in South Dakota, 
we are looking at some really great land out there. South 
Dakota is being downsized, and we think that there is an 
opportunity to have a Center of Excellence out there 
specifically for PTSD. I think that the VA needs to take a 
serious look at that.
    Senator Boozman. Very good. Well, thank you all so much for 
being here. We really do appreciate your advocacy and your hard 
work and all that you represent.
    Thank you, Mr. Chairman.
    Chairman Isakson. Thank you, Senator Boozman.
    Senator Tillis?
    Senator Tillis. Thank you, Mr. Chair. Thank you all for 
what you do.
    I want to go back--well, first off, I should have mentioned 
when I was talking about bills, I thank Ranking Member 
Blumenthal for 1885. I think it is a great idea, a great 
opportunity, the work on making sure that we have the 
partnerships with the right NGO's to provide the service is 
something I look forward to working with you on, and I 
appreciate your efforts.
    I wanted to go back to the judges and the backlog. Again, I 
may have found a way to actually weave the Camp Lejeune toxic 
substance subject into this hearing after all.
    Chairman Isakson. Surprise, surprise.
    [Laughter.]
    Senator Tillis. I promised you. Part of what I think we 
need to do, as long as we have the backlog that we do, then we 
need the judicial capacity to clear the backlog. It does raise 
a question about, to your knowledge, what kind of work has been 
done to try to reduce--get to the root causes of some of these 
appeals?
    For example, in the Lejeune instance right now, they have 
about an 87-percent decline rate. We are guessing it should 
probably be somewhere north of 50. I do not know the root 
causes of all the appeals, but do you all know of any 
particular areas where the experience rate that causes an 
appeal may raise questions about the criteria to begin with? I 
will go down the line and start with Ms. Augustine, if you have 
a comment.
    Ms. Augustine. As was mentioned earlier, as there has been 
an increase in the number of benefit claims submitted to the 
VA, there is naturally going to be an increase in the number of 
appeals submitted to the VA as well. I think Secretary McDonald 
has done a considerable amount of work in the past year to 
address some of the training, some of the dissemination of 
information issues that were seen earlier. I think that 
continuing on those education-minded fronts and continuing to 
train VA employees well, we will begin to see a decrease in the 
number of appeals. But until that time, the increase in appeals 
is going--or increase in benefit claims is going to have an 
increase in appeals.
    Mr. Celli. As we all know, claims are a complicated 
business and so are appeals. When the appeal--if the claim is 
remanded to the Appeals Management Center (AMC) and the work is 
not done that the law judge says needs to be done, it just goes 
back to the Board, and it gets into this hamster wheel. There 
has to be a much healthier relationship between the Board and 
the AMC, and I know there is some legislation right now that 
seeks to address that.
    With regard to making those positions permanent, I guess on 
the day where we see that there are nine law judges that do not 
have enough to do, then maybe we can consider reducing it then.
    Mr. Harig-Blaine. That has not been an issue area that we 
have focused on.
    Mr. Norris. I would like to refer this back to our 
Washington office to work with you on that. We have a 
representative here from our Washington office. Alex is back 
there, and maybe he can get with your staff and----
    Senator Tillis. Yes, I think--and this is not trying to 
find fault. I think I have developed a reputation for doing 
everything I can to work with the Department, so it is not 
necessarily faulting--I mean, they are doing what they are 
doing within the parameters that they have been given, but it 
is a question about do you go back and rethink it and either 
come up with an acceptable disposition that the veteran may 
accept and not seek an appeal, or find other circumstances 
where maybe they should have been granted their request for 
disability to begin with. It is more a matter of just looking 
at the processes and seeing if we are doing the best job we 
can.
    I also wanted to talk briefly--a couple of Committee 
hearings ago, we had the discussion about homelessness and the 
VA's goal to end veterans' homelessness or at least provide the 
capacity that we do not currently have.
    In your opinion, though, there is a very aggressive goal 
out there to end homelessness. Do you think current course and 
speed with the programs already in place, that we actually have 
the ability to meet the goal that the VA has set forth for 
ending homelessness or providing the capacity to support any 
homeless veteran in the United States?
    I may have to just go off script here for a minute. I 
cannot remember--Dr. Lynch, you may be able to help me remember 
the date--there is a specific date out there with the goal for 
being able to provide that capacity. Do you recall what that 
date was?
    Mr. Harig-Blaine. Senator, I could help you with that.
    Senator Tillis. Thank you.
    Mr. Harig-Blaine. The U.S. Interagency Council on 
Homelessness, which is the lead entity, they have set out the 
Opening Doors: Federal Strategic Plan for Ending Homelessness, 
and they have identified the end of this year as the----
    Senator Tillis. I find that unimaginable given the 
discussion we are having about West L.A. I worked--and we were 
fortunate to secure another homeless vets facility just north 
of Raleigh. I think it is great to set stretch goals, but in 
this particular case, when you look back at the population that 
is not served today into the calendar, it does not seem to make 
sense. It makes me wonder whether or not we are using our 
resources wisely to attain that goal, and that could be a 
subject of maybe a future Committee meeting.
    The last thing I will say is just on crisis intervention. 
It relates somewhat to Senator Blumenthal's bill. Over the 
weekend I am working on a situation that is actually not in my 
State. It just happened to stem out of a conversation I had 
with a special operator 100-percent disabled vet who himself--
he has his own issues, but he spends most of his days helping 
other vets, and he literally has someone living with him today 
because he called the crisis line, was explaining that he was 
in a very dangerous situation with his wife, he wanted to 
remove himself from that situation, and the person on the 
crisis line said that they could get back to him in 4 days. 
Anybody who knows anything about domestic violence knows it is 
in that moment, and we have to have the processes in place to 
deal with it in that moment. I am spending time this week with 
my staff to get to the bottom of it, but these sorts of 
situations are critically important for the veteran's safety, 
for the spouse's safety. It may just be an outlier, but I think 
it is something that we have to really look at. We are 
responding in a very timely basis, whether it is a suicide 
threat, whether it is a domestic violence threat. I do not know 
if we are using the wonderful resources we have at the VA in 
these sort of crisis situations to the fullest extent of their 
capabilities.
    Thank you, Mr. Chair.
    Mr. Celli. Mr. Chairman, I recognize that we are out of 
time. Could I add one thing?
    Chairman Isakson. Absolutely.
    Mr. Celli. One of the things that The American Legion is 
extremely concerned with is not only what is being called now 
``functional homelessness,'' but also there is a category of 
homeless veteran that is not being recognized at all, and that 
is the veterans that do not qualify for VA services, those with 
``bad paper.'' And the percentage of veterans that do not 
qualify for VA services is increasing as we lower the backlog 
or as we lower the homeless rate. So, we are looking at better 
than 10 percent of veterans that fall through a crack that will 
never be recognized until we step up and do something about 
that.
    Chairman Isakson. On the subject of veterans' homelessness, 
I want to commend the Committee, because in 7 days we took 
Nominee Michaud and took him from a markup to approval today to 
be Under Secretary of Labor for Veterans' Employment. Other 
than opioids, drugs, and pharmaceutical problems that our 
veterans have and PTSD and TBI, unemployment is a huge 
contributor to homelessness. I am going to talk to Secretary 
Perez, and Mr. Michaud has already assured both the Ranking 
Member and myself that his focus is going to be like a laser 
beam and immediate to see to it we get the employment programs 
together so our veterans have more and more opportunities for 
employment and jobs and less and less homelessness.
    We appreciate all your comments today. I appreciate all the 
members' comments today. We will leave the record open----
    Senator Blumenthal. Mr. Chairman, may I just make one 
comment in response to----
    Chairman Isakson. Senator Blumenthal.
    Senator Blumenthal. I am sorry to interrupt. I apologize.
    I want to just follow up on the comment you made, Mr. 
Celli, about veterans with ``bad paper.'' You may know that 
there was a lawsuit brought by the Yale Law School legal clinic 
on behalf of a Connecticut veteran who suffered from PTS, 
received a less than honorable discharge, and for two decades 
suffered that black mark. He became addicted, unemployed, and 
homeless. His name is Conley Monk.
    He brought a lawsuit against the Department of Defense. I 
joined in the lawsuit. I supported it. And then I reached out 
to then-Secretary of Defense Hagel, who, after some 
consideration, responded positively and revised the internal 
procedures to enable more veterans with less than honorable 
discharges--or dishonorable discharges, in other words, ``bad 
paper,''--to seek review by the Boards of Appeals within the 
Department of Defense. The procedure is complicated. It is 
needlessly fraught with red tape. It is part of that cycle that 
often afflicts veterans. We are talking about veterans of past 
wars--Vietnam. Conley Monk was a veteran of Vietnam. When he 
was in Vietnam and for more than a decade later, ``Post 
Traumatic Stress'' was not a term in our vocabulary, not a 
diagnosis in medical circles. Only in the 1980s did it become 
really recognized, long after Conley Monk was denied the very 
medical services that he needed to overcome the PTS. He was 
doubly a victim in the discharge that resulted from PTS, acting 
up, and then from the denial of health care services that would 
have helped him overcome that PTS.
    I want to thank you for recognizing this very, very 
important topic. Ms. Augustine has very correctly recognized 
the need for us to conduct some oversight on the Clay Hunt 
bill. I think there is a need for us to conduct some oversight 
on the change in policy that I believe with the best of intents 
Secretary Hagel implemented and his successors have committed 
to follow. I would respectfully suggest to the Chairman--and we 
will have a chance to talk about it--that both of these 
oversight hearings and inquiries are very much appropriate. I 
just want to commend the VSOs for their help and support in 
recognizing this issue and problem.
    Thank you.
    Chairman Isakson. We will leave the record open for 7 days 
for any revision, extension of remarks, or any additional 
comments anybody wants to submit to the Committee.
    There being no further business to come before the 
Committee, we stand adjourned.
    [Whereupon, at 4:14 p.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              


 Prepared Statement of Hon. Lawrence B. Hagel, Chief Judge, U.S. Court 
                     of Appeals for Veterans Claims
    Mr. Chairman and Distinguished Members of the Committee: Thank you 
for the opportunity to comment on S. 1754, a bill that would amend 38 
U.S.C. Sec. 7253(a), to make permanent the authorization for an 
increase in the number of judges on the U.S. Court of Appeals for 
Veterans Claims (Court), from seven to nine. Succinctly stated, the 
Court supports this legislation and urges its passage.
    The decision by Congress several years ago to expand the Court 
temporarily to nine judges came in response to a significant increase 
in the Court's caseload, and a perception that the rise was not simply 
a spike but in fact a trend. Effective December 31, 2009, authorization 
permitted the Court to grow to nine active judges, and we reached that 
full complement in December 2012. We were fortunate to operate with 
nine judges for almost three years until the retirement of one of our 
colleagues one month ago. With full staffing the Court has been able to 
conduct effective, efficient, and expeditious judicial review. Your 
support in providing the resources to handle our heavy caseload is very 
much appreciated.
    Under current law we will operate with eight judges until the next 
retirement, and then we revert to seven judges, our current permanent 
authorization. The reality is that two judges' terms expire within days 
of each other in December 2016, so absent legislation the Court will 
dip to six judges at that time. With the unpredictability of the 
judicial nomination and appointment process, and another retirement 
likely in 2017, there is a very real possibility that the Court will 
shrink to five judges just two years from now. Passage of S. 1754 would 
permit a judicial appointment now to bring us back up to nine judges, 
and would prevent the Court from dropping to a critically low number of 
judges in the near future.
    Since its creation in 1988, the Court has become one of the 
Nation's busiest Federal courts based on the numbers of appeals filed 
and decided per judge. Up until about ten years ago the Court received 
roughly 2,200 appeals annually. That number began to rise significantly 
starting in FY 2005, reaching over 4,700 appeals filed in FY 2009. 
Since that time, annual appeals filed have not fallen below 3,500 and 
although we are still tabulating FY 2015 numbers, we estimate that over 
4,400 appeals were filed. This is double the number of appeals filed 
annually during the Court's first 15 years from 1989 to 2004.
    For cases decided, the Court terminated in the neighborhood of 
4,400 appeals in FY 2015. That is in addition to acting on nearly 3,000 
applications for attorney fees, hundreds of petitions for extraordinary 
relief, and thousands of procedural motions. We continue to be one of 
the busiest national courts, but we are efficiently handling this 
formidable caseload. Generally speaking, appeals filed at the Court 
come from veterans who are dissatisfied with a decision of the Board of 
Veterans' Appeals (Board). Much emphasis and financial support has been 
placed toward increasing the numbers of personnel at the Department of 
Veterans Affairs, and toward improving claims processing times. Up from 
41,910 decisions in FY 2013, the Board issued 55,532 decisions in FY 
2014, and the Board estimates that it will decide at least the same 
number in FY 2015. Although it is difficult to predict with certainty 
what our caseload will be in the future, it seems likely, considering 
the number of claims filed annually with VA and the increased 
productivity by the Board, that the number of appeals filed at the 
Court will also rise further and stay high.
    Over the past several years the Court has striven to create 
efficiencies in how we conduct judicial review of veterans' appeals. We 
have adopted an electronic case filing and management system. We are 
constantly improving our pre-briefing mediation program to resolve 
cases earlier in the process, to hone the issues on appeal, and to 
stretch our judicial resources to the greatest extent possible. We have 
an active bar, and we engage frequently with our practitioners to 
discuss ways to further improve our process. Everyone involved in 
judicial review of veterans' appeals shares a common goal of wanting to 
honor our veterans and provide full, fair, and prompt decisions on 
their appeals. Authorization for nine active judges would be a 
significant factor in furthering that goal.

    In closing, on behalf of the Court, I express my appreciation for 
your past and continued support, and for the opportunity to provide 
this statement.
                                 ______
                                 
   Letter from Darrell G. Kirch, M.D., President and Chief Executive 
         Officer, The Association of American Medical Colleges
         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 ______
                                 
 Prepared Statement of Adrian M. Atizado, Deputy National Legislative 
                             Director, DAV
    Chairman Isakson, Ranking Member Blumenthal, and Members of the 
Committee: Thank you for inviting DAV (Disabled American Veterans) to 
submit testimony for the record of this legislative hearing, and to 
present our views on the bills under consideration. As you know, DAV is 
a non-profit veterans service organization comprised of nearly 1.3 
million wartime service-disabled veterans. DAV is dedicated to a single 
purpose: empowering veterans to lead high-quality lives with respect 
and dignity.
    s. 717--the community provider readiness recognition act of 2015
    If enacted this bill would require the Department of Defense (DOD) 
and Department of Veterans Affairs (VA) to designate certain non-
department mental health care providers, presumably in the community--
but who are familiar with the needs of active duty servicemembers and 
veterans--as providers who have particular knowledge relating to mental 
health care of such individuals.
    The bill would require the two departments to work together to 
establish criteria to determine eligibility of private practitioners to 
participate in treating these beneficiaries. The bill would specify the 
necessary eligibility criteria in broad, general terms, including 
familiarity with, and knowledge about, the military and veteran culture 
and experience, and of evidence-based treatments for mental health 
conditions prevalent in the active duty and veteran populations. 
Qualified candidates would receive a mental health provider 
``readiness'' designation from DOD and VA under the terms of this bill.
    The bill would require both DOD and VA to establish and maintain a 
registry available to the public of all providers who would be so 
designated. The bill would specify certain mental health professions, 
but would permit the two departments to broaden the groups of 
professions that would be eligible to participate.
    The bill is silent on whether either DOD or VA would engage these 
readiness-designated practitioners in any out-referral of authorized 
contract care, or whether designation of such providers would imply 
these individuals would gain some level of government preference in 
treating servicemembers and veterans in private facilities at DOD or VA 
expense.
    The prospect of a private network of mental health providers 
operating outside either system and providing mental health services to 
active duty servicemembers as well as to veterans presents the 
potential for fragmenting these individuals' DOD and VA direct care. 
Thus, the bill might be more effective if a new provision were added to 
require the departments to consider out-referrals to members of this 
designated group on a preferential basis in circumstances in which 
servicemembers and veterans are being referred by the two departments 
to outside mental health care. The sponsor may wish to consider the 
potential implications for servicemembers and veterans who receive 
direct, integrated care and services in DOD and VA facilities and make 
adjustments to the bill accordingly.
    DAV believes the best and latest expertise to provide military and 
veteran mental health services resides in DOD and VA, respectively. 
However, on the assumption that not every servicemember or veteran has 
ready access to DOD and VA direct care services for mental health, that 
some might be aided by the information the bill would require to be 
made public, and on the assumption that some individuals may not want 
to receive mental health services from direct DOD or VA sources, DAV 
would offer no objection to enactment of this bill. Nevertheless, we 
ask that our concerns be taken into consideration if the Committee 
intends to advance this bill.
    s. 1676--the delivering opportunities for care and services for 
                          veterans act of 2015
    This bill, in four titles, would increase the number of graduate 
medical education positions treating veterans, improve the compensation 
of health care providers, medical directors, and directors of Veterans 
Integrated Service Networks of the Department of Veterans Affairs, and 
establish new requirements to aid the care and services delivered to 
veterans in rural and remote areas.
    Section 101 of the bill would exempt VA from limiting additional 
appointments of medical and osteopathic residents when fulfilling the 
requirements of section 302(b) of Public Law 113-146. Existing law, in 
title 42, United States Code, imposes a ceiling on hospital residency 
positions for cost-reporting purposes in the Federal graduate medical 
education program (which reimburses residency costs from Federal 
funds). This bill would authorize hospitals to disregard and not take 
into account these limitations when additional residency positions are 
established in VA to fulfill the requirements of Public Law 113-146. 
The section would make technical changes to effect this policy 
exemption.
    Section 102 of this bill would extend for an additional five years 
a mandate from Public Law 113-146 for VA to add 1,500 new medical 
residency positions to its existing graduate medical education program, 
and also would extend for the same period VA's requirement to report 
periodic progress to Congress in increasing VA residency positions.
    Section 103 would establish a six-year pilot program of not less 
than three graduate medical education residency programs in behavioral 
medicine in underserved areas in the United States. Participating 
agencies would be VA, the Indian Health Service, and private and public 
hospital facilities that participate in the Medicare program. The bill 
would establish criteria for locating such residency programs, and 
would require an annual report to Congress to measure the progress of 
the pilot program, and any impediments encountered.
    Section 104 of this bill would require VA to include marriage and 
family therapists, and licensed professional mental health counselors, 
in its existing health personnel education programs. In including these 
two new categories of personnel, the bill would also require VA to 
apportion funds equally for each of the health occupations included in 
the existing program.
    DAV has not received a resolution from our membership on the 
specific purposes of this section; thus, DAV takes no formal position 
on the bill. Nevertheless, we are concerned that the bill would parse 
VA resources and require each occupation concerned in the personnel 
training program to receive an equal share of the resources to be spent 
overall. DAV believes the level of expenditures for each profession or 
technical field concerned should be determined by VA, not through an 
edict of law. A number of variables could come into play and 
potentially waste valuable resources if they were required to be 
obligated to one professional or technical field despite the 
requirements of the others. We recommend VA be afforded the flexibility 
to make these decisions to ensure resources are spent most effectively.
    We would also remind the Committee of DAV's and VA's prior 
testimonies dealing with the topic of marriage and family counselors 
and licensed mental health counselors, and their potential employment 
in VA. DAV has long agreed with VA's position that these individuals 
from these professions could be employed in the Department's mental 
health programs without further acts of Congress.
    Section 105 of this bill would also expand VA's hiring authority to 
include hiring mental health counselors who are educated at the 
doctoral level.
    Title III of this bill would increase compensation levels of 
certain health care executives in the Veterans Health Administration. 
DAV takes no formal position on these provisions.
    Title IV of the bill (section 401) would require VA to establish a 
two-year pilot program to determine the feasibility and advisability of 
implementing a ``nurse advice line'' in rural and highly rural areas 
with significant veteran populations. The functions of the advice line 
would include providing medical advice, appointment and cancellation 
services, and information on the availability of benefits. This bill 
would require a VA report on the results of the pilot program, with 
specific parameters.
    DAV has received Resolution No. 226 from our members at the most 
recent DAV National Convention, calling on Congress to improve VA 
health care services to rural and remote veterans. Therefore, we 
support Title IV of the bill.
       s. 1754--the veterans court of appeals support act of 2015
    This bill would permanently expand the number of judges authorized 
to preside over the United States Court of Appeals for Veterans Claims 
(CAVC) from seven judges to nine.
    The CAVC's caseload averages roughly 4,600 cases per year. As a 
result, the CAVC has had one of the highest, if not the highest, 
caseloads per active judge of any Federal appellate court in the 
country. In response, the CAVC was authorized in 2008, as part of the 
Veterans Benefits Improvement Act, to expand temporarily from seven to 
nine judges as of January 2010.
    The authorization to increase the number of CAVC judges was set to 
expire at the end of 2012 if the positions were not filled within that 
timeframe. Fortunately for the CAVC, the two available vacancies were 
filled prior to the authority's expiration date. Due to this temporary 
authorization the CAVC now stands at nine judges, an increase justified 
due the growing number of appeals.
    If these two temporarily authorized appointments become vacant, the 
CAVC is not authorized to replace them as restricted under title 38, 
United Stated Code, Sec. 7253 (i) (2), which sets the limit of judges 
to not more than seven. Allowing the number of judges to drop below 
nine would adversely impact the CAVC's ability to make timely decisions 
because the remaining judges would be left to absorb the ongoing 
workload.
    DAV has no resolution to support this bill; however, because 
permanently expanding the number of judges would be in the best 
interest of veterans who rely on the Court to resolve their claims, we 
would not object to its favorable consideration.
           s. 1885--the veteran housing stability act of 2015
    This bill would amend title 38, United States Code, by expanding 
service and assistance to include veterans who are homeless, at risk of 
becoming homeless, and veterans with very low income. This expansion 
would also include veterans transitioning to occupancy, and maintaining 
permanent residential occupancy. In addition, this bill would also 
expand the current definition of ``covered veteran'' to include a 
veteran who is enrolled in the VA homeless registry.
    This legislation would require the Secretary to implement case 
management oversight for veterans enrolled in the homeless registry, 
participating in programs falling under the homeless veteran category, 
and those associated with it. It would establish reporting requirements 
to Congress. The bill would also designate intense case management 
sites in three locations with the highest homeless veteran populations 
across the United States, and three in suburban or rural areas totaling 
no fewer than six sites.
    This bill also would require the Secretary to utilize resources 
from within the community. It would require the Secretary to conduct 
outreach, educating those with resources relative to housing about the 
needs of veterans, and the benefits of having veterans as tenants, and 
build upon community relationships. The Secretary would be required to 
collaborate with other community service providers, particularly 
housing and urban development, public housing, tribally designated 
housing, realtors, landlords, property management companies, and 
developers. This bill would establish criteria to use in determining 
success or failure of the services provided.
    This bill would establish a VA National Center of Homelessness 
Among Veterans. The center would function as a clearinghouse and 
resource center, wherein all factors affecting veterans' homelessness 
can be researched. The center would also provide oversight on the 
effectiveness of related programs, and provide a foundation for best 
practices in reducing homelessness. The center would open no later than 
September 1, 2016, with a report due to Congress no later than 
December 1, 2018.
    DAV is pleased to offer support of this bill. It is consistent with 
DAV Resolution No. 118, which calls for sustained and sufficient 
funding to improve services for homeless veterans.
     s. 2013--the los angeles homeless veterans leasing act of 2015
    This bill would authorize the Department of Veterans Affairs (VA) 
to carry out certain leases at the VA's West Los Angeles Campus in Los 
Angeles, California, for establishment of supportive housing; health, 
education, and family support; vocational training, and other services 
that principally benefit veterans and their families. The bill would 
also authorize a lease of real property to a California institution 
that has had a long-term medical affiliation with the VA at the Los 
Angeles campus.
    DAV has received no resolution from our membership; however, we 
would not be opposed to enactment of this bill.
        s. 2022--to increase the amount of special pension for 
                       medal of honor recipients
    The appropriate Secretary of the Army, Navy, Air Force, or Coast 
Guard is required to pay a special pension on a monthly basis to each 
living person whose name has been entered on the Medal of Honor (MOH) 
Roll. The base rate for this special pension is currently $1,000 per 
month. This payment increases based on changes in cost of living.
    This bill would increase the base rate of this special pension from 
$1,000 to $3,000. The bill also includes provisions that would govern 
the annual periodic increase of this benefit.
    The MOH pension is paid as a sole benefit or added to VA pension or 
compensation rates for veterans who were awarded the MOH for their 
distinguished military service. While DAV has no resolution to endorse 
this particular legislation, we would not object to its enactment, 
which would provide this increased benefit to these deserving members 
of our Armed Forces who have gone above and beyond the call of duty for 
our country.

    Mr. Chairman and Members of the Committee, this concludes DAV's 
testimony. We thank the Committee for inviting DAV to submit this 
testimony for the record of this hearing. DAV is prepared to respond to 
any further questions by Committee Members on the positions we have 
taken with respect to the bills under consideration.
                                 ______
                                 
     Letter from Gregory C. Scott, President & CEO, New Directions 
                              for Veterans
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                 ______
                                 
Prepared Statement of Diane Boyd Rauber, Esq., Director of Legislative 
 and Regulatory Affairs, National Organization of Veterans' Advocates, 
                                  Inc.
    On behalf of the National Organization of Veterans' Advocates, Inc. 
(NOVA), I would like to thank Chairman Isakson and Ranking Member 
Blumenthal for the opportunity to provide written testimony for the 
record during a legislative hearing of the Senate Committee on 
Veterans' Affairs on October 6, 2015.
    Our written testimony will address Senate Bill 1754, the ``Veterans 
Court of Appeals Support Act of 2015.''
             veterans court of appeals support act of 2015
    NOVA supports S. 1754, the ``Veterans Court of Appeals Support Act 
of 2015,'' which makes permanent the temporary increase in the number 
of judges presiding over the U.S. Court of Appeals for Veterans Claims 
(``Veterans Court'').
    In 1988, Congress enacted the Veterans Judicial Review Act of 1988 
(VJRA). The VJRA created an Article I court to provide judicial 
oversight to a veterans' benefits adjudication process that had existed 
in ``splendid isolation'' from our legal system. Brown v. Gardner, 513 
U.S. 115, 122 (1994) (quoting H.R. REP. NO. 100-963, pt. 1, at 10 
(1988), as reprinted in 1988 U.S.C.C.A.N. 5782). Veterans and their 
dependents have exercised their right to judicial appeal in growing 
numbers since the inception of the Veterans Court.
    To assist the Veterans Court, Congress provided for the recall of 
retired judges in 1999. The chief judge is authorized to recall a 
retired judge when ``substantial service is expected to be performed.'' 
38 U.S.C. Sec. 7257(b)(1). As one commentator noted, by 2007, the 
Veterans Court was frequently recalling retired judges. Michael P. 
Allen, The United States Court of Appeals for Veterans Claims at 
Twenty: A Proposal for a Legislative Commission to Consider Its Future, 
58 CATH.U.L.REV. 361, 371 n.54 (2009). Review of Miscellaneous Orders 
issued by the Veterans Court since 2007 indicates it often continues to 
exercise this authority to meet its needs. See Miscellaneous Orders 
2008-2015, United States Court of Appeals for Veterans Claims 
(available at https://www.uscourts.cavc.gov/miscellaneous--orders.php).
    In 2009, Congress further provided for assistance with a temporary 
increase in the complement of judges serving on the Veterans Court from 
seven to nine. Veterans Benefits Improvements Act of 2008, Pub. L. No. 
110-389, Sec. 601, 122 Stat. 4145, 4176-77 (amending 38 U.S.C. 
Sec. 7253). This authority expired on January 1, 2013, and without 
further action, there will be no ability to appoint additional judges 
when the next two terms expire.
    There is ample support for making the temporary increase permanent. 
In an effort to reduce the much-publicized claims backlog, the VA has 
processed record numbers of claims in the past few years. According to 
the VA, their overall claims inventory was reduced from 883,930 to 
366,648 during the period between July 13, 2012 and September 26, 2015. 
In addition, the VA reports their ``claims backlog,'' i.e., the subset 
of the claims inventory representing claims ``awaiting a rating 
decision for more than 125 days since receipt,'' was reduced from 
611,073 to 75,444 between March 25, 2013 and September 26, 2015. See 
Veterans Benefits Administration Status Reports (available at http://
benefits.va.gov/REPORTS/detailed--claims--data.asp; last reviewed 
October 2, 2015). This action is resulting in an increasing numbers of 
appeals to the Board of Veterans' Appeals (Board) and, in turn, to the 
Veterans Court.
    Specifically, from FY 2010 through FY 2013, the Board dispatched an 
average of 45,981 decisions per year. U.S. Department of Veterans 
Affairs, Board of Veterans' Appeals Annual Report (Fiscal Year 2014) 28 
(July 2015) (available at http://www.bva.va.gov/docs/
Chairmans_Annual_Rpts/BVA2014AR.pdf); Board of Veterans' Appeals Annual 
Report (Fiscal Year 2013) 25 (available at http://www.bva.va.gov/docs/
Chairmans_Annual_Rpts/BVA2013AR.pdf). In FY 2014, the number of 
decisions dispatched jumped to 55,532. Board of Veterans' Appeals 
Annual Report (Fiscal Year 2014) at 28. In its most recent Annual 
Report, the Board estimated it would physically receive 74,072 cases 
for consideration and potentially issue 57,600 decisions in FY 2015. 
Id. at 21; 28. The number of decisions dispatched is expected to keep 
rising, particularly as the Board has significantly increased the 
number of staff attorneys in its employ and is authorized to expand the 
number of Board members from 64 to 78.
    In turn, the Veterans Court received an average of 3,988 appeals 
and petitions between FY 2010 and FY 2013. United States Court of 
Appeals for Veterans Claims, Annual Reports (Fiscal Year 2010-2013) 
(available at http://www.uscourts.cavc.gov/report.php). In FY 2014, the 
number of appeals and petitions rose to 4,057. United States Court of 
Appeals for Veterans Claims, Annual Report (Fiscal Year 2014) 
(available at http://www.uscourts.cavc.gov/documents/
FY2014AnnualReport06MAR 15FINAL.pdf). If the Board's projections are 
any indication, the demand on the Veterans Court is likely to grow at 
an accelerated rate.
    Veterans who seek redress before the Veterans Court have endured 
many years of agency processing and review while waiting for the 
compensation earned through their service and sacrifice. These long 
delays should not be increased due to judicial backlogs related to an 
understaffed Veterans Court. The Veterans Court should be equipped to 
handle the anticipated influx of cases with a suitable number of 
qualified judges. Passage of the Veterans Court of Appeals Support Act 
of 2015 is one essential way to tackle the avalanche of appeals just on 
the horizon. Anything less would be an injustice.
    For more information: NOVA staff would be happy to assist you with 
any further inquiries you may have regarding our views on this 
important legislation. For questions regarding this testimony or if you 
would like to request additional information, please feel free to 
contact NOVA Executive Director David Hobson by calling our D.C. office 
at (202) 587-5708 or by emailing David directly at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="24404c4b46574b4a64">[email&#160;protected]</a> 
vetadvocates.org.
                                 ______
                                 
  Prepared Statement of Barton F. Stichman, Joint Executive Director, 
                National Veterans Legal Services Program
    Mr. Chairman and Members of the Committee: Thank you for the 
opportunity to present the views of the National Veterans Legal 
Services Program (NVLSP) on pending legislation. This testimony focuses 
on S. 1754, which would make permanent the temporary increase in the 
number of judges presiding over the U.S. Court of Appeals for Veterans 
Claims. The temporary increase was to nine full-time judges and this 
bill would make that number of judges a permanent fixture at the Court.
    NVLSP is a nonprofit veterans service organization founded in 1980. 
Since its founding, NVLSP has represented over 2,000 appellants before 
the Court of Appeals for Veterans Claims. NVLSP is one of the four 
veterans service organizations that comprise the Veterans Consortium 
Pro Bono Program. In conjunction with the Consortium, NVLSP has, since 
1992, recruited, trained, and mentored thousands of volunteer lawyers 
to represent on a pro bono basis veterans who have appealed a Board of 
Veterans' Appeals decision to the CAVC without a representative. In 
addition, NVLSP publishes through Lexis Law Publishing the leading 
treatise on veterans law--the 1900-page Veterans Benefits Manual--that 
is regularly used by those who represent appellants before the CAVC.
    NVLSP supports passage of S. 1754. In the past several years, the 
caseload of the Court has increased significantly. In fiscal year 2013, 
the Court received 3,724 case initiations (3,531 appeals and 193 
petitions for a writ of mandamus). In calendar year 2014, the Court 
received 4,438 case initiations. In the first nine months of calendar 
year 2015, the rate of case initiations further increased to an annual 
rate of 4,988. Over the last several years, the Court has had nine 
full-time judges. Although the caseload has increased, the nine full-
time judges have been able to continue to issue decisions within a 
reasonably short period of time after the briefs arrive in chambers for 
a decision. Given the rising caseload and the fact that it is likely to 
continue, allowing the number of full-time judges to fall below nine 
would threaten the progress the Court has made in issuing decisions 
within a short period of time.
    An additional reason for NVLSP's support of S. 1754 involves the 
Court's overuse of a shortcut in disposing of appeals--use of its 
statutory authority under 38 U.S.C. Sec. 7254(b) to decide cases by a 
single judge. Single-judge decisions are issued by the Court in the 
form of a ``memorandum decision'' and are not precedential. Only 
published opinions issued by a panel of three judges or more carry 
precedential value. See Bethea v. Derwinski, 2 Vet. App. 252 (1992). No 
other Federal court of appeals has authority to decide cases by single 
judge; all of these other courts of appeal decide cases in panels of 
three judges or more. Some of these three-judge decisions in the other 
Federal court of appeals are designated as precedential, while others 
are designated as non-precedential.
    In recent years, single-judge dispositions by the CAVC have come to 
dominate to a degree far greater than non-precedential decisions are 
used in the other Federal courts of appeals. In fiscal years 2013 and 
2014, the CAVC issued a precedential decision (i.e., an appeal decided 
by a panel of three judges or more) in only 1.8% of the cases decided 
by chambers (75 of 4,221). By comparison, in fiscal year 2014, the 
Federal geographic courts of appeals handled 12% of judgments by a 
precedential opinion.\1\ Although there was some variance, no Federal 
court of appeals issued a precedential decision in less than 6% of its 
decisions.\2\
---------------------------------------------------------------------------
    \1\ See Statistics Div., Admin. Off. U.S. Cts., Judicial Business 
of the United States Courts: 2014 Annual Report of the Director, 
[hereinafter, U.S. Courts 2014 Report] tbl. B-12, available at http://
www.uscourts.gov/statistics-reports/judicial-business-2014.
    \2\ See id.
---------------------------------------------------------------------------
    The relative lack of precedential decisionmaking by the CAVC is 
inconsistent with its role as a national judicial interpreter of the 
law. The Court's aversion to precedential decisionmaking has an adverse 
impact on the claims adjudication process. The lack of precedential 
decisions that interpret the meaning of statutes and regulations leaves 
veterans, the VA regional offices, and the Board of Veterans' Appeals 
without binding guidance on how these authorities should be 
interpreted. When the VA decides claims in situations where the law is 
not clear, it encourages veterans whose claims are denied to appeal to 
a higher authority. Thus, the lack of binding precedent on the proper 
construction of a statute or regulation exacerbates the existing 
backlog of pending appeals within VA and leads to inconsistent outcomes 
for similarly situated veterans.
    Shortly after the Court was created by Congress, the CAVC took 
reasonable steps to cabin its authority to dispose of an appeal by a 
single judge. It announced in Frankel v. Derwinski, 1 Vet. App. 20, 25-
26 (1990) that a single-judge disposition was only appropriate if ``the 
case on appeal is of relative simplicity'' and

    1. does not establish a new rule of law;
    2. does not alter, modify, criticize, or clarify an existing rule 
of law;
    3. does not apply an established rule of law to a novel fact 
situation;
    4. does not constitute the only recent, binding precedent on a 
particular point of law within the power of the Court to decide;
    5. does not involve a legal issue of continuing public interest; 
and
    6. the outcome is not reasonably debatable.

The CAVC continues to publicly embrace the Frankel criteria to this 
day.
    But a survey of the single-judge decisions issued by the Court in 
2013 and 2014 demonstrates that the Court is not faithful to these 
reasonable criteria. As the Court's annual reports reflect, there are 
three possible outcomes to an appeal over which the Court has 
jurisdiction: the Board of Veterans' Appeal decision denying benefits 
is either (1) affirmed, (2) reversed, or (3) vacated and remanded for 
further administrative proceedings. In calendar year 2013, the variance 
in the affirmance rates among the nine judges in a single-judge 
decision was between a low of 26% for one judge to a high of 65% for 
another judge. In other words, in 2013, the first judge was 2.5 times 
more likely to affirm a challenge to a BVA decision denying a claim for 
benefits than the second judge. In 2013, three of the nine full-time 
judges were each over twice as likely to affirm a challenge to a BVA 
decision denying a benefits claim as either of two other judges.
    The variance in the results of single-judge memorandum decisions in 
2014 was just as great as it was in 2013. The judge with the highest 
affirmance rate (60%) in 2014 was the same judge who had the highest 
affirmance rate in 2013. The judge with the lowest affirmance rate 
(22%) in 2014 was the same judge who had the lowest affirmance rate in 
2013. In 2014, as in 2013, the judge with the highest affirmance rate 
was over 2.5 times more likely to affirm a challenge to a BVA decision 
denying a claim for benefits than the judge with the lowest affirmance 
rate. In 2014, four of the nine full-time judges as an aggregate were 
over twice as likely to affirm a challenge to a BVA decision denying a 
benefits claim as three of the other judges as an aggregate.
    A statistical analysis of the large variance in 2013 and 2014 in 
the affirmance rates among the nine CAVC judges is that the magnitude 
of the variance cannot be explained by chance. That is, the large 
variance shows that single judges in 2013 and 2014 reached outcomes in 
some individual appeals that would result in a different outcome had 
the appeal been adjudicated instead by one or more of the other judges. 
This is compelling evidence that single judges issued a significant 
number of memorandum decisions in 2013 and 2014 that were ``reasonably 
debatable,'' in violation of the last Frankel criterion.
    Members of the Court's Bar have communicated with the Court about 
the problems with the Court's overuse of nonprecedential single-judge 
decisionmaking. NVLSP is hopeful that the Court will respond to this 
constructive criticism by adjusting its decisionmaking process so that, 
at minimum, the percentage of cases decided by a panel of three CAVC 
judges in a precedential opinion approximates the percentage of 
precedential cases decided by the other Federal courts of appeal. NVLSP 
believes that by providing the Court with a permanent roster of nine 
full-time judges, S. 1754 will serve as a catalyst to encourage the 
Court to make this adjustment. The Committee should, however, consider 
amending S. 1754 by adding a requirement that the Court periodically 
report to the Senate and House Committees of Veterans Affairs about the 
steps it is taking to adjust its decisionmaking process so that the 
percentage of cases decided by a panel of three CAVC judges in a 
precedential opinion is equal to or exceeds the percentage of 
precedential cases decided by the other Federal courts of appeal.
                                 ______
                                 
          Prepared Statement of Paralyzed Veterans of America
    Chairman Isakson, Ranking Member Blumenthal, and Members of the 
Committee, Paralyzed Veterans of America (PVA) would like to thank you 
for the opportunity to submit our views on legislation pending before 
the Committee. We appreciate the Committee focusing on these issues 
that will affect veterans and their families.
  s. 717, the ``community provider readiness recognition act of 2015''
    PVA supports S. 717, the ``Community Provider Readiness Recognition 
Act of 2015.'' This legislation would allow the Department of Defense 
(DOD) and the Department of Veterans Affairs (VA) to designate certain 
non-department mental health care providers as knowledgeable, 
comfortable, and understanding of the culture of members of the armed 
services. It would make available a registry of those mental health 
providers for servicemembers and veterans to use. Given the critical 
shortage of mental health providers within the VA, community providers 
are often the only option. Many may be ill-equipped to provide care 
specific to one's military experience. By designating those culturally 
competent providers, VA can lessen the likelihood servicemembers and 
veterans will receive poorer quality care.
   s. 1676, the ``delivering opportunities for care and services for 
                         veterans act of 2015''
    PVA supports S. 1676, the ``Delivering Opportunities for Care and 
Services for Veterans Act of 2015.'' This legislation seeks to address 
workforce issues inhibiting the Department of Veterans Affairs from 
meeting the needs of veterans in rural areas. This bill would allow for 
the training and hiring of desperately needed medical and behavioral 
health providers at VA medical facilities. It would ensure that the 
additional 1,500 medical residency slots authorized by the Veterans 
Access, Choice, and Accountability Act of 2014 would not count toward 
the current cap put in place by the Balanced Budget Act of 1997 on 
Medicare-funded graduate medical education (GME) positions. Further, it 
would establish mental health residency programs between VA and Indian 
Health Services (IHS) and clarify that doctoral degrees be recognized 
when determining eligibility for mental health counselor positions. The 
veterans of Iraq and Afghanistan are the most rural veteran cohort 
since World War I. These men and women will continue to rely on the VA 
system for decades to come. This legislation will help to resource VA 
with critically needed providers and leadership.
     s. 1754, the ``veterans court of appeals support act of 2015''
    PVA in accordance with past recommendations of The Independent 
Budget supports S. 1754, the ``Veterans Court of Appeals Support Act of 
2015.'' As pointed out in the current version of The Independent 
Budget, the Court of Appeals for Veterans Claim's (CAVA) caseload 
averages roughly 4,600 cases per year making it have one of the 
highest, if not the highest, caseloads per active judge of any Federal 
appellate court in the country. Recognizing this challenge, in 2008 the 
CAVC was authorized to temporarily expand to nine judges.
    We ask the Committee and Congress to enact S. 1754 to permit a 
permanent increase in judge appointments to keep pace with an 
increasing caseload that PVA believes will continue to grow as the VA 
backlog is reduced.
         s. 1885, the ``veteran housing stability act of 2015''
    PVA fully supports S. 1885, the ``Veteran Housing Stability Act of 
2015.'' PVA has continuously supported improving the housing options 
for homeless veterans. Veterans have made this country strong and 
protected our way of life. It is unfortunate that many veterans, often 
faced with the challenges of mental illness and substance abuse, become 
trapped in the ravages of homelessness.
    The VA has had several successes in reducing homelessness among 
veterans, but there is still more that can be done. The proposed 
legislation will continue to improve on previous programs and also 
provide for some of the most at risk veterans through the provisions of 
Section 3's program of intensive management interventions for veterans 
covered by the legislation. PVA's greatest concern is that as has 
happened in the past, Congress dictates VA programs without an adequate 
increase in funding. While funding provisions are not included in the 
legislation, PVA welcomes the reporting requirements that would 
identify both the cost of carrying out the program, as well as an 
estimate of costs VA would have incurred for services had the program 
not existed.
    In addition, PVA welcomes efforts to improve the retention of 
housing by veterans that were formally homeless. Preventing veterans 
from becoming homeless in the first place should be the overarching 
goal of homeless programs. In the event a veteran becomes homeless and 
is able to acquire new housing, it is even more critical to break the 
cycle of homelessness to prevent them from becoming homeless again. PVA 
applauds these efforts as well as the expansion of housing assistance 
programs outlined in Section 5.
    America's veterans are some of the most deserving citizens and it 
is critical that the Nation demonstrate their continuing care for those 
who have borne the battle, especially when they suffer from 
homelessness.
   s. 2013, the ``los angeles homeless veterans leasing act of 2015''
    PVA supports S. 2013, the ``Los Angeles Homeless Veterans Leasing 
Act of 2015.'' This legislation would authorize the Department of 
Veterans Affairs (VA) to work with local governments and non-profits to 
enter into long-term lease agreements for the sole purpose of providing 
supportive housing to veterans. The services that must be furnished by 
the lease-holders include nutrition, health care, vocational training, 
child care and transportation. Similar leases have been used to develop 
housing at VA properties across the country. Los Angeles County has 
around 4,400 chronically homeless veterans, according to the Los 
Angeles Homeless Services Authority. This is the largest population of 
homeless veterans in the country. Given budget shortfalls for 
construction, this bill will allow VA to create new housing faster than 
the agency could on its own by partnering with local governments and 
non-profits.
                                s. 2022
    PVA supports the increase in the special pension for Medal of Honor 
recipients. As our most honored heroes, those who have earned this 
prestigious honor, deserve our greatest respect and support.
    Once again, we thank you for the opportunity to submit for the 
record. We look forward to working with the Committee to see these 
proposals through to final passage. We would be happy to take any 
questions you have for the record.
    PVA would like to thank you again for the opportunity to testify on 
the proposed legislation. We hope that the Committee will give these 
bills swift consideration and move them forward for consideration in 
the full Senate. We would be happy to answer any questions that you may 
have.
                                 ______
                                 
    Prepared Statement of Aleks Morosky, Deputy Director, National 
   Legislative Service, Veterans of Foreign Wars of the United States
    Chairman Isakson, Ranking Member Blumenthal and Members of the 
Committee, on behalf of the men and women of the Veterans of Foreign 
Wars of the United States (VFW) and our Auxiliaries, I would like to 
thank you for the opportunity to testify on today's pending 
legislation.
    s. 717, the community provider readiness recognition act of 2015
    This legislation seeks to improve the private sector's ability to 
provide culturally competent and evidence-based mental health care to 
servicemembers and veterans by establishing a Department of Veterans 
Affairs/Department of Defense (VA/DOD) mental health readiness program 
for private sector providers. The VFW agrees with the intent of this 
legislation, but cannot support the bill as written.
    In a recent study entitled ``Ready to Serve'' the RAND Corporation 
found that only 13 percent of private sector mental health providers 
deliver culturally competent and evidence-based mental health care. The 
VFW is also concerned by RANDs findings that less than 18 percent of 
TRICARE affiliates and less than 50 percent of private sector providers 
who work in a military or VA setting met RAND's readiness criteria. The 
VFW acknowledges that VA and the military health care systems may never 
have the resources or capacity to directly deliver timely mental health 
care to all the servicemembers and veterans they serve. Thus, the two 
systems have a vested interest to ensure the private sector is ready 
and able to provide high quality mental health care when such care is 
not readily available at military treatment facilities or VA medical 
facilities.
    The VFW supports the intent of the readiness program, however, we 
are concerned that a readiness designation would be interpreted by 
servicemembers and veterans as VA and DOD deeming providers who are 
listed in the readiness registry as participants in their respective 
private sector provider networks. This may result in servicemembers and 
veterans receiving care from providers on the registry, but not being 
covered for such services by VA or DOD.
    To ensure this does not occur, the VFW recommends that the 
Committee amend the legislation to limited program eligibility to 
private sector providers who have been approved to participate in the 
VA Choice network or the TRICARE network. This would incentivize 
providers to join VA and DOD networks and would increase readiness 
among private sector mental health care providers who treat 
servicemembers and veterans.
    However, the VFW would oppose making the readiness program a 
requirement for acceptance into VA's or DOD's private sector provider 
networks. Approval to participate in VA's and DOD's networks must 
continue to be based on a provider's accreditation and license to 
practice medicine.
               s. 1676, the docs for veterans act of 2015
    The VFW supports ten of the eleven sections included in this 
legislation which would improve the quality of health care for rural 
veterans. The VFW does not support section 202 as written, but would 
like to offer a suggestion to improve it.
    VA is the largest single provider of health professions education 
in the United States and is second only to Medicare and Medicaid in 
funding graduate medical education (GME). According to VA, more than 
120,000 health professionals train in VA medical facilities annually 
and almost all VA medical facilities have some health professions 
trainees. To further increase VA's role in training America's health 
care workforce, the Veterans Access, Choice and Accountability Act of 
2014 authorized VA to add 1,500 additional GME residency slots over 
five years. However, a Medicare imposed cap on GME slots has limited 
VA's academic affiliates from accepting additional slots. We support 
removing that barrier to ensure VA continues to train America's health 
care providers. This legislation also includes other provisions that 
would increase access to VA health care for rural veterans. With the 
growing number of veterans living in rural areas, the VFW supports 
efforts to ensure rural veterans have timely access to the health care 
they need.
    This legislation would also require that at least 30 percent of 
VA's Education Debt Reduction Program beneficiaries practice medicine 
in rural or highly rural areas. While the VFW supports expanding health 
care access for rural veterans, we cannot support establishing a quota 
for this important program. The Education Debt Reduction Program 
enables VA to recruit and retain the best and brightest health care 
professionals throughout the country. Requiring VA to have 30 percent 
of program beneficiaries practice in rural areas may limit VA's ability 
to recruit and retain health care professionals in areas or occupations 
with the greatest need. The VFW recommends the Committee amend section 
202 to ensure the Education Debt Reduction Program is appropriately 
dispersed among health care providers in urban, rural and highly rural 
areas without establishing quotas.
       s. 1754, the veterans court of appeals support act of 2015
    The VFW supports this legislation, which would permanently increase 
the number of judges at the Court of Appeals for Veterans Claims (CAVC) 
from seven to nine.
    Under current law, the CAVC is authorized up to seven active 
judges, but temporary expansions of two additional judges were 
authorized in 2001 and again in 2008. These expansions came in an 
effort to stagger the terms of the judges. The original members of the 
CAVC all had terms that ended at the same time. The temporary expansion 
allowed more judges to be appointed within a certain timeframe, with 
the thought that there would then be some judges on the court who had 
at least a few years of experience when the majority of the judges 
retired. Unfortunately, since the current cohort also have terms that 
end around the same time, the Court will soon be in a similar 
predicament.
    The current situation is as follows: Judge Moorman recently 
retired, bringing the Court down to eight members. The terms of Judge 
Hagel, Kasold, Schoelen, Davis, and Lance all expire in 2018 and 2019. 
Judges Greenberg, Pietsch and Bartley were all appointed in 2012 under 
the last expansion.
    While it is possible for judges to be reappointed, it is unlikely 
that more than two of the five whose terms expire in the next few years 
will seek or accept reappointment. The VFW believes that expanding the 
Court is necessary to avoid a circumstance where judicial nomination, 
which can be an intensive and politically fraught process, would reduce 
the number of members of the court. If the Court is temporarily reduced 
to five of the seven judges authorized while they wait for the 
nomination and installation process, the backlog of cases at the Court 
would almost certainly grow, along with veterans' wait times.
    With over 318,000 total appeals pending at VA, the appeals to the 
Board and the Court will only continue to grow in the foreseeable 
future. The VFW believes that the CAVC must remain fully staffed in 
order to handle the coming workload. With this in mind, we believe it 
is both justified and prudent to permanently expand the number of 
judges at the CAVC.
          s. 1885, the veterans housing stability act of 2015
    The VFW firmly believes that no veteran should ever be homeless. We 
praise the great progress that has been made in reducing veterans' 
homelessness in recent years as a direct result of coordinated efforts 
across multiple government agencies to provide transitional housing, 
rapid rehousing, and employment programs for veterans in need. This 
legislation seeks to build on that progress by improving the benefits 
afforded to homeless veterans. The VFW supports this legislation and 
has a suggestion to improve it.
    This legislation would clarify the definition of homeless, thereby 
aligning it with the McKinney-Vento Act to include those displaced by 
domestic violence. Expanding the definition of homeless to include 
veterans who are fleeing situations of domestic abuse is the right 
thing to do. This change would ensure veterans who have the courage to 
leave their abusive and sometimes life-threatening situations receive 
access to the benefits VA already provides thousands of homeless 
veterans. The VFW believes this legislation will significantly improve 
the lives of those who become homeless as a result of difficult 
circumstances outside of their control, and help them begin a new 
chapter in their lives.
    This legislation would also provide case management services to 
veterans who are at risk of becoming homeless to ensure they are able 
to retain their housing. This legislation would expand other homeless 
programs to at risk veterans. The VFW believes that the best way to 
eliminate homelessness among veterans is through prevention. We fully 
support such expansion and believe it will enable the Administration to 
significantly reduce the number of homeless veterans.
    The VFW generally supports section 7, which would require the 
Secretary to establish a national center for homelessness among 
veterans. While the VFW recognizes the need for a center of excellence 
to collect and disseminate best practices, we are concerned the center 
may not have the ability to ensure VA medical facilities and regional 
offices utilize such best practices. For this reason, we suggest that 
this section include an operations and compliance mechanism to ensure 
the Department fully benefits from having a center of excellence that 
improves the benefits VA provides homeless veterans.
     s. 2013, the los angeles homeless veterans leasing act of 2015
    The national VFW supports the position of the Department of 
California VFW to quickly enact S. 2013. This legislation sets the 
course to return the Veterans Affairs West Los Angeles Campus to a 
campus that meets the intent of the land grant by providing services 
directly to veterans in the community. We look forward to its quick 
passage.
s. 2022, to amend title 38, united states code, to increase the amount 
    of special pension for medal of honor recipients, and for other 
                               purposes.
    This legislation would increase the amount of special pension 
granted to Medal of Honor recipients from $1,000 to $3,000 per month, 
adjusted annually for inflation. Medal of Honor recipients are held in 
the highest esteem by the veterans and military community. These men 
have turned the tide of battle against overwhelming enemy forces, and 
saved the lives of their comrades at great risk to themselves. With 
only 78 Medal of Honor recipients alive today, increasing their pension 
would not create a significant cost, but would represent a small but 
meaningful token of our appreciation for their heroic actions. 
Accordingly, the VFW supports this legislation.

    Mr. Chairman, this concludes my testimony and I will be happy to 
answer any questions you or the Committee Members may have.
                                 ______
                                 
         Letter from Rep. Ted W. Lieu, U.S. Member of Congress 
                            from California
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 ______
                                 
     Letter from Stephen Peck, MWS, President & CEO, United States 
                          Veterans Initiative 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 ______
                                 
    Letter from Orlando Ward, Executive Director of Public Affairs, 
               Volunteers of America--Greater Los Angeles
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



             Letters Submitted by Senator Dianne Feinstein

                               __________

      Letter from Bob Blumenfield, Councilmember, Third District, 
                          City of Los Angeles
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
            Letter from Jim Cragg, Director, Green Vets LA 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
   Letter from Janet Napolitano, President, University of California
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 ______
                                 
      Letter from Gary Toebben, President & CEO, Los Angeles Area 
                          Chamber of Commerce
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 
        Letter from Paul Koretz, Councilmember, Fifth District, 
                          City of Los Angeles
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 
       Letter from Mike Bonin, Councilmember, Eleventh District, 
                          City of Los Angeles
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 
         Letter from Eric Garcetti, Mayor, City of Los Angeles
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 
  Letter from Nan Roman, President and CEO, The National Alliance to 
                            End Homelessness
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 ______
                                 
   Letter from Gene D. Block, Chancellor, University of California, 
                              Los Angeles
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 ______
                                 
  Letter from Melanie Gideon, MHSA, Director, UCLA Health--Operation 
       Mend, Executive Advisor, UCLA Health Sound Body Sound Mind


 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 ______
                                 
 Letter from Ben Allen, Senator, 26th District, California State Senate
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 ______
                                 
 Letter from Michael Blecker, Executive Director, Swords to Plowshares
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 ______
                                 
Letter from Joseph ``Nick'' Guest, Adjutant/Quartermaster, Veterans of 
                 Foreign Wars, Department of California
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 ______
                                 
 Letter from Members of the Board of Supervisors, County of Los Angeles
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




      

                                  <all>
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
